<html>
<title> - PERSONALITY DISORDER DISCHARGES: IMPACT ON VETERANS' BENEFITS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                    PERSONALITY DISORDER DISCHARGES:
                      IMPACT ON VETERANS' BENEFITS

=======================================================================


                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 15, 2010

                               __________

                           Serial No. 111-97

                               __________

       Printed for the use of the Committee on Veterans' Affairs





                  U.S. GOVERNMENT PRINTING OFFICE
61-755                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                           September 15, 2010

                                                                   Page
Personality Disorder Discharges: Impact on Veterans' Benefits....     1

                           OPENING STATEMENTS

Chairman Bob Filner..............................................     1
    Prepared statement of Chairman Filner........................    39
Hon. Steve Buyer.................................................    10

                               WITNESSES

U.S. Government Accountability Office, Debra A. Draper, Ph.D., 
  M.S.H.A., Director, Health Care................................    20
    Prepared statement of Dr. Draper.............................    56

U.S. Department of Defense:

  Lernes J. Hebert, Acting Director, Officer and Enlisted 
    Personnel Management, Office of the Deputy Under Secretary of 
    Defense (Military Personnel Policy)..........................    22
      Prepared statement of Mr. Hebert...........................    61
  Major General Gina S. Farrisee, Director, Department of 
    Military Personnel Management, G-1, Department of the Army...    29
      Prepared statement of General Farrisee.....................    63

U.S. Department of Veterans Affairs, Antonette M. Zeiss, Ph.D., 
  Acting Deputy Chief Patient Care Services Officer for Mental 
  Health, Office of Patient Care Services, Veterans Health 
  Administration.................................................    32
      Prepared statement of Dr. Zeiss............................    65

                                 ______

Luther, Sergeant Chuck, Killeen, TX..............................     4
    Prepared statement of Sergeant Luther........................    47
Kors, Joshua, Investigative Reporter, The Nation. Magazine.......     3
    Prepared statement of Mr. Kors...............................    40
Veterans for Common Sense, Paul Sullivan, Executive Director.....    15
    Prepared statement of Mr. Sullivan...........................    50
Vietnam Veterans of America, Thomas J. Berger, Ph.D., Executive 
  Director, Veterans Health Council..............................    16
    Prepared statement of Dr. Berger.............................    54

                       SUBMISSION FOR THE RECORD

Swords to Plowshares, Amy Fairweather, Policy Director, statement    71

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Follow-up Information:

  Clifford L. Stanley, Under Secretary of Defense (Personnel and 
    Readiness), U.S. Department of Defense, to Secretaries of the 
    Military Departments, Memorandum Regarding Continued 
    Compliance Reporting on Personality Disorder (PD) 
    Separations, dated September 10, 2010........................    73
Post-Hearing Questions and Responses for the Record:

  Hon. Bob Filner, Chairman, Committee on Veterans' Affairs to 
    Joshua Kors, Reporter, The Nation., letter dated September 
    21, 2010, and Mr. Kors responses.............................    74
  Hon. Bob Filner, Chairman, Committee on Veterans' Affairs to 
    Thomas J. Berger, Ph.D., Executive Director, Veterans Health 
    Council, Vietnam Veterans of America, letter dated September 
    21, 2010, and response memorandum dated, October 29, 2010....    76

Post-Hearing Questions and Responses for the Record--Continued

  Hon. Bob Filner, Chairman, Committee on Veterans' Affairs to 
    Gene L. Dodaro, Acting Comptroller General, U.S. Government 
    Accountability Office, letter dated September 21, 2010, and 
    response from Debra A. Draper, Director, Health Care, letter 
    dated October 6, 2010........................................    83
  Hon. Bob Filner, Chairman, Committee on Veterans' Affairs to 
    Hon. John M. McHugh, Secretary, Department of the Army, U.S. 
    Department of Defense, letter dated September 21, 2010, and 
    Army responses...............................................    87
  Hon. Bob Filner, Chairman, Committee on Veterans' Affairs to 
    Hon. Robert M. Gates, Secretary, U.S. Department of Defense, 
    letter dated September 21, 2010, and DoD responses...........    89
  Hon. Bob Filner, Chairman, Committee on Veterans' Affairs to 
    Hon. Eric K. Shinseki, Secretary, U.S. Department of Defense, 
    letter dated September 21, 2010, and VA responses............    93


                    PERSONALITY DISORDER DISCHARGES:
                      IMPACT ON VETERANS' BENEFITS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 15, 2010

                     U.S. House of Representatives,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11:11 a.m., in 
Room 334, Cannon House Office Building, Hon. Bob Filner 
[Chairman of the Committee] presiding.
    Present: Representatives Filner, Donnelly, Buyer, and Roe.

              OPENING STATEMENT OF CHAIRMAN FILNER

    The Chairman. Good morning. The hearing of the Committee on 
Veterans' Affairs will come to order. I apologize for our late 
start. As many of you know, we just went through a markup that 
took a little longer than expected. I ask unanimous consent 
that all Members may have 5 legislative days to revise and 
extend their remarks. Hearing no objection, so ordered.
    Let me just give some background on the reason for this 
hearing. If the first panel would move up to the front, that 
would be fine.
    In 2007, this Committee held a hearing to explore the 
problem of the U.S. Department of Defense (DoD) allegedly, 
improperly discharging servicemembers with preexisting 
personality disorders rather than mental health conditions 
resulting from the stresses of war, such as post-traumatic 
stress disorder (PTSD) or traumatic brain injury (TBI). This 
means that servicemembers with personality disorder (PDs) 
discharges are generally denied key military disability 
benefits and the DoD is conveniently relieved from the 
responsibility of caring for our servicemembers in the long 
term.
    These men and women continue to face an uphill battle when 
they seek benefits and services at the U.S. Department of 
Veterans Affairs (VA) because they must somehow prove that the 
so-called preexisting condition was aggravated or worsened by 
their military service.
    Following our 2007 hearing, the National Defense 
Authorization Act for Fiscal Year 2008 included a provision 
requiring DoD to submit a report to Congress on this issue. DoD 
reported that from 2002 to 2007, the Department discharged 
22,600 servicemembers with personality disorders. By the way, 
when the DoD has a chance to testify, I would like to see if 
they can answer the question, given this large number of 
discharges--why were they accepted in the first place?
    DoD policy further stated that servicemembers must be 
counseled, be given the opportunity to overcome said 
deficiencies, and must receive written notification prior to 
being involuntarily separated on the basis of a personality 
disorder. DoD also added rigor to their guidance by authorizing 
such separations only if servicemembers are diagnosed by a 
psychiatrist or a Ph.D. level psychologists of the personality 
disorder.
    It has been over 3 years since we first exposed this issue 
at our hearing in 2007. I will add that after it was exposed in 
the press, we took it up in the Committee. Mr. Kors, did a lot 
of research on this issue and we are glad to have him here 
today. We appreciate all of his hard work. Mr. Kors and 
Sergeant Luther, could you come up now so that you can be 
ready.
    It is my understanding that DoD's use of personality 
disorder discharges has decreased and that they concluded that 
no soldiers have been wrongly discharged. I am rather puzzled 
by this conclusion and would like to better understand the 
process and the criteria that were used to review the files of 
the thousands of servicemembers who were discharged with 
personality disorders. I cannot help but suspect that our men 
and women are not getting the help that they need and are 
struggling with PTSD, TBI, and other stresses of war on their 
own because of the wrongful personality disorder discharges.
    Stresses of war such as PTSD are debilitating and the 
impact can be far reaching. We know of the negative impact that 
PTSD and TBI can have on the individual's mental health, 
physical health, work, and relationships. We also know that 
veterans attempt to self-medicate by using alcohol and drugs. 
This means that PTSD and TBI can lead veterans on a downward 
spiral towards suicide attempts and homelessness.
    Just this past summer, we all heard that the United States 
Army reported suicide rates of over 20 per 100,000, which now 
exceeds the national suicide rate of about 19 per 100,000 in 
the general population. When high risk behaviors such as 
drinking and driving and drug overdoses are taken into account, 
it is said that more soldiers are dying by their own hand than 
in combat. Similarly, we know that homelessness continues to be 
a significant problem for our veterans, especially those 
suffering with PTSD and TBI.
    Now, 3 years later, the Committee continues to hear of 
accounts of wrongful personality disorder discharges. This begs 
the question of how many soldiers have to commit suicide, go 
bankrupt, and end up homeless before real action is taken to 
remedy this problem. Clearly, our veterans must not be made to 
wait longer and must not be denied the benefits they are 
entitled to.
    I look forward to hearing from our witnesses today as we 
further expose the problem of personality disorder discharges, 
better understand the steps that DoD has taken to deal with 
this problem, and forge a path forward to help our 
servicemembers who were improperly discharged with 
personalities disorders.
    [The prepared statement of Chairman Filner appears on p. 
39.]
    The Chairman. When Mr. Buyer returns, I will be happy to 
give him time to do an opening statement.
    The first panel is made up of Sergeant Chuck Luther, a 
veteran who will tell his own story of having personally 
experienced this practice. I mentioned Joshua Kors, who is an 
investigative reporter for The Nation. Magazine and who has 
done some real pioneering research on this subject. We thank 
you, Mr. Kors, for your service to the Nation in this regard.
    Mr. Kors, you have time before the Committee.

STATEMENTS OF JOSHUA KORS, INVESTIGATIVE REPORTER, THE NATION. 
        MAGAZINE; AND SERGEANT CHUCK LUTHER, KILLEEN, TX

                    STATEMENT OF JOSHUA KORS

    Mr. Kors. Thank you. Good morning. I have been reporting on 
personality disorder for several years, and I am here today to 
talk about the thousands of soldiers discharged with that 
condition since 2001.
    A personality disorder discharge is a contradiction in 
terms. Recruits who have a severe preexisting illness like a 
personality disorder, do not pass the rigorous screening 
process and are not accepted into the Army. In the 3\1/2\ years 
I have been reporting on this story, I have interviewed dozen 
of soldiers discharged was personality disorder. All of them 
passed that original screening and were accepted into the Army. 
They were deemed physically and psychologically fit in a second 
screening as well, before being deployed to Iraq and 
Afghanistan, and served honorably there in combat. In each 
case, it was only when they became physically wounded and 
sought benefits that their preexisting condition was 
discovered.
    The consequences of a personality disorder discharge are 
severe. Because PD is a preexisting condition, soldiers 
discharged with it cannot collect disability benefits. They 
cannot receive long-term medical care like other wounded 
soldiers. And they have to give back a slice of their signing 
bonus. As a result, on the day they are discharged, thousands 
of injured vets learn they actually owe the Army several 
thousand dollars.
    Sergeant Chuck Luther is a disturbing example of how the 
Army applies a personality disorder discharge. Luther was 
manning a guard tower in the Sunni triangle north of Baghdad 
when a mortar blast tossed him to the ground, slamming his head 
against the concrete, leaving him with migraine headaches so 
severe that vision would shut down in one eye. The other, he 
said, felt like someone was stabbing him in the eye with a 
knife. When Luther sought medical care, doctors at Camp Taji 
told him that his blindness was caused by preexisting 
personality disorder.
    Luther had served a dozen years, passing eight screenings 
and winning 22 honors for his performance. When he rejected 
that diagnosis, Luther's doctors ordered him confined to a 
closet. The sergeant was held in that closet for over a month, 
monitored around the clock by armed guards who enforced sleep 
deprivation--keeping the lights on all night, blasting heavy 
metal music at him all through the night. When the sergeant 
tried to escape, he was pinned down, injected with sleeping 
medication, and dragged back to the closet. Finally, after over 
a month, Luther was willing to sign anything--and he did, 
signing his name to a personality disorder discharge.
    The sergeant was then whisked back to Fort Hood, where he 
learned the disturbing consequences of a PD discharge--no 
disability pay for the rest of his life, no long-term medical 
care, and he would now have to pay back a large chunk of his 
signing bonus. Luther was given a bill for $1,500 and told that 
if he did not pay it, the Army would garnish his wages and 
start assessing interest.
    Since 2001, the military has pressed 22,600 soldiers into 
signing these personality disorder documents at a savings to 
the military of over $12.5 billion in disability and medical 
benefits. The sergeant's story was part 3 in my series on 
personality disorder. In part 2, I interviewed military doctors 
who talked about the pressure on them to purposely misdiagnose 
wounded soldiers. One told a story of a soldier that came back 
with a chunk missing from his leg. His superiors pressed him to 
diagnose that as personality disorder.
    In 2008, after several Congressmen expressed outrage at 
these discharges, President Bush signed a law requiring the 
Pentagon to study PD discharges. Five months later, the 
Pentagon delivered its report. Its conclusion: Not a single 
soldier had been wrongly diagnosed and not a single soldier had 
been wrongly discharged. During this 5-month review, Pentagon 
officials interviewed no one, not even the soldiers whose cases 
they were reviewing.
    Three years ago, during a hearing on personality disorder 
discharges, military officials sat in these seats and vowed to 
this Committee to fix this problem. Three years later, nothing 
has happened.
    [The prepared statement of Mr. Kors appears on p. 40.]
    The Chairman. Thank you, Mr. Kors.
    Sergeant Luther, thank you for being here. Thank you for 
your service. I know it is not easy to talk about your personal 
situation, but we do appreciate it.

               STATEMENT OF SERGEANT CHUCK LUTHER

    Sergeant Luther. Mr. Chairman, Committee Members, and 
guests, thank you for the opportunity to speak and help my 
fellow soldiers and veterans by telling my story. I am here 
today to say that wearing the uniform for the U.S. Army is what 
defined me. I was, and still am, very proud of the service I 
gave to my country.
    I entered the service on active-duty training status in 
February of 1988. I served 5 months on active-duty training 
status and then went on to 8 years of honorable Reserve 
service. I had a break in service and reentered the Reserves in 
2003, and after serving 8 months honorably, I enlisted into the 
active-duty Army in October of 2004. I was stationed at Fort 
Hood, Texas. I served as an administrative specialist for 3 
years and was given several awards for my leadership and 
service. I then went to retrain to become a 19D cavalry scout. 
Upon finishing school at Fort Knox, Kentucky, I returned to 
Fort Hood and was assigned to Comanche Troop, 1-7 CAV, 1st 
Brigade, and 1st Cavalry Division. I held the rank of 
Specialist ER when we left for Taji, Iraq, for a 15-month 
deployment.
    We arrived in Iraq in November of 2006. We found ourselves 
in a very violent area at the beginning of the surge. On 
December 16, 2006, I was working in the company radio area 
monitoring the group that we had outside the forward operating 
base on an escort mission. I remember that day very clearly. 
The call came in from one of our staff sergeants in that patrol 
that they had been attacked and one of our vehicles have been 
destroyed and we had three killed and one wounded. As we were 
receiving the information, we could hear the small arms fire in 
the background as they tried to recover the dead and wounded 
soldiers.
    I served as the training room noncommissioned officer, so I 
was asked to translate the combat numbers given over the radio 
to my commander and first sergeant for identity. As the 
information came over, I realized the truck that had been 
destroyed contained one of my close friend, Staff Sergeant 
David Staats, and one of the soldiers that I had taken under my 
wing, PFC Joseph Baines. I focused on the mission at hand and 
that evening, drove the first sergeant and the platoon sergeant 
of these soldiers to the mortuary affairs and helped unload 
their bodies from the vehicles bringing them home. I pushed 
through and the next morning we got word, as we were preparing 
to head to Baghdad to see the wounded soldier, that he also 
passed away. For the next 2 months, we lost several other 
soldiers from our squadron and two Iraqi interpreters.
    On February 16, 2007, I was a member of the convoy that 
drove out four boats and members of our troop to conduct a 
river recon/mosque monitoring mission. After an uneventful 
drive out, unload boats, troops, and the soldiers, we headed 
back to Forward Operating Base (FOB) Taji. As we pulled back on 
the FOB, the call came over the radio that the unit of soldiers 
had been ambushed on the river mission. We had to quickly head 
to the drop-off location to assist. Upon arriving, we received 
small arms and large-scale fire from the enemy. We found one of 
our staff sergeants lying in the middle of the beach bleeding 
from both legs. One of the lieutenants had been shot in the arm 
and two Iraqi police officers had been killed.
    We quickly put together two boats of troops and ammo to 
retrieve our soldiers. After heading up river, we received fire 
on our boat and the boat had capsized and we were stranded on 
an island for approximately 14 hours before being picked up. We 
have had limited ammunition and no radio communications. We all 
thought we were going to die that day.
    Fourteen days to the day after that event, I was sent home 
for R&R leave. I was very angry, had severe headaches, was 
depressed and would cry at times. I have fought with my wife 
and family while I was at home. I had an episode where I broke 
my hand punching walls. After not being able to cope, I 
welcomed the trip back to Iraq. Upon returning to Iraq, I was 
promoted to sergeant and received my combat action badge for my 
part in the river mission firefights.
    After returning from R&R leave, several people in my unit 
said that something had changed in me. I tried to pull it 
together, but I had trouble sleeping, had anger problems, 
severe headaches, nose bleeds, and chronic chest pain. I was 
living at the combat post x-ray. While there, I went to see the 
medics to get my inhaler for asthma refilled. I was sent back 
to the forward operating base, and upon returning to the aid 
station, the squadron aid station doctor was not present. I was 
told he was busy preparing for his triathlon he would be 
competing in after our deployment. I came back the next day and 
was seen.
    I asked to see the chaplain because I was feeling very 
depressed and needed to talk. After talking to the chaplain, I 
was sent to the quarters for 2 days and then I was allowed to 
go back to the combat outpost. Around the first of April, I was 
in guard tower 1 alpha when a mortar landed between the tower 
and the wall around the outpost. When it exploded, it threw me 
down and I hit my right shoulder and head. I had severe ringing 
in my right ear with clear fluid coming from it and had 
problems seeing out of my right eye. After a few minutes, I 
went to the medics on the outpost and was given ibuprofen and 
water and sent back to duty. I started to have worse headaches 
and could not sleep.
    They sent me back to the forward operating base and I was 
seen by the aid station by doctors and medics and then sent to 
the mental health center. I spoke with the lieutenant there who 
was a licensed clinical social worker. He had a 15-minute talk 
with me and gave me Celexia and Ambien. I was sent back to my 
quarters. The next 2 days, I began to get angry and hostile due 
to the medications, and I was sent back to the lieutenant 
colonel. He informed me that if I did not stop acting like 
this, that they were going to chapter me out under a 5-13, 
personality disorder discharge. I tried and went back to the 
aid station.
    After several days on suicide watch for making the comment 
that if I had to live like this, I would rather be dead, I 
asked to be sent somewhere where I could get help and be able 
to understand what was wrong with me. I was told I could not go 
and demanded I be taken to the inspector general of the forward 
operating base. I was told by Captain Dewees that I was not 
going anywhere, and he called for all the medics, roughly six 
to ten. I was assaulted, held down, and had my pants ripped 
from my left thigh and given an injection of something that put 
me to sleep. When I awoke, I was strapped down to a combat 
litter and had a black eye and cuts on my wrists from the zip 
ties.
    I eventually was untied and from that point forward for 5 
weeks, I was held in a room that was 6 feet by 8 feet that had 
bed pans, old blankets and other old supplies. I had to sleep 
on a combat litter and had a wool blanket.
    I was under guard 24/7, and on several occasions was told I 
was not allowed to use the phone or the Internet. I had slept 
through chow and asked to be taken to the chow hall or post 
exchange to get some food due to my medications. I was told no 
and given a fuel-soaked MRE to eat. I was constantly called a 
piece of crap, a faker, and other derogatory things. They kept 
the lights on and played all sorts of music from rap to heavy 
metal all night. The medics worked in shift, therefore, they 
didn't sleep. They rotated. These are some of the tactics that 
we would use on insurgents that we captured to break them to 
get information or confessions.
    I went through this for 4 weeks and the HHC (headquarters 
and headquarters company) commander told me to sign this 
discharge, and if I didn't, they would keep me there for 6 more 
months and then kick me out when we got back to Fort Hood 
anyway. I said I didn't have a personality disorder, and he 
told me if I signed the paperwork that I would get back home 
and get help and have all my benefits.
    After the endless nights of sleep deprivation, harassment, 
and abuse, I finally signed just to get out of there. I was 
broken. It took 2 more weeks before I was flown out and brought 
to Fort Hood. Upon returning, I was told by the rear detachment 
acting first sergeant and commander to stay out of trouble and 
they would get me out of there. I was sent out to wait on my 
wife in the rain with two duffel bags and another carry bag. 
This was my welcome home from war.
    I went home and I went to sleep, only to be awakened by 
three sergeants at my door saying I had to go back to the 
mental health due to me being suicidal and they had not had me 
checked out yet. I went to the R&R center at Fort Hood, Texas, 
and was seen by a lieutenant colonel who was a psychologist. He 
asked me why I was brought back from Iraq. I explained they 
said I had a personality disorder, and he disagreed. He shook 
his head and said that I had severe PTSD and combat exhaustion. 
He told me to get to sleep and rest and followup in a week with 
him. I was never allowed to go back to see him.
    The ironic thing is that in my military records, I held 
three Army jobs and had a total of eight mental health 
screenings that all found me fit for duty. Also, I had never 
had a negative counseling or a negative incident in my 12 years 
of Reserve and active-duty career. Two weeks after getting 
back, I was discharged from the Army. I had my pay held and 
they took my saved up leave from me for repayment of unearned 
reenlistment bonus. I received a notice in the mail 3 weeks 
after my discharge from the Department of Finance that I owed 
the Army $1,501. Three months later, I went to the VA and I was 
told they could not see me for the mental health due to my 
preexisting disorder. I went back the next week and was seen by 
a psychologist.
    After an hour with her, she scheduled me an appointment 
with a caseworker and then I had several follow-up mental 
health appointments. I was given my VA rating a year later in 
2008 of 70 percent for post-traumatic stress disorder, knee 
injury, headaches, right shoulder, and asthma. Six months 
later, after several emergency room visits and neurology 
appointments, my rating was upgraded to 90 percent and I was 
given service-connection for traumatic brain injury.
    In June of this year, after 2 years from the date that I 
filed a request with the Military Boards of Correction to have 
my discharge changed from a chapter 5-13 to a medical 
retirement, I was denied, even after the 3 years of VA medical 
documents and evidence from people that know me. I demand my 
discharge be changed and I receive the proper discharge for my 
service.
    I have since founded Disposable Warriors and I have 
assisted many veterans and soldiers in a range of issues, from 
personality disorder diagnosis to soldiers on Active duty with 
diagnosed post-traumatic stress disorder that are not been 
treated or being discharged for misconduct other than honorable 
or bad conduct discharge, which also does not entitled them to 
VA benefits.
    I want to say that it has been hell just to get my mind 
somewhat back on track and to exist. I have bouts of memory 
loss, agitation, flashbacks, paranoia, problems sleeping, and 
depression. I get angry every time I look at my DD-214 with the 
fraudulent personality disorder discharge. It cost me my 
contract jobs for private security after my exit from the Army. 
I had to get a job 3 days after I was kicked out of the Army to 
feed my wife and three children. I was taught for years in the 
Army the definition of integrity, honor, respect, and selfless 
service, all of which I gave to the Army but none was given 
back to me.
    I hold two things very dear to me this day, and it comes 
from the noncommissioned officers creed: the accomplishment of 
my mission and the welfare of my soldiers. I am on a new 
battlefield, with a new mission, and I will, at all cost, take 
care of soldiers and their families. I love my country, I love 
my Army, but we cannot stand by and watch this to continue to 
happen.
    At the very same time that this Committee was having 
Specialist John Town testify in front of them in 2007, I was 
abused, broken, and discharged for the very same thing this he 
was testifying about. Please do not let us be here in 3 years 
again with another story of shame. The lack of care and 
concern, coupled with the stigma of asking for help that we 
have allowed to be put on us, has to be totally removed. Then 
and only then will we see the veterans homelessness rate drop, 
the active duty in veterans suicide rate drop, and the 
skyrocketing of divorce decrease. The senior level of the Armed 
Forces get it. But they can talk about it, design plans for it, 
and make PowerPoints about it, but if it is not being enforced 
at the soldiers' level, it is worthless.
    In closing, I would like to state that I do not have, nor 
have I ever had a personality disorder. I suffer from post-
traumatic stress disorder and traumatic brain injury from my 
service to my country while at war in Iraq. I raised my right 
hand on several occasions and swore to protect the Constitution 
at all cost. I did my part. Now it is time for the military to 
keep its part of the agreement that if I were injured, they 
would help me get back on my feet. Please help stop these 
wrongful discharges and help get our wounded servicemen and 
women back to service or back to their families. Thank you.
    [The prepared statement of Sergeant Luther appears on p. 
47.]
    The Chairman. Thank you both for such compelling testimony.
    Mr. Kors, the last figure that both you and I had were from 
2002 to 2007, stating that DoD discharged 22,600 veterans. Has 
that number gone down since we had the first hearing?
    Mr. Kors. It was the 22,400. They have added 200 more to 
the list. But even that is tremendously outdated. That goes to 
2007.
    The Chairman. So we don't know what has happened the last 3 
years?
    Mr. Kors. We don't at all. I think the number of families 
who have been purposely cheated out of benefits is just rising 
and rising, without stop.
    The Chairman. I assume the later panels are here and heard 
that question. I hope it is answered. I am sure such an 
institution as the Army has more updated figures.
    Mr. Kors. I hope so. It is worth mentioning this is not 
just the Army. We are seeing personality disorder discharges 
across all four branches.
    The Chairman. What disorder did they have you down for, Mr. 
Luther?
    Sergeant Luther. They gave me a personal disorder NOS, not 
otherwise specified. They didn't characterize it.
    The Chairman. Nothing more specific than that?
    Sergeant Luther. No, sir.
    Mr. Kors. And that is something you see with all of these 
discharges. When you have wounds that clearly don't come from a 
personality disorder, a cleaner way to fudge it is to give a 
nonpsychological, nonaccurate diagnosis; NOS. You won't find 
that in any of the psychological manuals. But it prevents them 
from stating specifically what the issue is.
    And, of course, these discharges are being used for some of 
the most absurd things. Of course, with him, with blindness. 
With John Town here 3 years ago after he was wounded by the 
rocket and won the Purple Heart, they said he wasn't wounded. 
That his deafness came from personality disorder. I think about 
Sergeant Jose Rivera. His arms and legs were punctured by 
grenade shrapnel. They said those shrapnel wounds were caused 
by personality disorder. Sailor Samantha Spitz, her pelvis and 
two bones in her ankle were fractured. They said that her 
fractured pelvis was caused by personality disorder.
    In a case that really touched me of Specialist Bonnie 
Moore, she developed an inflamed uterus during service. They 
said her profuse vaginal bleeding was caused by personality 
disorder. Civilian doctors thought it was something a little 
more severe. She went to a hospital in Germany where they 
removed her uterus and appendix. But after being given that 
personality disorder discharge and denied all benefits, she and 
her teenage daughter became homeless. She called me just 
because she was concerned that at the homeless shelter her 
daughter would be raped.
    The Chairman. Sergeant Luther, what you described in the 
month or so after they asked you to sign these papers can only 
be described as torture, as I listen to it. Did you take any 
legal action against the Army for torturing you?
    Sergeant Luther. No, sir. At the time, my TDS (Temporary 
Duty Station) attorney told me to go ahead and sign it or I 
would stay there 6 months. When I got out it took approximately 
90 days for me to even get out of my fog to even seek help and 
when I went to the VA when they immediately denied me at first 
and some psychologist heard me talking and asked me to come 
back and then. But I have not been able to take any legal 
action. We went through the proper channels to ask the Board of 
Corrections to take the evidence and look at it. I just 
recently got a copy of that back, and it was pretty astounding.
    The Chairman. Maybe Mr. Kors knows this. Does he have any 
legal recourse to sue the Army for torture?
    Mr. Kors. The Feres doctrine coming out of the Supreme 
Court case from 1950, Feres v. U.S., provides a bubble for 
military doctors, which regardless of how egregious their 
behavior or diagnosis is, they cannot be a sued. A lot of the 
doctors I talked to who were pressured to purposely misdiagnose 
physical injuries as personality disorder, that was one of the 
tactics that their superiors gave them said, look you can go 
ahead and do this. You will be promoted for applying the false 
diagnosis, and there is no way you can be sued.
    The Chairman. Sounds like during this detainment there were 
other people besides doctors involved.
    Mr. Kors. I think legally it would be a tricky prospect.
    The Chairman. All right. Mr. Buyer.

             OPENING STATEMENT OF HON. STEVE BUYER

    Mr. Buyer. Mr. Chairman, I am going to refer to my opening 
statement.
    The Department of Defense has the responsibility to ensure 
that diagnosis of personality disorders within its ranks are 
accurate and the behavior abnormalities are not the consequence 
of combat or some other event that might result from post-
traumatic stress. That being said, this Committee does not have 
jurisdiction over the military disabilities rating system nor 
the discharge procedures. I made this very point 3 years ago 
when we held a nearly identical hearing on how the Pentagon 
handles the identification and disposition of personality 
disorder diagnosis.
    Today's hearing takes a slightly different approach as to 
how personality disorder discharges impact veterans' benefits, 
but the thrust of the discussion is the same. This is primarily 
a DoD issue. And if we hope to prompt any effective solutions, 
we should have had a joint hearing with the Armed Services 
Subcommittee.
    As for the topic of today's hearing, I think most 
participants can summarize pretty quickly how personality 
disorder discharges impacts a veteran's position. Personality 
disorders are not considered diseases for VA compensation 
purposes and except in cases where they were proximately due to 
or aggravated by a service-connected condition. Clearly, if the 
VA provides a different diagnosis than the military, then the 
condition is considered to have been incurred on active duty. 
Service connection may then be established.
    So the crux of the problem we are discussing lies with the 
accuracy of the diagnosis provided by military physicians. And 
if we question whether the misdiagnosis, if there is one, is 
due to deliberate actions by some nefarious purpose--that is my 
sensing as the testimony--as I listen to the testimony by a 
reporter--and they are simply the result maybe even of medical 
errors or a line of inquiry that leads back to the DoD. I 
expect we are going to hear from DoD and their response to the 
issues raised by the 2008 U.S. Governmental Accountability 
Office (GAO) report showed that in many instances, DoD was not 
following their own procedures and policies regarding 
personality disorder discharges. GAO will testify that even 
after that, they can still not reasonably say that all the 
services are following DoD policies on personality disorders.
    Now what is really challenging here for me is--I just want 
to be really careful. Number one, Sergeant Luther, let me thank 
you for your willingness to serve the country and wear 
America's uniform. The United States Army. It is the same 
uniform that I have worn for 30 years. So I respect that.
    I also have a lot of documents here about you that are 
nondiscloseable. And I am not going to discuss them in public. 
So when you make statements--you have made public statements--
and I am not going to go into your personal life. I am not 
going to discuss your military conditions. But when you make 
certain statements and sitting to your left is a reporter that 
makes some very exaggerated statements, you disadvantage DoD. 
They are going to come up here and, guess what? They can't 
specifically talk about your case. They can't come in here and 
testify about some of the things that you have said.
    You have made some pretty strong statements that are not 
supported by what I have. And I am disadvantaged also because, 
number one, I am disadvantaged out of respect. I respect you, I 
respect your privacy. I also would say this. I would never, 
even when I was Chairman of whatever Subcommittee or full 
Committee, ever put a reporter on a panel to testify. I would 
never do that. Why? Because your testimony is hearsay. It is 
hearsay. Everything you say is hearsay. What we are supposed to 
do is get to the bottom of things so you can understand that. 
You can make whatever allegations you want. You can lead us to 
our professional staff and we can find the person. So the 
testimony is in first person.
    So I would say to the gentleman, you can say whatever you 
say and basically you have and you surmised your opinion based 
on what you have seen and heard. But I think it is pretty 
shocking that you would even come here and provide testimony 
with regard to someone's medical condition. You are not a 
doctor. If you were a doctor, they would knock you right upside 
the head for that. I would be pretty upset if you went and 
testified about my medical conditions in a public place, let 
alone, where are your sensitivities to talk about a woman and 
her health? Wow.
    I am pretty shocked that you would do that. So I'm going to 
yield back my time, Mr. Chairman. I just want to let you know, 
sir, I respect you and I couldn't be more than--gosh, I could 
go into this, but sir, my counsel would be is follow the 
counsel of some individuals that really have your interests at 
heart, and those doctors have your interests at heart. You are 
upset with regard to the diagnosis of a personality disorder. 
The PTSD has, in fact, been recognized. I have the records with 
regard to findings when you attempted to correct the military 
records. So I have seen everything that they have seen, and I 
have seen the documents with regard to that process.
    We want you to get better. We want you get better with 
regard to the PTSD, and please, follow the counsel of your 
doctors and mental health professionals that take your 
interests best at heart, not somebody else that may want to use 
you or use your case to write stories or to do other things. If 
they truly had your interests at heart, they wouldn't take your 
case and what I know about you and put it on public display. 
That is Steve Buyer's opinion. I would never do that to a 
fellow soldier.
    With that, I yield back.
    The Chairman. Thank you, Mr. Buyer.
    Would either of you like to make a comment? Please feel 
free to respond.
    Mr. Kors. I would love to address those concerns. Thank 
you, Congressman Buyer.
    First of all, as to this being hearsay, I hope it is clear 
that this is the furthest thing from that. As a reporter, I am 
here to summarize the 3\1/2\ years of research I have done on 
personality disorders with Sergeant Luther's case, 
particularly. I never would have gone into this investigation 
if it were a he said/she said story.
    In addition to Sergeant Luther's detailed testimony, I have 
stacks of medical papers from his doctors at Camp Taji who 
documented his confinement. I have an interview with his 
commander who was there at the aid station. I have confirmed 
every piece of this story. I interviewed Sergeant Byington who 
came to visit him while he was confined in the closet. Also, 
one of the idiosyncrasies of the story is they did not take 
away Sergeant Luther's backpack which had his camera. He was 
able to document the closet, take photos of it. Nobody in this 
story disputes that this is what happened. The only question 
from here is what to do about it.
    As for this being an isolated case, I think about Troy 
Daniels, a doctor who works extensively with Ft. Hood. He 
interviewed or he--sorry, treated Sergeant Luther following his 
return to Texas, said in no way did he have a personality 
disorder, this was clearly traumatic brain injury and that he 
wasn't surprised by this. He had seen a dozen of these 
personality disorder cases come out of Ft. Hood, all of them, 
he said, did not have personality disorder.
    I am simply giving back to you the statements from the 
doctors that I have spoken with.
    Mr. Buyer. The challenge is, you can't say an emphatic 
statement like you just said, all said he does not have. I have 
records in front of me.
    Mr. Kors. All said what?
    Mr. Buyer. I am not going to do this. My integrity as a 
gentleman will not permit me to do this.
    Dr. Roe, will you take this seat? I am not going to 
participate. I'm not going to do it. This is wrong. This is 
wrong. Dr. Roe, take over.
    The Chairman. Mr. Kors, I apologize for any further 
reaction, please, sir? Please.
    Mr. Kors. Let me just say further that the Representative 
who was upset that I was sharing Specialist Bonnie Moore's 
story. These soldiers want their story to be told.
    Sergeant Luther, I believe he came here today to represent 
those 22,600 families who have been shattered by these false 
diagnoses. It is a story that hasn't gotten out to the public 
as so many in the military hope it would, and if nobody knows 
about this, if these stories don't get out, then this problem 
is not going to be fixed. We'll be here, as Sergeant Luther 
said, 3 years later with another batch of stories.
    The Chairman. I think you have control over your 
microphone. There is a button on there.
    Sergeant Luther. Just what I would like to say is this. I 
am not here just about chuckles. This is larger than I. I 
haven't made any statements that were inflammatory or wrong. I 
wished I didn't have this story to tell. But what I will tell 
you is in the 3 years that I have been treated for post-
traumatic stress disorder and the medications I have been 
given, several of my doctors have said to me at different 
intervals to make sure I continue to fight to have my 
discharged change because it doesn't reflect what my injury is.
    I saw a licensed clinical social worker and a pediatrician 
in a combat theater for less than 2 hours of face time and was 
given the diagnosis of personality disorder. In doing study 
over 3 years, that is impossible to diagnose at that interval. 
In fact, in the last 3 years, I have been treated--prognosed 
and diagnosed for my PTSD and now traumatic brain injury to my 
cognitive function disability and if it was a case of a 
personality disorder, I think that those licensed psychologists 
and psychiatrists would, in fact, have found a personality 
disorder and seeing that I have never in my life had any issues 
prior to being blown up in Iraq.
    Mr. Kors. Mr. Chairman, let me also add one misimpression I 
want to make sure that folks from this Committee do not come 
away with is that there is any kind of connection between PD, 
personality disorder, and PTSD. They have similar letters as 
Mark Twain said the difference between lightening and the 
lightning bug.
    It is true that Sergeant Luther did get shell shock from 
his service in Iraq, but we are talking about physical injuries 
that are being diagnosed as personality disorder. You know, 
with PTSD, it is very easy to make this amorphous argument 
that, well, you think he was crazy before or after he served in 
Iraq, we think he was crazy before. I guess we both have our 
own opinion. With blindness, deafness, a mortar fire wound, 
fractured pelvises, you can't make that same argument.
    The Chairman. Thank you. Mr. Roe, do you have any 
questions?
    Mr. Roe. Yes, Mr. Chairman. I didn't hear a lot of the 
testimony but just as a veteran and as a medical officer in the 
Army, when I was in, I never felt any pressure, I never had 
anyone--maybe I was immune to it, I don't know, due to 
stubbornness, but I never felt pressure to make diagnosis one 
way or the other and certainly diagnosis can be right and can 
be wrong. I guess Roe's rule is they haven't invented the test 
or diagnosis that hasn't been wrong. So people can make 
mistakes, honest mistakes, but as a medical doctor in the 
military I never had anyone come to my clinic and pressure me 
to diagnose someone one way or the other so that an 
administrative discharge or whatever could be made. And I am 
not saying it did or didn't happen; I am just saying in the 
experience of this doctor it didn't happen. So I yield back.
    The Chairman. I thank you, Mr. Kors and Sergeant Luther. I 
hope you will stay for the next panels. We may want to have you 
respond to what happens. I want to thank you for your courage 
in being here. I want to thank you for pursuing this. You are 
up against a vast machine, some of that you just saw here, and 
I think it is extremely important that all the families get the 
best possible explanation. By telling your story, Sergeant, you 
have tried to do that.
    Mr. Kors, there is nobody who has ever testified in front 
of this Committee that didn't reference some hearsay. I have 
read all of your materials and I have great confidence in both 
the ethics and the integrity of what you have said and the way 
you go about it. So, I want to thank you both for your courage 
and for your integrity for doing this.
    Mr. Kors. Thank you. Mr. Chairman, if I could quickly 
address two concerns that were raised by Representative Roe. 
First to say that you had asked before about the consequences 
for these doctors, whether they be subject to lawsuits. Quite 
the opposite has been occurring. Those who have provided these 
false diagnoses have been rapidly promoted. I think about 
Lieutenant Colonel Applewhite, the social worker who diagnosed 
personality disorder on Sergeant Luther. He was immediately 
given a slot to teach at Fort Sam Houston a course to other 
medical professionals on how to properly diagnose mental 
illnesses.
    With Captain Wehri, who confirmed that Sergeant Luther was 
placed in that closet for over a month, he was promoted to 
major and those--and in fact, with that doctor I mentioned who 
was encouraged to diagnose that chunk of a missing leg as 
personality disorder, the superior who applied that pressure 
was immediately promoted to one of the top doctors in the 
military.
    And also to address the concern of Representative Buyer 
that this is not--this is an Army issue and not a VA issue. 
Nothing could be further from the truth because so many of 
these soldiers, they are told you have a personality disorder 
discharge; you are not eligible for VA benefits. So these 
people don't go to the VA because they don't think they have a 
slot there for them. There are very, very few that find out 
through other means like maybe the press that they can get an 
independent review from the VA. They will go in and in those 
cases, you get the most bizarre outcomes. You have VA doctors 
who get to examine them in depth and say this soldier doesn't 
have a personality disorder. They have a broken arm or 
blindness or traumatic brain injury and then you have what you 
have in Sergeant Luther's case with traumatic brain injury and 
a large disability benefit finally for that injury but yet the 
Army is insisting that he has a personality disorder discharge 
and doesn't deserve any compensation. One soldier, two vastly 
different diagnoses.
    Mr. Roe. Mr. Chairman, may I just make a comment. Mr. Kors, 
I don't know the details of this and I am just discussing this 
in the broader view. If I served in the military that I thought 
my promotion was based on me making a diagnosis, it isn't the 
Army that I was in. And you may be--maybe an officer got 
promoted after they saw someone. I am sure I did. I got 
promoted from captain to major when I was in the Army, and I 
saw a lot of people during that time. But the military has 
criteria that they do, objective criteria, hoops that you jump 
through, at least when I was in the Army to get promoted. I 
have never heard of any such thing where somebody made a 
diagnosis and then you suggest that they got promoted because 
of that. That would be outrageous.
    Mr. Kors. This is not to say this was the only reason they 
were promoted, but in the case of the doctor who was pressed to 
diagnose the missing chunk of the leg, he came to me and said I 
want to speak out about this but I was not going to do it. He 
retired immediately instead of providing that diagnosis.
    Mr. Roe. I yield back.
    The Chairman. Again, thank you. I hope you will stay 
because we may want to recall you after we hear from the 
others. If panel two would come forward, please?
    Thank you for being here. Paul Sullivan is the Executive 
Director of Veterans for Common Sense (VCS). Dr. Thomas Berger 
is the Executive Director for the Veterans Health Council for 
the Vietnam Veterans of America (VVA). We appreciate you being 
here today. The minority has not requested any background 
medical conditions on yourself so we will be fine. Mr. 
Sullivan.

 STATEMENT OF PAUL SULLIVAN, EXECUTIVE DIRECTOR, VETERANS FOR 
COMMON SENSE; AND THOMAS J. BERGER, PH.D., EXECUTIVE DIRECTOR, 
      VETERANS HEALTH COUNCIL, VIETNAM VETERANS OF AMERICA

                   STATEMENT OF PAUL SULLIVAN

    Mr. Sullivan. Mr. Chairman, yes, I brought my glasses. That 
is my medical condition. I need to read my testimony.
    I thank you, Chairman Filner and Ranking Member Buyer for 
inviting Veterans for Common Sense to testify about the impact 
of improper military discharges on our veterans. VCS testified 
about this issue 3 years ago. We remain alarmed DoD continues 
improperly discharging thousands of our servicemembers who had 
entered the military in good health and who served with honor 
while deployed to the Iraq and Afghanistan Wars.
    DoD may have reduced the number of personality disorder 
discharges and that should be noted but DoD now improperly uses 
adjustment disorder and pattern of misconduct discharges 
instead. While we believe the military causes the problems 
associated with improper discharges, the solution requires 
cooperation between Congress, the military, VA and advocates. 
According to an Army Times article, ``Jason Perry, a former 
Army judge advocate who helps troops going through medical 
retirement said he had seen dozens of such cases, it's very 
common and it's completely illegal.''
    We agree with Mr. Perry's assessment. VCS urges Congress to 
order an immediate stop to DoD's improper personality disorder 
adjustment disorder and pattern of misconduct discharges for 
those servicemembers deployed to the war zones since 2001. The 
main underlying cause of the improper discharges remains the 
enormous pressure from Secretary Gates to curb military medical 
spending.
    VCS estimates between $5 billion and $20 billion in lost 
lifetime and other medical benefits for our veterans and 
families. DoD's policy improperly shifts costs from the Federal 
Government to veterans and private insurance companies as well 
as to State and local governments. VCS remains frustrated the 
military has not revealed how many of our Iraq and Afghanistan 
war servicemembers were administratively discharged since 2001. 
We need facts if we are going to stop the improper discharges 
and provide VA care and benefits to otherwise deserving 
veterans.
    VCS used the Freedom of Information Act to try to obtain 
this information from DoD, and DoD said they could not obtain 
the data due to computer limitations. As advocates we want to 
offer solutions, please.
    First, VA training. VA should train benefits and health 
care staff about DoD discharges to avoid improper VA denials 
for health care and benefits.
    Two, there should be new DoD regulations. DoD should update 
separation rules to provide greater legal protections for 
servicemembers.
    Three, correct records. DoD should identify and correct as 
many as 22,000 previous inappropriate discharges.
    Four, enforce accountability. DoD must improve oversight 
and accountability. We are troubled that not a single military 
officer was fired or reprimanded for apparently or allegedly 
violating servicemembers' rights.
    Independent review. Congress should create an independent 
review of the overall health of our servicemembers; otherwise 
the absence of records allows DoD to plead ignorance, just as 
they did with exposures to radiation from atomic bomb blasts, 
Agent Orange, and Gulf war illness.
    Six, conduct universal mandatory medical exams. VCS once 
again urges Congress to order the military to implement 
mandatory universal pre-deployment and post-deployment physical 
exams as required by the 1997 Force Health Protection Act that 
will help alleviate some of the fronts with confusing records.
    Seven, fill mental health professional vacancies. VCS urges 
Congress to order the military to hire more medical 
professionals so our soldiers receive the mandatory universal 
exams as well as prompt treatment.
    Eight, honor medical opinions. VCS urges Congress to 
eliminate the ability of line commanders to overrule the 
decisions made by medical professionals regarding the ability 
of a servicemember to deploy to a war zone.
    Nine, expand anti-stigma education. VCS urges DoD and VA to 
expand the agency's anti-stigma education program and to 
encourage our servicemembers and veterans to seek care when 
needed.
    In conclusion, DoD is responsible for most of the problems 
discussed here today. However, implementing pragmatic solutions 
requires cooperation between Congress, the military, VA, and 
advocates. This concludes my testimony, Mr. Chairman. I would 
be happy to answer any of your questions.
    The Chairman. Thank you, Mr. Sullivan.
    [The prepared statement of Mr. Sullivan appears on p. 50.]
    The Chairman. Dr. Berger.

              STATEMENT OF THOMAS J. BERGER, PH.D.

    Dr. Berger. Chairman Filner, Ranking Member and 
distinguished Members of the Committee who are still around 
here.
    On behalf of President John Rowan, our board of directors 
and our membership, Vietnam Veterans of America thanks you for 
the opportunity to present our views on discharges for 
personality disorder and their impact on veterans benefits.
    We have heard a great deal of pieces and parts about the 
history. I think it is important to remember that personality 
disorder is a severe mental illness that emerges during 
childhood or adolescence and is listed in military regulations 
as a preexisting condition, not a result of combat. Personality 
disorder contains symptoms that are enduring and play a major 
role in most, if not all, aspects of a person's life.
    While many disorders vacillate in terms of symptom presence 
and intensity, personality disorders typically remain 
relatively constant. In other words, according to the 
Diagnostic and Statistical Manual of Mental Disorders (DSM)-IV, 
to be diagnosed with a disorder in this category, the symptoms 
have been present for an extended period of time, inflexible 
and pervasive, and are not the result of alcohol or drugs or 
another psychiatric disorder, and that history of symptoms can 
be traced back to childhood or adolescence.
    At the time the issue first arose back in 2007, VVA and 
other veterans advocates, some of whom are present in this 
room, contended publicly and in meetings with Congress, that 
many of the servicemembers were suffering from post-traumatic 
stress disorder or traumatic brain injury but that it was 
easier and less costly for the military to separate them into 
the rubric of personality disorder, leaving some of us to 
believe that such a large number of personality disorder 
discharges--remember, 22,600 plus--were, in fact, fabricated to 
save on the cost of other more appropriate mental health 
treatments and disability benefits. We have also heard from the 
Chairman himself about some of the history of the hearings that 
have gone on since 2007.
    I point out a couple of other elements missing from the 
history here, and that is in August of 2008, the Department of 
Defense, DoD, issued an instruction that took effect--without 
public announcement, okay--that revised how they were to apply 
the personality disorder discharge.
    In addition, that same summer, the Senate also adopted an 
amendment to the Defense authorization bill at the time by 
then-Senator Obama, Senator Kit Bond and Senator Lieberman from 
Connecticut that directed DoD officials to report on the 
personality disorder situation. They did so. Subsequently in 
October 2008, GAO released its findings based on a review of 
service jackets for 312 members separated for personality 
disorder from four military installations. It concluded that 
the services were not reliably compliant, even with the pre-
August 2008 regulation governing discharge separations. And, 
for example, only 40 to 78 percent of enlisted members 
separated for personality disorders had documents in their 
files showing that a psychiatrist or qualified psychologist 
determined that the disorder affected their ability to function 
in the service.
    Fast forward to 2010. We now hear the Army say that any 
soldier--they deny that any soldier that was misdiagnosed 
before 2008, all right, if you look at the number of PTSD cases 
that jumped between 2008 and 2009. Something happened. And so 
we would like to ask, okay, can the Army explain why the number 
of the personality disorder discharges doubled between 2006 and 
2008 and then shrunk after that by 75 percent? And how many of 
those who got those discharge separations were qualified to 
retain their benefits?
    I would also like to follow-up with Paul's question: Is the 
Army now relying on a different designation, referred to as 
adjustment disorder, to dismiss soldiers? It is absolutely 
clear either through Congressional action or a Presidential 
directive that the Army needs to conduct a thorough review of 
its personality disorder diagnoses prior to 2008, treat those 
who need help and restore disability benefits where 
appropriate.
    Thank you, Mr. Chairman, Mr. Roe, for holding this meeting. 
I'll be glad to answer any questions.
    The Chairman. Thank you, Mr. Berger.
    [The prepared statement of Dr. Berger appears on p. 54.]
    The Chairman. Mr. Roe.
    Mr. Roe. I have a meeting I have to go to at noon, but a 
couple of quick questions. And Dr. Berger, you may have the 
answer to this. I don't and I hadn't studied this issue before 
I came here today, but do you know the incidence of personality 
disorder in the population in general.
    Dr. Berger. No, I can't give you that figure sir, not off 
the top of my head.
    Mr. Roe. I wondered if--I guess the question I have is what 
percent of troops were diagnosed with personality disorder. In 
other words, of that 22,600, what percent of our troops that 
are in there have been diagnosed, and is that--you see what I 
am getting at? Is it higher or is this a diagnosis that all of 
a sudden has exploded in the military but it's not out there in 
real life. And your description of personality disorder is 
correct, at least my familiarity with it is, that it usually 
manifests itself in childhood or----
    Dr. Berger. In adolescence. The DSM-4 is clear on it, sir.
    Mr. Roe. Kids that are acting out, whatever, you have 
trouble dealing with them in high school and so on and usually 
don't get into the military, but I think that is a couple, just 
from demographics that would be very interesting to see what is 
the incidence in the population in general, what is the 
diagnosis of that, and then what is the--is it higher here that 
we use this diagnosis. And I think if you can find out those 
two things you'd find out a lot. I think your question about 
between 2006 and 2008 where the incidences doubled and then 
dropped down, I think that begs an answer also.
    Dr. Berger. Thank you, sir. I am skeptical of the Army's 
claim that it didn't make any mistakes because the symptoms of 
PTSD, anger, irritability, anxiety, depression, all those kinds 
of things we have talked about at other hearings, can easily 
under certain kinds of circumstances, can easily be confused 
with the Army's description of personality disorder.
    Mr. Roe. I yield back, Mr. Chairman.
    The Chairman. Thank you. The figures that Mr. Berger 
referred to, the doubling from 2006 to 2008, you said shrunk by 
75 percent but I didn't get the date by which they had shrunk.
    Dr. Berger. Two thousand eight, sir.
    The Chairman. In 2008, they had shrunk by 75 percent?
    Dr. Berger. Yes. Between 2008 and 2009, the annual number 
of personality disorder cases dropped by 75 percent. Only 260 
soldiers were discharged on those grounds in 2009. At the same 
time, the number of PTSD cases soared.
    The Chairman. How about the other diagnosis that Mr. Kors 
brought up, the adjustment disorder or pattern of conduct? Do 
you have those figures?
    Dr. Berger. I don't have those figures with me, sir.
    The Chairman. Okay. Mr. Sullivan, I want to thank you for 
being very specific in your recommendations so that we can try 
to deal with these problems. I don't have a doubt, personally, 
that something is going on here. It is hard to imagine--maybe I 
am too naive--that somebody is ordering a diagnoses or are 
changing a diagnoses. Have you seen that happen or do you know 
where that happened that these changes in the figures somehow 
changed because of a policy change? It doesn't just happen.
    Dr. Berger. That is why we are asking the questions, sir.
    Mr. Sullivan. Really what we need, Mr. Chairman, is more 
transparency from the Department of Defense because when we see 
the number of personality disorders drop after the hearing, yet 
the number of adjustment and pattern of misconduct discharges 
rise after the hearing, it looks as if the DoD is just playing 
one of those shell games, and that is what we want to make sure 
is not happening. We want to make sure that servicemembers have 
their due process rights upheld because we don't want anybody 
to be hazed, browbeaten or, as you used the word, tortured into 
possibly signing a document that gives up some of their VA 
health care and disability benefits.
    Dr. Berger. Mr. Chairman, in reference to the question you 
asked a few minutes ago, I can't honestly believe that they 
reviewed every single one of those 22,600 cases, okay. They 
made the statement in public, though, at least spokespersons 
for the U.S. Army medical command said that they did but there 
weren't any changes made. I find that--I really find that hard 
to believe.
    The Chairman. Is there a more specific subset of examples 
of personality disorder, because when I asked the Sergeant what 
was his personality disorder, they just noted NOS. Are there 
more?
    Dr. Berger. There are four categories.
    The Chairman. Can you give me those?
    Dr. Berger. Right off the top of my head--it just flew out 
of my head. I think there is three or four categories of 
personality disorder.
    The Chairman. You would have expected these to be noted in 
the pre-physical or pre----
    Dr. Berger. Prescreening.
    The Chairman. Before they enlisted or volunteered for the 
service?
    Dr. Berger. Yes, sir.
    The Chairman. You would think that they would be noted.
    Mr. Sullivan. Mr. Chairman, Dr. Roe actually asked a good 
question, but it could be phrased a little bit better if I may. 
He said, ask the military how many potential recruits were 
actually refused the opportunity to enlist because of the 
personality disorder, then you would actually get a better 
statistic about what is going on because if the military, 
suddenly you see an increase or a decrease in rejections for 
personality disorder, then you can say, well, what is the 
military doing that is different at the military entrance 
processing stations, these MEP stations, where they do these 
exams.
    The Chairman. Have you seen these statistics?
    Mr. Sullivan. No, I don't have them, but that is the kind 
of questions that should be asked.
    The Chairman. Okay, for panel four, it is going to be 
asked. Thank you. We may want to talk to you further. I ask 
panel three to come forward.
    Dr. Berger. Thank you, sir.
    The Chairman. Thank you.
    Dr. Debra Draper is the Director for Health Care for the 
U.S. Government Accountability Office. You have made several 
studies on this issue and we thank you for what the GAO does. 
We welcome your testimony today.

    STATEMENT OF DEBRA DRAPER, DIRECTOR, HEALTH CARE, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Draper. Chairman Filner, thank you for the opportunity 
to be here today as you discuss personality disorder 
separations and the impact on veterans' benefits.
    DoD policy allows enlisted servicemembers with a 
personality disorder to be involuntarily separated if the 
disorder is severe enough that it makes the servicemember 
unsuitable for military service. Those who are separated solely 
on the basis of a personality disorder are ineligible to 
receive disability compensation benefits because the disorder 
is considered to be preexisting and not a service-connected 
condition. Prior to separation, DoD requires the services to 
comply with three key requirements.
    First, the servicemember must be diagnosed with a 
personality disorder, which interferes with his or her ability 
to function in the military. Second, the servicemember must 
receive notification of his or her impending separation, and 
third, the servicemember must receive formal counseling.
    But the bottom line is that the military services have not 
demonstrated full compliance with DoD's requirements. In my 
statement today, I plan to first discuss findings and 
recommendations from GAO's 2008 report on personality disorder 
separations. I will then discuss what actions DoD and the 
military services have taken with regard to our 
recommendations.
    In 2008, we reported that documented compliance with DoD's 
requirements varied by specific requirements and by military 
installations. For example, in a review of personnel records 
from four military installations, we found that documented 
compliance with the diagnosis requirement ranged from 40 to 78 
percent; and from 40 to 99 percent for the formal counseling 
requirement. Based on these and other findings, we recommended 
that DoD direct the military services to develop a system to 
ensure compliance with the requirements; and that DoD monitor 
the services' compliance. In August 2008, after our review was 
completed, DoD clarified its existing requirements and added 
new requirements, including, for example: requiring that 
servicemembers with a personality disorder diagnosis be advised 
that this does not qualify as a disability; and requiring 
corroboration of the disorder for servicemembers who have 
served in imminent danger pay areas.
    In response to our 2008 recommendations, DoD instructed 
each of the military services to provide compliance reports for 
each fiscal year, 2008 and 2009. The fiscal year 2008 reports 
indicated that approximately 2000 enlisted servicemembers were 
separated that year due to a personality disorder. Three of the 
four services did not demonstrate full compliance with any of 
the separation requirements, none of the services demonstrated 
full compliance with all of the requirements, and neither the 
Army nor the Navy reported the number of separations among 
servicemembers who had served in imminent danger pay areas in 
accordance with DoD instructions.
    Although the fiscal year 2009 compliance reports were due 
March 31, 2010, we are unable to comment on them because 
despite repeated attempts to obtain them, DoD has not yet 
provided them to us. In response to our recommendations, DoD 
also instructed the military services to provide a plan of 
correction if compliance for any personality disorder 
separation requirement was less than 90 percent.
    According to the 2008 fiscal year reports, each service has 
planned or taken corrective actions to improve compliance. For 
example, the Army reported that the Army's office of the 
Surgeon General will review all personality disorder separation 
cases to ensure that each contains the required documentation.
    To summarize, the military services have not demonstrated 
full compliance with DoD's personality disorder separation 
requirements. Consequently, some servicemembers may be at risk 
of being inappropriately separated and as a result, denied 
benefits for which they may be eligible. We, therefore, 
reiterate the importance of DoD fully implementing GAO's 2008 
recommendations.
    Mr. Chairman, this concludes my opening remarks. I am happy 
to answer any questions.
    [The prepared statement of Ms. Draper appears on p. 56.]
    The Chairman. Thank you, Dr. Draper. Your summary is very 
clear. You said--I am not sure I am quoting you exactly--but 
the Department of Defense has not provided information post 
2008. Is that what you are saying?
    Ms. Draper. They had required the military services to 
provide compliance reports for each fiscal year, 2008 and 2009. 
They provided us with the 2008 reports but we have attempted 
repeatedly to obtain the 2009 reports and they have been unable 
to produce them or give them to us.
    The Chairman. What is your legal standing in regard to 
that? Can you subpoena them? Do you request them and have you 
notified Congress that they haven't complied?
    Ms. Draper. Well, it is unclear whether the reports 
actually exist or they just don't know where they are. They 
just have been done so----
    The Chairman. Did you ask them that?
    Ms. Draper. Well, we did, but no one seems to know where 
they are.
    The Chairman. Do you have any legal authority to compel 
them to provide those reports, assuming they exist?
    Ms. Draper. We will have to check into that. Up until this 
testimony, we were still trying to obtain the reports.
    The Chairman. I assume Congress has that subpoena authority 
but we need you to tell us whether you are getting the 
information or not. You haven't officially said you are having 
problems with those reports.
    Ms. Draper. Not yet, no.
    The Chairman. Okay. We do appreciate the work that you are 
doing and we appreciate your testimony. We will hear from the 
next panel and see if we need you back here.
    Ms. Draper. Okay. Thank you very much.
    The Chairman. Thank you, we appreciate it.
    Panel three is excused. If panel four will come forward?
    Joining us from the Department of Defense is the Acting 
Director of Officer/Enlisted Personnel Management, Lernes 
Hebert, accompanied by Dr. Jack Smith, who is Deputy Assistant 
Secretary of Defense for Clinical and Program Policy.
    Major General Gina Farrisee is the Director of Military 
Personnel Management of the Office of the Deputy Chief of Staff 
for the United States Army, and General Farrisee is accompanied 
by Colonel Rebecca Porter, who is the Chief of Behavioral 
Health of the Office of the Surgeon General.
    From the VA, we have Dr. Antonette Zeiss, who is the Acting 
Deputy Chief of Patient Care Services for the Office of Mental 
Health. Accompanying her is Tom Murphy, Director of 
Compensation and Pension Services.
    And I said Mr. Hebert, I meant Hebert. Is that a better 
pronunciation? I apologize. You have prepared testimony but I 
would like you to submit those for the record and answer some 
of the questions that have come up, but I will leave it to your 
discretion to how you are going to do that. I would like you to 
throw away your prepared testimony and answer some of the 
interesting issues that have been raised, but I will leave it 
up to you.
    Mr. Hebert.

 STATEMENTS OF LERNES J. HEBERT, ACTING DIRECTOR, OFFICER AND 
   ENLISTED PERSONNEL MANAGEMENT, OFFICE OF THE DEPUTY UNDER 
    SECRETARY OF DEFENSE (MILITARY PERSONNEL POLICY), U.S. 
  DEPARTMENT OF DEFENSE; ACCOMPANIED BY JACK W. SMITH, M.D., 
DEPUTY ASSISTANT SECRETARY OF DEFENSE FOR CLINICAL AND PROGRAM 
   POLICY, U.S. DEPARTMENT OF DEFENSE; MAJOR GENERAL GINA S. 
     FARRISEE, DIRECTOR, DEPARTMENT OF MILITARY PERSONNEL 
  MANAGEMENT, G-1, DEPARTMENT OF THE ARMY, U.S. DEPARTMENT OF 
    DEFENSE; ACCOMPANIED BY COLONEL REBECCA PORTER, CHIEF, 
BEHAVIORAL HEALTH, OFFICE OF THE SURGEON GENERAL, DEPARTMENT OF 
 THE ARMY, U.S. DEPARTMENT OF DEFENSE; AND ANTONETTE M. ZEISS, 
 PH.D., ACTING DEPUTY CHIEF PATIENT CARE SERVICES OFFICER FOR 
MENTAL HEALTH, OFFICE OF PATIENT CARE SERVICES, VETERANS HEALTH 
  ADMINISTRATION (VHA), U.S. DEPARTMENT OF VETERANS AFFAIRS; 
  ACCOMPANIED BY THOMAS J. MURPHY, DIRECTOR, COMPENSATION AND 
    PENSION SERVICE, VETERANS BENEFITS ADMINISTRATION, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

                 STATEMENT OF LERNES J. HEBERT

    Mr. Hebert. Yes, sir. I will be happy to submit that, 
although it really does answer several questions that have come 
up. If you will allow me, I will address some of those.
    [The prepared statement of Mr. Hebert appears on p. 61.]
    The Chairman. Please.
    Mr. Hebert. For instance, you asked why individuals are 
accepted with personality disorder discharges. Many times the 
individuals don't share the information with the session 
professionals, and if it is not diagnosed at the time of entry, 
naturally there is no determination that such a diagnosis 
exists and there is no indication that they----
    The Chairman. They may not tell you they have a broken leg, 
but you will find it, won't you?
    Mr. Hebert. We can test for that.
    The Chairman. I hope that you can test for personality 
disorder.
    Mr. Hebert. I couldn't speak to that but we have someone 
who can.
    [The DoD subsequently provided the following information:]

    L  All applicants for military service go through a multi-
step medical screening process:

      1. LApplicants are required to complete a medical pre-
screening (DD 2807-2 MEDICAL PRESCREEN OF MEDICAL HISTORY 
REPORT) before reporting the Military Enlisted Processing 
station. That form is reviewed by Medical Staff at each 
Military Entrance Processing Station (MEPS) to identify 
individuals who require additional screening. The question on 
the form related to mental health issues is:

         a. LSeen a psychiatrist, psychologist, counselor or 
other professional for any reason (inpatient or outpatient) 
including counseling or treatment for school, adjustment, 
family, marriage or any other problem, to include depression, 
or treatment for alcohol, drug or substance abuse.

      2. LFurthermore, all applicants undergo a medical 
evaluation that includes a review of medical history and 
physical with a licensed physician. Included in the medical 
history at the time of the examination are the following 
questions:

         a. LNervous trouble of any sort (anxiety or panic 
attacks)?
         b. LReceived counseling of any type?
         c. LDepression or excessive worry?
         d. LBeen evaluated or treated for a mental condition?
         e. LAttempted suicide?

    L  All positive responses are addressed by the examining 
physician at the time of the physical examination.

    The Chairman. You discharge people for it so you must have 
a test for it.
    Mr. Hebert. Well, we rely on medical professionals who----
    The Chairman. Well, why don't you do it before they enlist?
    Mr. Hebert. We potentially could create some sort of 
scenario where they would.
    The Chairman. But you don't now?
    Mr. Hebert. Well, sir, would you have them serve for some 
period of time? Many times----
    The Chairman. I don't want them in if they have a 
personality disorder since you are discharging them. Why don't 
you figure it out before then? Since it is a preexisting 
condition, you can find out about it.
    Mr. Hebert. Sir, it is a behavioral condition that is 
tested----
    The Chairman. Do you know how many people are diagnosed 
with personality disorder and are rejected for enlistment or 
volunteer service?
    Mr. Hebert. I do not, sir.
    The Chairman. Do we have those records?
    Mr. Hebert. I suspect we do not, sir, but I will look into 
it.
    [The DoD subsequently provided the following information:]

    L  FY 2009 data show 1,018 potential recruits were rejected 
for personality disorders and a total of 9,698 potential 
recruits were rejected for various mental health conditions. 
Preliminary data for FY 2010 show 1,161and 8,248, respectively. 
Subsequent to these disqualifications an applicant may be 
considered for a waiver of their condition. In FY 2009, 182 
waivers were granted to applicants originally disqualified for 
personality disorders. Data for FY 2010 are still being 
tabulated.

    The Chairman. You mean to say you can't tell me? Can you 
tell me how many people have applied for volunteer or have 
volunteered for service in a given year and how many people 
were rejected? Can you tell me that?
    Mr. Hebert. Yes, sir, I can tell you that.
    The Chairman. Well then you must be able to tell me why 
they were rejected.
    Mr. Hebert. You asked whether or not we had the records. We 
do not presently have the records. We will take that question 
for the record and go back and research it and provide the 
Committee----
    The Chairman. I assume you have this information, not that 
you have it here, but you must have that information.
    Mr. Hebert. We do have the information on a number of 
individuals who were rejected from enlistment, yes, sir.
    The Chairman. All right. Continue.
    Mr. Hebert. Yes, sir. The question was raised with regard 
to how many personality disorder discharges have occurred since 
2007. In 2008, we record 2,903. In 2009, 1,426.
    The Chairman. The first one was 2,903?
    Mr. Hebert. Yes, sir.
    The Chairman. Of those, 2008?
    Mr. Hebert. Yes, sir.
    The Chairman. Two thousand nine, was what?
    Mr. Hebert. Two thousand nine was 1,426, and year to date, 
2010, is 650.
    The Chairman. Is that more or less than 2000 to 2007?
    Mr. Hebert. It is less. It is a continuing declining trend, 
and we see that declining trend across all four services.
    The Chairman. Do you know why? Have you accounted for that?
    Mr. Hebert. We have no direct correlation, sir but we would 
attribute the more rigorous screening process that we are doing 
for PTSD and TBI as contributing to that trend.
    The Chairman. Do you have any problem with the figures that 
I think either Dr. Draper or Mr. Sullivan said was shrinking by 
75 percent in 2009 from the previous years? Is that accurate?
    Mr. Hebert. I am not--there was a shrinkage, it wasn't 75 
percent. I am not sure whether that was specific to the Army 
or----
    The Chairman. We will check that.
    Mr. Hebert. All right.
    The Chairman. It appears to me that if you have 3,000 in 
those 3 years and 23,000 in 7 years, it is a big, big drop. 
Okay.
    Mr. Hebert. Yes, sir.
    The Chairman. Go ahead.
    Mr. Hebert. And additionally, I believe you asked what were 
the incidence of personality disorder in the population versus 
the Department of Defense. We don't have that information with 
us. We will be glad to provide that for you.
    [The DoD Subsequently provided the following information:]

    L  Most epidemiologic studies on personality disorders 
derive an estimated prevalence (disease burden in the 
population) using survey data. Incidence rates (new cases of a 
disease or disorder diagnosed) of diagnosed personality 
disorders are not as easily estimated.
    L  In the general population, prevalence of Personality 
Disorders is generally estimated to be 14.8 percent.\1\ The 
estimated prevalence within the military care system is much 
lower; 0.03 percent for hospitalizations and 1.1 percent for 
ambulatory care.\2\ Methods used to collect and report 
personality disorder data do not permit us to report aggregate 
prevalence rate statistics to compare the two groups. In 
addition, it is very difficult to have an accurate assessment 
because most people with Personality Disorders do not present 
to medical on their own accord since they do not think that 
their beliefs and behaviors are abnormal. Also, as indicated in 
the following discussion, there is no single diagnostic entity 
of ``Personality Disorder;'' each sub-type carries with it 
separate diagnostic criteria and occurs at different estimated 
prevalence rates.
---------------------------------------------------------------------------
    \1\ http://www.sciencedaily.com/releases/2004/08/040803095121.htm.
    \2\ Those hospitalized may also be included in the denominator for 
those receiving ambulatory care.

    The Chairman. Who did the report? Which one of you is 
responsible for the report--of the review that was required of 
the previous 23,600? Who should I ask about that when it is 
their turn?
    Mr. Hebert. Yes, sir. I believe that was--I am not sure, 
sir.
    The Chairman. You didn't do that?
    Mr. Hebert. No, sir.
    [The DoD subsequently provided the following information:]

    L  The Office of the Under Secretary of Defense for 
Personnel and Readiness submitted the report to Congress, which 
reported 22,656 Personality Disorder discharges from FY 2002 
through FY 2007. The report was prepared by the Officer and 
Enlisted Personnel Management Directorate and Mr. Hebert is the 
witness representing that office.

    The Chairman. Does it sound reasonable to you that out of 
23,600 of anything that not one mistake was made by anybody? I 
don't care if it is two plus two is four, somebody's going to 
make a mistake somewhere. Do you find that a little bit 
uncredible--even incredible?
    Mr. Hebert. Without the information with regard to the 
review----
    The Chairman. Does anybody here have responsibility for 
that, please?
    Colonel Porter. Sir, if I may, I am from the Army's Surgeon 
General office, and my understanding is that rather than the 
20-some thousand records that is being quoted here, what, in 
fact, was reviewed in the Army's Surgeon General's Office 
amounted to approximately 600 records, and those were 
individuals who were separated with a personality disorder 
diagnosis who had been deployed to an imminent danger pay area, 
and in those years that the review was conducted, it was less 
than 600 people. The review was conducted by psychiatrists and 
psychologists in the Army who were brought to the Surgeon 
General's Office to do the review, and their findings were that 
they did not see any evidence that a misdiagnosis had occurred.
    The Chairman. They didn't interview any of the 600 people?
    Colonel Porter. No, sir, they did not.
    The Chairman. It doesn't sound like a good review to me. 
Mr. Buyer complained about hearsay. This is see-say. Somebody 
reads a report and somebody's written reports, somebody else 
sees it, somebody reviews it. That doesn't sound like a real 
investigation to me. Is there a word like see-say? We have 
hearsay. I guess you can have see-say. I invented a new word, 
actually.
    I am sorry, this doesn't sound appropriate to me. I am just 
a layman. What do I know? How do you know there is no evidence? 
Because the guy wrote the diagnosis? Did the doctor give a 
reason for the diagnosis? Was that reason reviewed? Did the guy 
check with the actual soldier who was reviewed in this way? 
This doesn't sound reasonable to me.
    Colonel Porter. I think the corrective action that we have 
taken and that we continue to take right now is that when we 
review those records, and they are sent to the Surgeon 
General's Office before they are endorsed, we ensure that not 
only is there a diagnosis written down, but that the 
documentation for that and the rationale that the provider used 
to come to the diagnosis are very clear in the record, and if 
we don't see that, then we ask for more information.
    The Chairman. Are you telling me that wasn't done with the 
23,000, that they weren't required to do that or that they 
didn't do it?
    Colonel Porter. I think, sir, that before the recordkeeping 
was not as clear as it could have been and now we----
    The Chairman. That just begs the question then, if you were 
directed to investigate whether they were sound or not and you 
found out that there was no real rationale, it seems to me you 
should go back and ask the doctor what was the rationale and 
then check that with the patient. It just looks like you 
reviewed it and you found that there was no rationale. I would 
check the records of all 23,600 and say, hey, soldier, we 
didn't find any rationale, we better look at you again. Why 
didn't you do that?
    Colonel Porter. I am not sure I understand the question, 
sir. Why didn't we go and find----
    The Chairman. If you are saying that based on your review 
of those 600 files, your forward-looking process is that you 
now require a far more specific rationale for that diagnosis, 
it leads me to think that didn't happen on the first 600 or the 
22,600. If that didn't happen and if you were required to 
review the accuracy, it would seem to me that would force you 
to go back to the doctor and the patient and ask what was the 
specific rationale on which you based this diagnosis.
    I am just a layman here, but it seems to me that you are 
concerned with your soldiers. I am concerned with your 
soldiers. If you are really concerned with them, find out why 
they are being diagnosed this way, and then you will find out 
that we didn't have any real accurate diagnosis. So, wouldn't 
you want to go back and try to correct the record?
    Mr. Hebert. Sir, if I may, what we are doing is reaching 
out to our veterans who have separated since 9/11 who have been 
characterized for separation of personality disorder, who had 
previously deployed as part of their service, and we are 
reaching out to them to inform them of what options are 
available to them if they consider their discharge 
mischaracterized and how to access VA benefits with respect to 
getting screening for PTSD?
    The Chairman. You have notified or tried to notify all 
22,600 plus?
    Mr. Hebert. That is not my number, sir, but we are 
notifying every veteran who separated since 9/11 who had been a 
separation characterized as personality disorder who had 
previously deployed to make sure that they have access----
    The Chairman. You are not asking them to come back to re-
examine them to see if you made the correct diagnosis, are you?
    Mr. Hebert. No, sir. We are asking them if they believe 
they have their separation was mischaracterized or if they 
believe that they have symptoms of PTSD or traumatic brain 
injury, that they seek help and that we are giving them the 
instructions, if you will.
    The Chairman. Could you give me a copy of the outreach 
letter or whatever you are doing?
    Mr. Hebert. Yes, sir.
    [The DoD subsequently provided the following information:]

    L  On September 10, 2010, the Under Secretary of Defense 
for Personnel and Readiness directed the Military Departments 
to report by March 31, 2011, actions taken to: (1) identify 
servicemembers who have deployed in support of a contingency 
operation since September 11, 2001, and were later 
administratively separated for a personality disorder, 
regardless of years of service, without completing the enhanced 
screening requirements for post-traumatic stress disorder 
(PTSD) and traumatic brain injury (TBI); (2) inform them of the 
correction of discharge characterization process; (3) inform 
them on how to obtain a mental health assessment through the 
Department of Veterans Affairs; and (4) identify these 
individuals to the Department of Veterans Affairs. A copy of 
that letter appears on p. 73.

    The Chairman. Are you able to get in touch with everybody? 
Are letters coming back ``no sufficient address?''
    Mr. Hebert. As a result of the inputs from the services 
with respect to the report that the GAO brought up, that is 
what is driving this outreach, and we are just in the initial 
stages of it?
    The Chairman. Now, you are in initial stages? When you 
started, you said you are notifying everybody. So how many have 
you notified?
    Mr. Hebert. We will notify everybody.
    The Chairman. How many have you notified?
    Mr. Hebert. We have notified no one.
    The Chairman. No one?
    Mr. Hebert. Sir, the report came in----
    The Chairman. Look, you led me to believe--I could ask the 
reporter to read back your words--that you already notified 
everybody. Anybody else have that sense? That is what I heard, 
that you have notified everybody. Now you are saying you 
haven't even started the notification process. So you haven't 
started it?
    Mr. Hebert. No, sir.
    The Chairman. When will you do this?
    Mr. Hebert. We are in the process of----
    The Chairman. How long does that process take? Since you 
are making me ask these stupid questions because, I don't know 
whether you go to school to learn this or it is part of your 
personality disorder or--oh, excuse me, I couldn't diagnose 
that so quickly. You are not telling me anything--I have to ask 
what your words mean. When are you going to do this?
    Mr. Hebert. We are doing it now, sir.
    The Chairman. When will you notify all 22,600 plus 903, 
plus 1,426, plus 650?
    Mr. Hebert. Over the upcoming months we will notify 
everyone that we have contact information on.
    The Chairman. I think all the civilians should be examined 
for personality disorder. I would discharge half of you. We are 
supposed to be talking English to each other. We are trying to 
get some answers and you are not helping me very much. It 
sounds to me that you don't want to help me, and you are 
playing with words because you don't have the records. You knew 
what we were going to ask. It has all been published and the 
information has all been published. You just don't have the 
information. You got any other nuggets for me?
    Mr. Hebert. Mr. Chairman, we are committed to our veterans 
who are serving and our former members, and as a Department, 
you are looking at a team here that represents a much larger 
team that works together on a daily basis to try and make sure 
that after a diagnosis occurs that accurate separation 
characterizations occur and that our members, most importantly, 
are taken care of with the respect they deserve.
    The Chairman. Given the fact that you have 23,600 
discharges in 7 years wouldn't that lead you to believe that 
your intake interview has to be better? Have you changed that? 
If you are taking people that have a personality disorder and 
you find out about them after they have gone through combat, 
had severe injuries, and blast compressions, and then you find 
out they have personality disorders, doesn't that lead to some 
conclusion? Why would you take them in? I can't figure that 
out.
    Dr. Smith. Sir, if I could comment, the screening process 
is certainly one that presents some difficulties. It does rely 
upon self-volunteered information. In many cases, people with 
personality disorders may never have been diagnosed. There have 
been additions of additional mental health questions to the 
screening questionnaire, but again, that hasn't identified a 
great number of people, and it is usually in the performance of 
duties that problems come to light and then can be more 
thoroughly evaluated by medical personnel after they been 
accessioned.
    The Chairman. After they get clumps of shrapnel in their 
leg, then you will figure out they have a personality disorder? 
You are not giving me a lot of confidence that you know what 
you are doing. I can't figure out how you screen in the 
beginning and then all of the sudden, these people have a 
personality disorder. Mr. Kors wrote about this, that it is 
designed to save money. You haven't given me any a reason not 
to accept that conclusion.
    Dr. Smith. The people who are eventually diagnosed with 
personality disorder ordinarily are brought to light through 
difficulties adjusting to military life. And most of those will 
occur early in their service and have difficulties adjusting to 
the requirements.
    The Chairman. How many of those have you found since 2001?
    Dr. Smith. I believe the numbers Mr. Hebert quoted were 
inconclusive of those who were early in service. I think the 
percentages of people who have served in an imminent danger pay 
area are a small percentage of those totals, if I am correct 
about that.
    The Chairman. So it is a small percentage of the total, is 
what you just said.
    Dr. Smith. The number of people who have served in an 
imminent danger pay zone who are subsequently diagnosed with 
personality disorder are a small percentage.
    The Chairman. You said you find out about them early in 
their military service. So what is the percentage of the 
discharges that you find within a year, versus those that occur 
after they have been in combat. Did this 23,600 figure include 
those earlier discharges?
    Dr. Smith. I believe that is correct.
    The Chairman. So what percentage is which? Do you know?
    Mr. Hebert. We can provide those numbers for you.
    [The DoD subsequently provided the following information:]

    L  Eleven thousand sixty-nine (49 percent) of the 22,656 
Personality Disorder discharges that took place from FY 2002 
through FY 2007, involved servicemembers who were in their 
first year of service. Also, 3,372 (15 percent) of those 22,656 
personnel had deployed in support of Operation Iraqi Freedom or 
Operation Enduring Freedom.

    The Chairman. Apparently I don't hear very well because 
your words seem to mean something else after you say them. You 
were trying to justify the fact that you did not find them 
earlier by saying you will find them during boot camp or in the 
first year. It sounds to me that you are saying, we find them 
before they become a real problem for our combat. I just wanted 
to know the percentage.
    Dr. Smith. No, sir, I didn't say that we find them before--
at any particular time. I think that people who are having 
difficulties adjusting to military life are oftentimes referred 
for evaluation. And that may occur very early in their time. It 
may be at some later point in their service. That is rather 
hard to predict.
    The Chairman. All right. The next person on the panel, 
please.

          STATEMENT OF MAJOR GENERAL GINA S. FARRISEE

    General Farrisee. Mr. Chairman, I will submit my comments 
for the record and attempt to answer any questions you have.
    [The prepared statement of General Farrisee appears on p. 
63.]
    The Chairman. Tell me how your sphere is different from 
their sphere so I know what kind of questions to ask.
    General Farrisee. Sir, I am from the Deputy Chief of Staff 
for Personnel in the Army. And I am working in the policy area.
    The Chairman. Okay. You are aware of the review that was 
done of the 600 now?
    General Farrisee. Yes, Mr. Chairman. I knew that they did 
do a review of those records. I did not know the conclusion 
until this week.
    The Chairman. I am sorry?
    General Farrisee. I did not know the conclusion of the 
review until this week.
    The Chairman. When was that done?
    Colonel Porter. Mr. Chairman, that review was done in 2007 
and 2008.
    The Chairman. Takes a while for the Army to figure out what 
is going on. You just found out about it 3 years later. And 
this is your sphere of responsibility?
    General Farrisee. No, sir, not the results of the record 
review.
    The Chairman. That is not your sphere of responsibility?
    General Farrisee. No, sir.
    The Chairman. So you didn't care what they found out but 
you knew this was taking place.
    General Farrisee. Sir, I do care. I knew it was taking 
place. I did not hear the results. I probably should have heard 
the results, yes, sir.
    The Chairman. Did my layman's critique of the way it was 
done have any validity, in your view? You didn't talk to the 
soldiers. You found out that there was no specific rationale so 
you didn't go back to the doctors. You only had a small sample 
to begin with. Is any of that valid?
    General Farrisee. Mr. Chairman, as far as the small sample, 
the only sample that we took was going to be soldiers who had 
been deployed or who had gone to an imminent danger pay area. 
So it was specifically for only those soldiers who had 
deployed; that they would do a relook of those records. I did 
not know that they did not speak to anyone until this week. I 
was not told how they were going to do the review. I believe 
that the certain General's office would, in fact, do that 
review again of those records.
    The Chairman. You heard some of the testimony, which talked 
about physical injury and that it was somehow related to 
personality disorder. Could that happen?
    General Farrisee. Mr. Chairman, I can't answer that 
question. The first time I have ever heard that was when I saw 
Mr. Kors' article. I had never heard that before.
    Dr. Smith. Sir, if I can comment on that. I think that it 
is possible for someone who has a personality disorder to have 
other diagnoses. So someone who has broken a leg may also have 
a personality disorder. But there is certainly not a connection 
between those two diagnoses, or causality, which I think was 
suggested in panel 1.
    The Chairman. So all 600 that you are looking at for their 
personality disorder seem to come to light after a major fiscal 
injury or major psychological injury.
    Dr. Smith. I am not sure that it did come to light. I think 
the review the Army conducted was of people who were diagnosed 
with personality disorder and had been separated 
administratively----
    The Chairman. But I asked you what percentage of that was 
based on their time in combat versus some officer saw 
something. I asked you and you said you didn't know the 
percentage of that. It sounds to me that when these people had 
physical injury that it may have led to their discharge and 
that is when you found out about the ``personality disorder.''
    Dr. Smith. No, sir, I don't believe that is correct. I 
think the 600 cases reviewed by the Army were all people who 
had been deployed to an imminent danger pay zone. They may not 
have had any other physical diagnosis or injuries. There may 
have been some.
    The Chairman. Do you know how many of each?
    Dr. Smith. I do not know.
    The Chairman. I asked you for figures. You don't have them, 
but you are making judgments based on your sense of the 
figures.
    Dr. Smith. The review of the record was for people 
separated for personality disorder.
    The Chairman. But you can't tell me, because I just asked 
you, how many had physical injury, which brought that diagnosis 
to light and you said not very many. But you are not giving me 
any numbers.
    Dr. Smith. Personality disorders would not ordinarily come 
to light as a result of a physical injury.
    The Chairman. But that is the whole reason that we are 
having this hearing. They get discharged not for PTSD or TBI or 
shrapnel in their thigh--they get discharged for personality 
disorder. So they were only diagnosed because they were getting 
treatment for these other things, it sounds to me.
    Dr. Smith. I am not sure that I can say that that is 
accurate.
    The Chairman. But you can only say it is not if you give me 
the figures. Until you give them to me----
    Dr. Smith. We would have to take that question for the 
record.
    [The DoD subsequently provided the following information:]

    L  According to the Department of Defense (DoD) report to 
Congress required by Section 597 of the National Defense 
Authorization Act for Fiscal Year 2008, an analysis of 
separation data showed that only 3,400 (15 percent) of the 
22,600 servicemembers with personality disorder coded 
separations had deployed in support of the Global War on 
Terror. Additionally, the data indicate that the majority, 
19,200 (85 percent) of the 22,600 servicemembers with 
personality disorder coded separations, had two or fewer years 
in the service.
    L  It is DoD policy that any servicemember with an illness 
or injury that makes her or him unfit for retention must be 
referred to the Physical Evaluation Board for a disability 
determination. If a servicemember has both a potentially 
unfitting injury or illness and another condition (e.g. 
personality disorder or sleepwalking) that could be a possible 
cause for administrative separation, referral for disability 
evaluation (and medical separation or retirement, if 
appropriate) would be required prior to any consideration for 
administrative separation.

    The Chairman. Well, I would like you to do that.
    Who would be responsible, General? Sergeant Luther's report 
of what I call torture, could that happen in the Army? Was it 
ever investigated and did the people who are accused of doing 
this--there were pictures and witnesses--was that ever 
investigated?
    General Farrisee. Mr. Chairman, to my knowledge, it was 
not. When it first came out in the media, it was referred to 
Fort Hood. I have will have to followup with them to find out 
if there is any investigation.
    The Chairman. If I were you, I would have jumped. We can't 
let that happen in the Army. If it is true, somebody has got to 
be punished and if it is not true, that has to be known, too. 
Some people are making these charges in public session here 
where they are sworn to tell the truth. They have been in the 
newspaper. Surely, you would be concerned if the Army was 
accused of torturing its own soldiers, wouldn't you?
    General Farrisee. Yes, Mr. Chairman.
    The Chairman. Would you find out if there was any 
investigation for me?
    General Farrisee. We will take that question for the 
record, yes, Mr. Chairman.
    [The DoD subsequently provided the following information:]

    L  Sergeant Luther's battalion and company commanders were 
interviewed regarding the allegations. Sergeant Luther 
indicated suicidal ideations to his chain of command and 
doctors; in response, his chain of command placed him on a 
suicide watch. The chain of command stated that they acted out 
of genuine concern to protect Sergeant Luther and possibly 
other soldiers. Once placed on suicide watch, (which included 
continuous line-of-sight observation) Sergeant Luther spent 
days and nights in the squadron aid station, so that he would 
be close to medical care, if required, and so that he could be 
continuously monitored. Every day, Sergeant Luther was escorted 
to the life support area (about 1 mile away) so that he could 
take a shower. He was also afforded opportunities to visit the 
internet cafes and dining facility. During the day, Sergeant 
Luther sat in the waiting room of the squadron aid station. The 
description of the small sleeping quarters in the aid station 
is accurate. However, the small sleeping quarters was not set 
up specifically for Sergeant Luther. It was a sleeping quarters 
used by medics during the night as they remained on duty 24/7 
for possible casualties. Neither Sergeant Luther nor any other 
soldier complained to the chain of command about his living 
conditions. It has been confirmed by the chain of command and 
the U.S. Army Inspector General Offices that no investigations 
have been initiated as a result of any allegations being 
reported to the chain of command, inspector general, or through 
the criminal investigative channels.

    The Chairman. Who is next?

             STATEMENT OF ANTONETTE M. ZEISS, PH.D.

    Dr. Zeiss. Well, I will go next. I represent VA. So I am 
happy to make just a couple of points since the issues for VA 
have not been as much in focus. So I won't go through my full 
written testimony or oral testimony, but will just want to make 
a couple of points and then happy to answer whatever questions 
you have.
    [The prepared statement of Dr. Zeiss appears on p. 65.]
    The Chairman. Thank you.
    Dr. Zeiss. First of all, we would just like to say that my 
oral testimony did go over the diagnostic criteria for 
personality disorders. There are three clusters with 10 
different personality diagnosis. Dr. Berger has really gone 
through the basics of that so we need not----
    The Chairman. You didn't have any problem with his 
testimony.
    Dr. Zeiss. No.
    The Chairman. When I read your testimony--it is, again, 
underlined from Dr. Draper it is enduring. Manifested in both 
cognition, affects impulse control. Would you expect that all 
to be diagnosed by the military's intake testing of these guys?
    Dr. Zeiss. I can't comment on how thorough the intake 
testing would be and whether they could reach a diagnosis. The 
second point I would like to make that is eligible veterans can 
get the health care they need from VA, whatever their mental 
health or physical health diagnosis and whatever their 
diagnosis when they leave the military, assuming that they are 
eligible, and that is based on two factors--the character of 
the discharge and the completion of service. If they enter VA 
care, they will be routinely screened on an early visit to 
primary care for PTSD, for depression, for problem drinking, 
for TBI, for military sexual trauma. And if any of those 
screens are positive, there will be a full evaluation and a 
full diagnostic process to guide health care decisions. In 
addition, veterans who seek compensation and benefits can do so 
on the basis of whatever diagnosis they choose to present. 
While information from prior experiences may be part of the C-
file that comes to the VHA clinical examiner, they will do a 
full clinical examination based on DSM-IV-TR criteria to 
determine whether or not that is an appropriate diagnosis.
    The fact that someone may have been separated for 
personality disorder diagnosis would not be compelling 
information. The information would really come from the 
clinical exam that would be done by the VHA doctor level 
psychologist or psychiatrist.
    So we are committed to providing care to eligible veterans. 
We are eager for veterans, whatever their diagnosis, when they 
are discharged, to know about their ability to access VA care. 
We have tried to get that word out. We have contacted all 
Operation Enduring Freedom/Operation Iraqi Freedom (OEF/OIF) 
veterans who have not sought care to let them know about their 
eligibility and how to do so. So we are eager----
    The Chairman. You have contacted or in the process?
    Dr. Zeiss. We have contacted. That was done a couple of 
years ago.
    The Chairman. It can be done.
    Dr. Zeiss. We certainly want to cooperate and look forward 
to potentially receiving some additional veterans who seek care 
with us after the outreach that the Department of Defense 
plans.
    The Chairman. Are you aware of the situation that this is a 
hearing of people that were discharged for personality disorder 
and feel it was wrong and want to get health care for their 
service-connected disability? Is that common? Do you know how 
many people that would be? I don't know if your diagnosis would 
be counter to that, but it is a different situation, I guess. 
Are there people who have come in diagnosed with personality 
disorder that you haven't found had personality disorder, or 
you didn't diagnose in that way?
    Dr. Zeiss. We know that of OEF/OIF veterans who have sought 
VA care, at this point cumulatively since 2002, 7,348 have 
received a personality disorder diagnosis. They may have 
additional diagnoses. But that is about 1.3 percent of those 
veterans who have come to seek VA care. And that is a diagnosis 
given by a VA clinician.
    The Chairman. Do you know how many people came in with a 
personality diagnosis from the military and didn't receive that 
diagnosis from the VA?
    Dr. Zeiss. I don't have those numbers.
    The Chairman. Do we know that? Would we keep such 
information?
    Dr. Zeiss. We can certainly go back to Public Health and 
Environmental Hazards, who get the separation files from the 
Department of Defense, and see whether there is information in 
that file about what the discharge diagnoses were. Again, we 
seek to establish our own diagnosis, but we can--I can 
certainly try to get that information.
    [The VA subsequently provided the following information:]

    L  The Office of Public Health and Environmental Hazards 
does not receive complete data on military separation codes 
from Department of Defense DoD Manpower Data Center (DMDC) for 
the Operation Enduring Freedom/Operation Iraqi Freedom (OEF/
OIF) Veteran population. Of the 1,168,953 OEF/OIF Veterans with 
final out-of-country dates through February 2010, only 625,660 
(53.5 percent) had complete information related to their 
military separation, and of these Veterans, less than 1 percent 
were coded as having separated due to ``character or behavior 
disorder''. Therefore, we cannot provide accurate information 
on the number of personality disorder discharges among OEF/OIF 
Veterans from military separation codes as provided to us by 
DMDC.
    L  We can, however, provide the total number of OEF/OIF 
Veterans who have been diagnosed at a VA health care facility 
with personality disorders (ICD-9CM 301). Through the second 
quarter of FY 2010 (March 30, 2010), of all OEF/OIF Veterans 
who sought medical care at VA since October 2001 (n=565,024), 
7,988 (1.4 percent) unique OEF/OIF Veterans were diagnosed at 
least once with personality disorders (ICD-9CM 301).
    L  VHA program office: 13-Doug Dembling

    The Chairman. The 1 percent or 1 percent-plus figure was 1 
percent of what, of all the people that come to see you from 
VA?
    Dr. Zeiss. I would add--Of those OEF/OIF veterans who have 
sought care in VA----
    The Chairman. Only 1 percent had a diagnoses with 
personality disorder.
    Dr. Zeiss [continuing]. One point 3 percent. The other 
thing that we are very aware of is that Congress has given Vet 
Centers the legal authority to work with veterans who want 
guidance to appeal their discharge status. And they certainly 
take that charge seriously and do work with veterans who want 
to return to the Department of Defense with additional 
information and attempt to see whether the discharge status can 
be changed.
    The Chairman. Do we know how many have done that yet?
    Dr. Zeiss. Vet Centers, we work very collaboratively with 
them, but they don't enter data in the electronic medical 
records, as you know, and they take very seriously their 
confidentiality. So we won't get specific data.
    The Chairman. The military should know who has appealed 
their case and how many of those come to VA specifically for 
personality disorder?
    Mr. Hebert. We will take that question.
    The Chairman. You don't have that either.
    Does anybody want to correct anything I have said? You have 
a chance to say anything you want before I let you go about 
this issue. How should we be looking at it? What would help us 
and help you do your job better?
    Dr. Zeiss. The only thing I would add from the VA 
perspective is that PTSD, in particular, is a diagnosis that we 
know can have late onset. So we don't assume in VA if we make a 
different diagnosis than the diagnosis that was made in the 
Department of Defense that it was necessarily an incorrect 
diagnosis. They were working with whatever information they had 
at the time. And people are dynamic. They all change. And PTSD 
can have late onset. That would not be as true, obviously, for 
TBI and for some other disorders. So we want to be clear that 
while we want to do our own diagnosis, we are working with the 
veteran as they are when they appear to us at VA.
    The Chairman. I understand that. If something like 98 
percent of what you worked with you differed with the military, 
it would tell us something. Not that they were wrong, but you 
found out in every case that they seemed to make the wrong 
diagnosis or a different diagnosis.
    Anybody from the Army or Defense Department care to 
comment?
    Colonel Porter. Mr. Chairman, I want to express that we 
sincerely appreciate the concern that you have for both the 
serving members and the veterans. I think to speak to some of 
the GAO observations that perhaps the Army wasn't complying 
with the directives that had gone out, what I would say is that 
in the Army we have started within the OTFG or the Surgeon 
General's Office we have started an inspection program where we 
go out and we pull records and we look at what is happening at 
the ground treatment facilities just to make sure that they are 
not ignoring the directives. The other thing that we have in 
the works--it is not done yet, but it is being done, and it is 
on its way to the Surgeon General for approval--is stricter 
guidelines for any kind of separation--administrative 
separation that has a mental health diagnosis in it.
    So whether it is a personality disorder, an adjustment 
disorder, PTSD, any of those will have to come to the Surgeon 
General's Office for review so that we can have an oversight of 
any of those. And we are requiring the regional medical 
commanders to acknowledge receipt of that guidance so there 
isn't any more people saying we didn't know. That is all I 
have, sir.
    The Chairman. I think Dr. Draper mentioned that she was 
having trouble getting a document for 2009. Do you know 
anything about that?
    Colonel Porter. I don't know anything about it, but we will 
certainly get what we can.
    The Chairman. You will be glad to help us find the right 
documents?
    Colonel Porter. Yes.
    The Chairman. Thank you. Department of Defense, anybody 
want to say something? I will give you the last word.
    Mr. Hebert. Sir, Mr. Chairman, if your question to the 
Department is whether or not we are satisfied with the progress 
we have made, the answer is no. Can we do more? Yes. Will we do 
more? Absolutely. Admittedly, the amount of time we have had 
since 2007 to develop a full body of knowledge about the 
complexities of this issue. I mean before you see the medical 
community, you see the human resource community, and I will 
tell you our legal communities have been arm-and-arm with us as 
well. And together we have forged a very structured, very 
rigorous screening process to ensure that no veteran leaves 
from active service without having been properly screened and 
diagnosed, to the extent that it is possible. Beyond that, we 
are working with our partners in the VA to make sure that 
anyone who hasn't passed through those screening process will 
be identified and will get the proper care. And we will 
continue to do that. While we have not begun that fight, we 
will continue to endeavor.
    The Chairman. When you heard the story of Sergeant Luther 
about this closet, does anybody in the Department of Defense 
have authority or responsibility to investigate that type of 
charge?
    Mr. Hebert. Allegations of misconduct are generally 
referred to the Inspector General's Office, yes, sir.
    The Chairman. You just heard that charge. Would you refer 
it or do I have to do it?
    Mr. Hebert. We will look into it, sir.
    The Chairman. Thank you. All right. I appreciate your 
testimony. I sound a little frustrated and upset only because I 
am. But it just seems to me we have some pretty significant 
allegations here and it just doesn't sound like we have the 
information or testimony to allay my fears or my sense that 
they are right. If you could give me the answers to the 
questions you said you would, I would get a better 
understanding. I appreciate that. Thank you for your testimony. 
Panel four is excused.
    I would like, Mr. Kors, if you could, return for a second.
    I see you as not a person of hearsay, as was alleged, but 
as somebody who really understands this issue and is trying to 
do the best for our soldiers. What questions--do you have any 
response to some of the testimony you heard since you testified 
this morning or what questions we should ask these panels?
    Mr. Kors. I do. About the hearsay, I think they would make 
me return my Military Reporters and Editors Award if that were 
the case.
    The Chairman. Right. Thank you.
    Mr. Kors. First of all, about the VA looking at cases in 
which a soldier clearly did not have personality disorder but 
were discharged with that, finding that out would take about 30 
seconds. When the soldier was called in for VA medical 
screening, they would say hey, bring your discharge papers. 
Every soldier has them. On the discharge paper it would say: 
Discharged for personality disorder. Now they would know who 
they have there.
    The Chairman. Is Dr. Zeiss still back there?
    I had asked you how many people who were discharged for 
PTSD--I mean, personality disorder that you didn't find that. I 
don't think you answered me. Can we figure that out? Do we have 
that information?
    Dr. Zeiss. I will go back and check with our office that 
gets the separation information and find out what we can 
abstract from it. I am happy to do that.
    The Chairman. Thank you.
    Mr. Kors. And then, of course, in those cases the 
Department of Defense remains firm in its decision with 
Sergeant Luther. The VA came to a radically different 
conclusion. It said severe traumatic brain injury. Yet a few 
weeks ago he got a letter for his appeal for his discharge. And 
they said, Yeah, the VA came to that conclusion, but we are 
sticking with ours. And you see that over and over in the rare 
few soldiers who were discharged were personality disorder and 
know that they can attend VA. So many of the soldiers we are 
talking about here are soldiers who don't even know they can 
enter VA's doors because of this discharge.
    I think it goes well beyond money. That is another 
important factor here. So many of these soldiers come to me, 
they say, This discharge is like a scarlet letter they just 
can't wash off. In today's job economy, can you imagine going 
into a potential employer and handing them a paper saying you 
are mentally ill? You are not going to get that job. And so 
that is how you end up with so many of these soldiers not just 
with without any benefits, but also then broke and then 
homeless.
    The Chairman. The issue you raise, of course, with all the 
witnesses we have had since your panel, talk about the law or 
the regulations. But you are saying that if somebody is told 
they get no benefits, they don't distinguish between the VA, 
DoD or----
    Mr. Kors. Exactly. They are told they can get no benefits. 
They don't realize they can get a fresh review at the VA.
    The Chairman. I notice that will be clear in the letter 
that is now going to go out to those 23,000 veterans. Right?
    Mr. Hebert. Yes, sir.
    Mr. Kors. This idea of, Well, how do you find out whether 
those 22,600 soldiers had preexisting conditions, well, that is 
where not interviewing anybody comes into play. If they made a 
single phone call to a single one of those families or their 
doctors, all of them would say this is ridiculous; this soldier 
has been perfectly healthy, that is why he won 22 honors and 
was able to serve a dozen years. So by just dealing with the 
papers they had produced, they are just recycling their same 
information over and over.
    I think about the earlier review done by the Army Surgeon 
General Gail Pollock. She said that they had done a 5-month 
thoughtful and thorough review. But with a touch more 
reporting, I found that in that case, again, they did not 
interview a single person. All they did was go back to one of 
the doctors who created the false diagnosis and said hey, did 
you get it right the first time? The doctor said yep, I did. 
And they shut down the review at that point. They even--you 
have to have a dark sense of comedy to report on this stuff--
they sent a letter----
    The Chairman. You have come to the right Committee.
    Mr. Kors. They sent a letter out saying that they had 
additionally reviewed a stack of hundreds of cases out of Fort 
Carson the last 4 years of personality disorder discharges and 
realized that--and came to the conclusion that all of those 
soldiers were also properly diagnosed. But accidentally one of 
the Surgeon General's staff sent out an e-mail to a fellow 
military reporter of mine saying hey, we couldn't even find 
those cases. And the internal reply was okay, just say that 
they were properly diagnosed even if we couldn't locate them. 
Ten minutes later, the e-mail to that reporter came and said, 
oops, we shouldn't have sent that to you. Please ignore. She 
went ahead and forwarded it to me so that I could see what was 
going on. But I contacted the Surgeon General's Office at that 
point and said how did you know that those 4 years of cases 
were properly diagnosed when you couldn't even locate them? And 
the reply came that they could not answer that question.
    The Chairman. Well, again, I want to thank you and many of 
the soldiers you have interviewed who have gone on the record 
with very painful things to share especially in public. You 
have opened up something that we need to know about. As you 
saw, I am not convinced by the testimony we have heard that 
there is not an issue there. We have to figure out exactly how 
to get to it.
    Mr. Kors. This is not an example of soldiers slipping 
through the cracks. When you have soldiers who are wounded and 
discharged with this, the purpose of this discharge is to get 
them out the side door. Again, it is not just money. Think 
about the PR factor as well. Everyone knows about the 5,670 who 
are dead from Iraq and Afghanistan and the 91,000 who are 
officially wounded. But the Rand Corporation, an independent 
agency, looked at that and found that over 400,000 soldiers 
from these wars were suffering from traumatic brain injury. By 
giving those soldiers personality disorder discharges, you are 
essentially sliding them out the side door and keeping them off 
the books and records of the wounded.
    The Chairman. I will give you another statistic. You have 
the official casualty count that you recited there. My sense--
and I may not have the exact figures--but it is certainly 
close--that almost a million veterans of these wars have come 
to the VA for help. A million versus 45,000 reported wounded. 
It is not a rounding error. This is a deliberate attempt not to 
let us know what is going on in the battles.
    Mr. Kors. And these aren't just number. They are not 1 
percent. We are talking about 22,000 shattered families who, 
first, they have to deal with the wounds from the war, and now 
they have to deal with the devastation of no benefits, no long-
term medical care. The demand that they give back a chunk of 
their signing bonus just immediately drives so many of these 
families into debt, if they already weren't there.
    The Chairman. Well, again, I appreciate the service you are 
rendering to our country and look forward to trying to see if 
we can help all these folks. Thank you so much.
    This hearing is adjourned.
    [Whereupon, at 1:05 p.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

            Prepared Statement of Hon. Bob Filner, Chairman,
                  Full Committee on Veterans' Affairs

    Good morning. The Committee on Veterans' Affairs will now come to 
order.
    In 2007, this Committee held a hearing to explore the problem of 
the Department of Defense (DoD) improperly discharging servicemembers 
with pre-existing personality disorders rather than mental health 
conditions resulting from the stresses of war such as Post-Traumatic 
Stress Disorder (PTSD) and Traumatic Brain Injury (TBI).
    This means that servicemembers with personality disorder discharges 
are generally denied key military disability benefits and DoD is 
conveniently relieved from the responsibility of caring for our 
servicemembers in the long-term. These men and women continue to face 
an uphill battle when they seek benefits and services at the Department 
of Veterans Affairs (VA) because they must somehow prove that the so 
called pre-existing condition was aggravated or worsened by their 
military service.
    Following the 2007 hearing on personality disorder discharges, the 
National Defense Authorization Act for Fiscal Year 2008 included a 
provision requiring DoD to submit a report to Congress on this issue. 
DoD reported that from 2002 to 2007, the Department discharged 22,600 
servicemembers with personality disorders.
    DoD policy further stated that servicemembers must be counseled, be 
given the opportunity to overcome said deficiencies, and must receive 
written notification prior to being involuntarily separated on the 
basis of a personality disorder. DoD also added rigor to their policy 
guidance by authorizing such separations only if servicemembers are 
diagnosed by a psychiatrist or Ph.D. level psychologists of the 
personality disorder.
    It has been over 3 years since we first exposed this issue at our 
hearing in 2007. It is my understanding that DoD's use of personality 
disorder discharges has decreased and that they concluded that no 
soldiers have been wrongly discharged.
    I am deeply puzzled by this conclusion and would like to better 
understand the process and the criteria that were used to review the 
files of the thousands of servicemembers who were discharged with 
personality disorders. I cannot help but suspect that our men and women 
are not getting the help that they need and are struggling with PTSD, 
TBI, and other stresses of war on their own because of wrongful 
personality disorder discharges.
    Stresses of war such as PTSD and TBI are debilitating and its 
impact can be far-reaching. We know of the negative impact that PTSD 
and TBI can have on the individual's mental health, physical health, 
work, and relationships. We also know that veterans attempt to self-
medicate using alcohol and drugs. This means that PTSD and TBI can lead 
veterans on a downward spiral towards suicide attempts and 
homelessness.
    Just this past summer, we all heard the United States Army 
reporting suicide rates of 20.2 per 100,000 which now exceeds the 
national suicide rate of 19.2 per 100,000 in the general population. 
And, when high-risk behaviors such as drinking and driving and drug 
overdoses are taken into account, it is said that more soldiers are 
dying by their own hand than in combat. Similarly, we know that 
homelessness continues to be a significant problem for our veterans, 
especially those suffering with PTSD and TBI.
    Three years later, the Committee continues to hear of accounts of 
wrongful personality disorder discharges. This begs the question of how 
many soldiers have to commit suicide, go bankrupt, and end up homeless 
before real action is taken to remedy this problem? Clearly, our 
veterans must not be made to wait longer and must not be denied the 
benefits that they are entitled to. <greek-l>ELIMINATE BAD BREAK deg.
    I look forward to hearing from our witnesses today as we further 
expose the problem of personality disorder discharges, better 
understand the steps that DoD has taken to deal with this problem, and 
forge a path forward to help our servicemembers who were improperly 
discharged with personality disorders.

                                 <F-dash>
       Prepared Statement of Joshua Kors, Investigative Reporter,
                          The Nation. Magazine

    Good morning. I've been reporting on personality disorder for 
several years, and I'm here today to talk about the thousands of 
soldiers discharged with that condition since 2001.
    A personality disorder discharge is a contradiction in terms. 
Recruits who have a severe, pre-existing illness like a personality 
disorder do not pass the rigorous screening process and are not 
accepted into the Army.
    In the 3\1/2\ years I've been reporting on this story, I've 
interviewed dozens of soldiers discharged with personality disorder. 
All of them passed that original screening and were accepted into the 
Army. They were deemed physically and psychologically fit in a second 
screening as well, before being deployed to Iraq and Afghanistan, and 
served honorably there in combat. In each case, it was only when they 
became physically wounded and sought benefits that their pre-existing 
condition was discovered.
    The consequences of a personality disorder discharge are severe. 
Because PD is a pre-existing condition, soldiers discharged with it 
cannot collect disability benefits. They cannot receive long-term 
medical care like other wounded soldiers. And they have to give back a 
slice of their signing bonus. As a result, on the day of their 
discharge, thousands of injured vets learn they actually owe the Army 
several thousand dollars.
    Sergeant Chuck Luther is a disturbing example of a how the Army 
applies a personality disorder discharge. Luther was manning a guard 
tower in the Sunni Triangle, north of Baghdad, when a mortar blast 
tossed him to the ground, slamming his head against the concrete, 
leaving him with migraine headaches so severe that vision would shut 
down in one eye. The other, he said, felt like someone was stabbing him 
in the eye with a knife. When Luther sought medical care, doctors at 
Camp Taji told him his blindness was caused by pre-existing personality 
disorder.
    Luther had served a dozen years, passing eight screenings and 
winning 22 honors for his performance. When he rejected that diagnosis, 
Luther's doctors ordered him confined to a closet. The sergeant was 
held in that closet for over a month, monitored around the clock by 
armed guards who enforced sleep deprivation: keeping the lights on all 
night, blasting heavy metal music at him all through the night. When 
the sergeant tried to escape, he was pinned down, injected with 
sleeping medication and dragged back to the closet. Finally, after over 
a month, Luther was willing to sign anything--and he did, signing his 
name to a personality disorder discharge.
    The sergeant was then whisked back to Fort Hood, where the he 
learned the disturbing consequences of a PD discharge: no disability 
pay for the rest of his life, no long-term medical care, and he would 
now have to pay back a large chunk of his signing bonus. Luther was 
given a bill for $1,500 and told that if he did not pay it, the Army 
would garnish his wages and start assessing interest.
    Since 2001, the military has pressed 22,600 soldiers into signing 
these personality disorder documents, at a savings to the military of 
over $12.5 billion in disability and medical benefits. The sergeant's 
story was Part 3 in my series on personality disorder. In Part 2, I 
interviewed military doctors who talked about the pressure on them to 
purposely misdiagnose wounded soldiers. One told the story of a soldier 
that came back with a chunk missing from his leg. His superiors 
pressured him to diagnose that as personality disorder.
    In 2008, after several congressmen expressed outrage at these 
discharges, President Bush signed a law requiring the Pentagon to study 
PD discharges. Five months later the Pentagon delivered its report. Its 
conclusion: not a single soldier had been wrongly diagnosed, and not a 
single soldier had been wrongly discharged. During this 5-month review, 
Pentagon officials interviewed no one, not even the soldiers whose 
cases they were reviewing.
    Three years ago, during a hearing on personality disorder 
discharges, military officials sat in these seats and vowed to this 
committee to fix this problem. Three years later nothing has changed.
                               Key Links
Personality Disorder series: www.joshuakors.com/military

Sergeant Luther article: www.joshuakors.com/part3

Luther on BBC: http://bit.ly/BBC1interview

ABC News on Personality Disorder: www.joshuakors.com/abcnews.mov

Personality Disorder discharge stats: www.joshuakors.com/statistics

Personality Disorder legislation: www.joshuakors.com/legislation

                               __________
                              The Nation.
                             April 26, 2010
   ``Disposable Soldiers: How the Pentagon is Cheating Wounded Vets''
                             By Joshua Kors

    The mortar shell that wrecked Chuck Luther's life exploded at the 
base of the guard tower. Luther heard the brief whistling, followed by 
a flash of fire, a plume of smoke and a deafening bang that shook the 
tower and threw him to the floor. The Army sergeant's head slammed 
against the concrete, and he lay there in the Iraqi heat, his nose 
leaking clear fluid.
    ``I remember laying there in a daze, looking around, trying to 
figure out where I was at,'' he says. ``I was nauseous. My teeth hurt. 
My shoulder hurt. And my right ear was killing me.'' Luther picked 
himself up and finished his shift, then took some ibuprofen to dull the 
pain. The sergeant was 7 months into his deployment at Camp Taji, in 
the volatile Sunni Triangle, twenty miles north of Baghdad. He was 
determined, he says, to complete his mission. But the short, muscular 
frame that had guided him to twenty-two honors--including three Army 
Achievement Medals and a Combat Action Badge--was basically broken. The 
shoulder pain persisted, and the hearing in his right ear, which 
evaporated on impact, never returned, replaced by the maddening hum of 
tinnitus.
    Then came the headaches. ``They'd start with a speckling in the 
corner of my vision, then grow worse and worse until finally the right 
eye would just shut down and go blank,'' he says. ``The left one felt 
like someone was stabbing me over and over in the eye.''
    Doctors at Camp Taji's aid station told Luther he was faking his 
symptoms. When he insisted he wasn't, they presented a new diagnosis 
for his blindness: personality disorder.
    ``To be told that I was lying, that was a real smack in the face,'' 
says Luther. ``Then when they said `personality disorder,' I was really 
confused. I didn't understand how a problem with my personality could 
cause deafness or blindness or shoulder pain.''
    For 3 years The Nation has been reporting on military doctors' 
fraudulent use of personality disorder to discharge wounded soldiers. 
PD is a severe mental illness that emerges during childhood and is 
listed in military regulations as a pre-existing condition, not a 
result of combat. Thus those who are discharged with PD are denied a 
lifetime of disability benefits, which the military is required to 
provide to soldiers wounded during service. Soldiers discharged with PD 
are also denied long-term medical care. And they have to give back a 
slice of their re-enlistment bonus. That amount is often larger than 
the soldier's final paycheck. As a result, on the day of their 
discharge, many injured vets learn that they owe the Army several 
thousand dollars.
    According to figures from the Pentagon and a Harvard University 
study, the military is saving billions by discharging soldiers from 
Iraq and Afghanistan with personality disorder.
    In July 2007 the House Committee on Veterans' Affairs called a 
hearing to investigate PD discharges. Barack Obama, then a senator, put 
forward a bill to halt all PD discharges. And before leaving office, 
President Bush signed a law requiring the defense secretary to conduct 
his own investigation of the PD discharge system. But Obama's bill did 
not pass, and the Defense Department concluded that no soldiers had 
been wrongly discharged. The PD dismissals have continued. Since 2001 
more than 22,600 soldiers have been discharged with personality 
disorder. That number includes soldiers who have served two and three 
tours in Iraq and Afghanistan.
    ``This should have been resolved during the Bush administration. 
And it should have been stopped now by the Obama administration,'' says 
Paul Sullivan, executive director of Veterans for Common Sense. ``The 
fact that it hasn't is a national disgrace.''
    On Capitol Hill, the fight is not over. In October four senators 
wrote a letter to President Obama to underline their continuing concern 
over PD discharges. The president, almost 3 years after presenting his 
personality disorder bill, says he remains concerned as well.
    Veterans' leaders say they're particularly disturbed by Luther's 
case because it highlights the severe consequences a soldier can face 
if he questions his diagnosis and opposes his PD discharge.
    Luther insisted to doctors at Camp Taji that he did not have 
personality disorder, that the idea of developing a childhood mental 
illness at the age of 36, after passing eight psychological screenings, 
was ridiculous. The sergeant used a vivid expression to convey how much 
pain he was in. ``I told them that some days, the pain was so bad, I 
felt like dying.'' Doctors declared him a suicide risk. They collected 
his shoelaces, his belt and his rifle and ordered him confined to an 
isolation chamber.
    Extensive medical records written by Luther's doctors document his 
confinement in the aid station for more than a month. The sergeant was 
kept under twenty-four-hour guard. Most nights, he says, guards 
enforced sleep deprivation, keeping the lights on and blasting heavy 
metal music. When Luther rebelled, he was pinned down and injected with 
sleeping medication.
    Eventually Luther was brought to his commander, who told him he had 
a choice: he could sign papers saying his medical problems stemmed from 
personality disorder or face more time in isolation.
`Every Night It Was Megadeth'
    Luther entered the Army in 1988, following in the footsteps of his 
grandfathers, both decorated World War II veterans. In 2005, after 
Hurricane Katrina, he and his unit were deployed to New Orleans, where 
he helped evacuate residents and dispose of bodies left in the street. 
In 2006 he was deployed from Fort Hood in Texas to Camp Taji, where he 
performed reconnaissance with the First Squadron, Seventh Cavalry 
Regiment, led by Major Christopher Wehri. ``Luther was older and more 
mature than most of the soldiers. He was forthcoming, very polite,'' 
says Wehri. ``He seemed to have a good head on his shoulders.''
    Doctors at the aid station didn't see him that way. Following the 
May 2007 mortar attack, Luther entered the base's clinic and described 
his concussion symptoms to Captain Aaron Dewees. Dewees, a pediatrician 
charged with caring for soldiers in the 1-7 Cavalry, grew suspicious of 
Luther's self-report. ``It is my professional opinion,'' Dewees wrote 
in his medical records, ``that Sergeant Charles F. Luther Jr. has been 
misrepresenting himself and his self-described medical conditions for 
secondary gain.'' The doctor suggested that Luther was faking his 
ailments to avoid reconnaissance duty. He called the sergeant 
``narcissistic'' and said Luther's descriptions of his injuries were a 
mixture of ``exaggeration and flat-out fabrication.''
    Luther's medical records document severe nosebleeds and ``sharp and 
burning'' pain. Still, the sergeant says he could sense that his 
doctors didn't believe him. It was at that point--frustrated, plagued 
by blinding migraines--that he spoke of pain so severe he wished he 
were dead. ``I made clear that I was not going to kill myself, that it 
was just a colorful expression to explain how much pain I was in.'' 
Dewees agreed. In their records, Luther's doctors note a ``suicide 
gesture'' and ``'off-handed' comments'' that the sergeant was going to 
kill himself, but Dewees said those gestures were ``unlikely to have 
been a serious attempt'' at self-harm. Nonetheless, Dewees wrote, such 
statements ``must be taken seriously and treated as such,'' that Luther 
``remains a threat to himself and others given his need for attention, 
narcissistic tendencies and impulsive behavior.''
    Luther was taken to an isolation chamber and told this was his new 
sleeping quarters. The room, which Luther captured on his digital 
camera, served as a walk-in closet. It was slightly larger than an Army 
cot and was crammed with cardboard boxes, a desk and a bedpan. Through 
a small, cracked window, he could look out onto the base. Through the 
open doorway, the sergeant was monitored by armed guards.
    Both Dewees and Lieutenant Colonel Larry Applewhite, an aid station 
social worker, declared Luther mentally ill, suffering from a 
personality disorder. The next step was to remove him from the military 
as fast as possible. ``It is strongly recommended that Sergeant Luther 
be administratively separated via Chapter 5-13,'' wrote Applewhite, 
citing the official discharge code for personality disorder. In a 
separate statement, Dewees endorsed the 5-13 discharge and urged that 
it be handled rapidly. ``I feel the safest course of action,'' he 
wrote, ``is to expedite his departure from theater.''
    That didn't happen. For more than a month Luther remained in his 
six-by-eight-foot isolation chamber, weeks he describes as ``the 
hardest of my life.'' He says the guards would ridicule him and most 
nights enforced sleep deprivation, keeping the lights on all night and 
using a nearby Xbox and TV speakers to blast heavy metal into his room. 
``Every night it was Megadeth, Saliva, Disturbed.'' The sergeant pulled 
a blanket over his head to block out the noise and the light, but it 
was no use.
    ``They told me I wasn't a real soldier, that I was a piece of crap. 
All I wanted was to be treated for my injuries. Now suddenly I'm not a 
soldier. I'm a prisoner, by my own people,'' says Luther, his voice 
tightening. ``I felt like a caged animal in that room. That's when I 
started to lose it.''
    Isolated, exhausted, the sergeant who had been confined for being 
mentally ill says he began feeling exactly that. Finally Luther 
snapped. He stepped out of his room and was walking toward a senior 
official's office when an altercation broke out. In the ensuing 
scuffle, Luther bit one of his guards, then spit in the face of the aid 
station chaplain. The sergeant was pinned to the floor and injected 
with five milligrams of Haldol, an antipsychotic medication. Sedated, 
Luther was returned to isolation.
    Staff Sergeant James Byington, who was serving at Camp Taji with 
the 1-7 Cavalry, walked the half-mile to the aid station to visit his 
fellow soldier. Byington says that off the battlefield, Sergeant Luther 
was ``animated and peppy,'' the comedian of the chow hall. During 
combat, he says, Luther was focused and prepared, a key component in a 
farmland raid just outside Taji that discovered a cache of weapons and 
money. The man he found in the isolation chamber was neither the 
soldier nor the comedian, he says, but something altogether odd and 
decrepit. ``He wasn't energetic like he used to be. He wasn't cutting 
jokes. Chuck's one of those guys that talks with his hands. You go into 
a room with twenty guys, and you're going to hear Chuck Luther,'' says 
Byington. ``Now he seemed half-asleep. He looked worn out.''
    A few hours after Byington's visit, Luther was called to his 
commander's office. Major Wehri was frank. He held the personality 
disorder discharge papers in his hand. ``And he said, `Sign this 
paperwork, and we'll get you out.' I said, `I don't have a personality 
disorder.' But it was like that didn't matter,'' says Luther. ``He 
said, `If you don't sign this, you're going to be here a lot longer.' 
''
    The sergeant signed. ``They had me broke down,'' he says. ``At that 
point, I just wanted to get home.'' Luther's voice grows quiet as he 
recounts that final meeting. ``I still remember Wehri's face,'' he 
says. ``He was smiling.''
    Wehri confirms his statements to Luther. He says he pressed the 
sergeant to sign because he felt it was in Luther's best interest and 
in the best interest of the Army. The sergeant, he says, ``had gotten 
so belligerent. If we had returned him to his unit, he would have been 
a danger to himself and to others. His behavior was not suitable to 
military service. And he wanted to get home. So I told him, `If your 
goal is to get home, and we've diagnosed you with personality disorder, 
your fastest way is to sign the papers. If you don't sign, you're just 
subjecting yourself to further anguish and discomfort.' ''
    Wehri insists that his comments to Luther were not pivotal to the 
sergeant's discharge. Even without a soldier's signature, a PD 
dismissal can proceed. But the papers would then move to an Army 
lawyer, and the process would be delayed. ``You can't force anyone to 
sign,'' he says. ``But if you're going to be stubborn and not sign, try 
to play hardball, you run the risk of a dishonorable discharge. With 
Luther's biting and spitting, I could have court-martialed him out 
right there for failure to perform in a military manner.''
    The major says Luther's real story is that of a good soldier who 
came home for leave, saw his wife's new haircut and slimmed figure and 
was driven mad by fears of her infidelity. ``When he came back to Iraq, 
something had changed. He had a negative attitude. He wouldn't respond 
to direct orders. His head wasn't in the game.'' Wehri says it became 
clear to him that Luther was intent on returning home right away, a 
realization that left him disappointed but not shocked. ``Soldiers are 
conniving,'' he says. ``They are manipulative. If they get in their 
minds they want to do something for personal gain, including going 
home, they'll go to any lengths to get it.''
    Wehri rejects the idea that the mortar attack and subsequent 
concussion could have triggered Luther's woes. ``That mortar attack was 
nothing,'' he says. ``Insignificant. Maybe he fell down. Sure. I've 
fallen down lots of times.'' The major wonders aloud whether Luther is 
using that injury to justify his instability. He says if he thought the 
attack was significant, he would have investigated it fully and gotten 
the ball rolling for a Purple Heart.
    The major confirms that Luther was confined to the aid station for 
several weeks and that his room was minuscule. But he says those 
circumstances were unavoidable. ``Discharging a soldier with 
personality disorder is a very long and drawn-out process,'' he says. 
``And Luther was a danger to himself and others. He needed to be 
watched. The aid station, that's where they had 24-7 supervision.''
    Wehri says he marvels at the idea that Luther could be a poster 
child for false personality disorder discharges. He has seen seven 
personality disorder cases in his career, he says. ``And Chuck Luther 
was by far the clearest one.'' The major says that when Luther's 
troubles began, the sergeant's behavior confounded him. Then, says 
Wehri, he heard from a commander who said Luther's family had spoken 
with him and revealed that Luther had suffered from psychiatric 
problems before entering the military and had been treated with 
medication. ``Then suddenly it made sense to me,'' says Wehri. ``This 
was not new. His symptoms were just popping up now, after he'd kept a 
lid on them for many years. It all clicked into place.''
    But Luther's wife and his mother say that story is flatly false. 
Both say they never had such a conversation with an Army commander and 
are emphatic that the sergeant never faced any psychiatric problems 
before entering the military. ``Hearing that makes me really angry,'' 
says Luther's mother, Barbara Guignard. ``Chuck was an all-American 
boy. He never took any medication, and he never had a problem.''
    How Dewees and Applewhite came to the conclusion that Luther was 
suffering from a pre-existing mental illness remains unclear. They 
declined to elaborate on their notes or discuss the diagnosis of 
personality disorder in general. What is clear is that neither Dewees 
nor Applewhite spoke with Luther's family before determining that his 
problems existed before his military service. The sergeant's wife and 
his mother say that had they been asked, both could have provided key 
information demonstrating Luther's stability and health before the 
mortar attack.
    Specialist Angel Sandoval says he could have helped as well. 
Sandoval, who was stationed at Camp Taji and served under Luther in the 
1-7 Cavalry, laughs at the idea that the sergeant was mentally ill. 
``Chuck was a lot more than `not mentally ill,' '' he says. ``He saved 
my life.'' Sandoval describes heading into combat under Luther's 
command. The specialist was ready to dump his side-SAPIs, large ceramic 
plates that strap to the side of a bulletproof vest, protecting the 
kidneys from machine-gun fire. ``They're bulky and kinda heavy, but he 
said, `No way, you have to wear them,' '' says Sandoval. ``Two days 
later I got shot right there, under my arm. It could have killed me.''
    Luther, he says, was ``one of the greatest leaders I had. He never 
steered me wrong. If they thought he was ill and needed medical help, 
they should have given it to him instead of kicking him out of the 
Army.''
    But it was Wehri and Applewhite's view that mattered. Soon after 
signing the personality disorder papers, Luther was placed in a DC-10 
and whisked back to Fort Hood. There he would learn about Chapter 5-
13's fine print: he was ineligible for disability benefits, since his 
condition was pre-existing. He would not be receiving the lifetime of 
medical care given to severely wounded soldiers. And because he did not 
complete his contract, he would have to return a slice of his signing 
bonus.
    At the base, a Fort Hood discharge specialist laid out the details. 
``He said I now owed the Army $1,500. And if I did not pay, they'd 
garnish my wages and assess interest on my debt,'' Luther says.
    Luther was then released into a pelting Texas rain. He called his 
wife, Nicki, to pick him up. ``When I got to Fort Hood he was in the 
parking lot, alone, wet, sitting on his duffel bag,'' Nicki recalls. 
``He had lost a lot of weight. He looked like. . .a little boy. I 
remember thinking, My God, what have they done to my husband?''
The President `Continues to Be Concerned'
    Luther's case is not an isolated incident. In the past 3 years, The 
Nation has uncovered more than two dozen cases like his from bases 
across the country. All the soldiers were examined, deemed physically 
and psychologically fit, then welcomed into the military. All performed 
honorably before being wounded during service. None had a documented 
history of psychological problems. Yet after seeking treatment for 
their wounds, each soldier was diagnosed with a pre-existing 
personality disorder, then discharged and denied benefits.
    That group includes Sergeant Jose Rivera, whose hands and legs were 
punctured by grenade shrapnel during his second tour in Iraq. Army 
doctors said his wounds were caused by personality disorder. Sailor 
Samantha Stitz fractured her pelvis and two bones in her ankle. Navy 
doctors cited personality disorder as the cause. Specialist Bonnie 
Moore developed an inflamed uterus during her service. Army doctors 
said her profuse vaginal bleeding was caused by personality disorder. 
Civilian doctors disagreed: they performed emergency surgery to remove 
her uterus and appendix. After being discharged and denied benefits, 
Moore and her teenage daughter became homeless.
    ``The military is exacerbating an already bad situation,'' says 
Sullivan of Veterans for Common Sense. ``This is more than neglect. 
It's malice.'' Sullivan's organization has spent the past few years 
pressing officials in Washington to take action on the personality 
disorder issue. In July 2007 he testified before the House Committee on 
Veterans' Affairs. Sullivan told the Committee that PD discharges 
needed to be halted immediately.
    That month Obama put forward his bill to do just that. The bill was 
matched in the House by legislation from Representative Phil Hare, and 
it had passionate support on both sides of the aisle, from prominent 
Democrats like Senator Barbara Boxer to high-ranking Republicans like 
Senator Kit Bond. Sullivan and other veterans' leaders say they were 
hopeful that Obama would use the spotlight of the presidential campaign 
to generate further momentum for his bill.
    That didn't happen. In the twenty-one months of his presidential 
run, the Illinois senator never spoke publicly about PD discharges or 
his bill to halt them. Eventually, without widespread public knowledge 
or support, and facing opposition from senators who had never heard of 
personality disorder and worried the bill would open a floodgate of 
expensive benefits, Obama and Bond, the bill's co-author, were forced 
to reshape it into an amendment and water down its contents. Their 
amendment did not halt PD discharges. Instead, it required the Pentagon 
to investigate PD dismissals and report back to Congress. The 
amendment, part of the Defense Authorization Act, was signed by 
President Bush in January 2008.
    Five months later the report landed on Obama's and Bond's desks. 
The Pentagon's conclusion: no soldiers had been improperly diagnosed, 
and none had been wrongly discharged. The report praises the military's 
doctors as ``competent professionals'' and endorses continued use of 
pre-existing personality disorder to discharge soldiers whose ``ability 
to function effectively'' is impaired. The report's author, former 
Under Secretary of Defense David Chu, further notes that though the 
Navy's official label for the discharge is ``Separation by Reason of 
Convenience of the Government,'' soldiers ``are not wantonly discharged 
at the convenience of the Military.''
    It is unclear how Chu came to these conclusions. The report does 
not cite any interviews with soldiers discharged with personality 
disorder, or their families, doctors or commanders. That fact 
infuriated many military families, as it triggered memories of a 2007 
study by former Army Surgeon General Gale Pollock. Pollock had been 
asked to examine a stack of PD cases. Five months later she released 
her report, saying her office had ``thoughtfully and thoroughly'' 
reviewed them. Like Chu, she commended the soldiers' doctors and 
determined that they all had been properly diagnosed. The Nation later 
revealed that Pollock's office did not interview anyone, not even the 
soldiers whose cases she was reviewing.
    ``He doesn't talk to soldiers, and he doesn't talk to their 
families?'' says Nicki Luther, the sergeant's wife, her eyes welling 
with tears. ``I heard the same thing from that surgeon general, and I 
thought, You haven't been in my house. You don't know what I've dealt 
with. How dare you sit there and say you've investigated thoroughly and 
found nothing. That's a crock.''
    The Chu report does recommend several changes to the PD discharge 
system, alterations, it says, that will protect soldiers from being 
wrongly discharged. Those protections include requiring that a doctor 
diagnose the soldier's personality disorder and a lawyer counsel him on 
the ramifications of the discharge. The report also recommends that the 
surgeon general review each soldier's case and endorse the PD discharge 
before releasing the soldier from the military.
    Chu, a Bush appointee, left office in 2008 with the president. But 
his findings remain as the Defense Department's position on PD 
discharges. In early April the Pentagon released a statement saying 
that Clifford Stanley, the current under secretary, is implementing 
Chu's recommendations and fully embraces his findings.
    That fact left many on Capitol Hill enraged. ``This study, with the 
new requirement to have the upper-ups approve discharges--all it 
basically did was set up one more hurdle. As far as we can tell, the 
impact has been somewhere between zero and less,'' says Senator Bond. 
Bond says the Pentagon still hasn't explained the fundamental 
contradiction of a PD discharge: recruits who have a severe pre-
existing mental illness could not pass the rigorous screening process 
and would not be accepted into the military in the first place. Yet he 
says his office is looking at several cases, like Luther's, in which 
the soldiers have been deemed physically and psychologically fit in 
several screenings before their personality disorder is diagnosed. 
``These men and women who have put their lives on the line, we owe 
them,'' says Bond. ``We have a responsibility. Discharging them with 
personality disorder--it's just an easy way to duck that 
responsibility.''
    The Republican from Missouri says he's hopeful that Obama, his 
partner on the PD bill, will take action from the White House. ``He has 
a unique chance now to change the whole operation, to alter the system 
from the inside.'' In October Bond gathered a small coalition of 
senators and wrote a letter to the president, asking him to confront 
the issue once again. ``In 2007 we were partners in the fight against 
the military's misuse of personality disorder discharges,'' wrote the 
senators. ``Today, we urge you to renew your commitment to address this 
critical issue.''
    The next week Senator Boxer, a co-sponsor of the original bill, 
submitted a statement of her own. ``It is simply appalling that any 
combat veteran with a Traumatic Brain Injury [TBI] or Post-traumatic 
Stress Disorder would be denied medical care for injuries sustained 
during combat,'' Boxer wrote. Even with the reforms that followed the 
Chu report, ``we must make sure that the new discharge process. . .is 
working.''
    The White House responded quickly, assuring the senators that the 
president still has his eye on personality disorder. President Obama 
``is determined to fulfill America's responsibility to our Armed 
Forces,'' says White House spokesman Nicholas Shapiro. ``The president 
was concerned with personality disorder discharges as a senator, and he 
drafted a bill. He continues to be concerned as commander in chief.''
Disposable Warriors
    Luther hopes that concern will translate into action. The sergeant 
stands in his backyard, 1,500 miles from Washington, five miles from 
Fort Hood, talking about Obama's bill and watching his 7-year-old 
daughter floating high above the family's oversize trampoline, her face 
wild with joy. Luther looks on with sullen eyes. ``Right now I can't 
worry about Washington, or even about fixing my discharge papers,'' he 
says. ``First thing, I got to fix myself.'' He gestures to his 
daughter, a mop of blond hair leaping to and fro. ``I used to be like 
that: a goofball, all this energy. Now. . . I don't know.''
    Some nights he doesn't sleep. Others he's back in Iraq, in the aid 
station, in endless isolation. The blinding headaches and piercing 
shoulder pain still plague him, he says, along with panic attacks and 
bursts of post-traumatic stress-fueled rage. Luther broke four bones in 
his hand punching a hole in his bedroom wall. His family's hallway is 
pocked with holes from similar incidents.
    ``He's not the man I married,'' says Nicki Luther. ``And when I'm 
honest with myself, I don't think I'll ever have that man again. He 
wakes up screaming in the middle of the night, sweating, swearing.'' 
Nicki says he tries to be a good dad to their kids. ``He used to 
wrestle around with them. But his body's like an old man's now. And 
he's so quick to anger. The kids say, `We want our dad back.' I don't 
know what to tell them.''
    Three years after the mortar blast, Luther's life is still on shaky 
ground. Some days he's posting love notes on his wife's Facebook page 
and hand-delivering her favorite salad to her office at lunchtime. 
Another day, in the midst of an argument, he knocked down a family 
photo, then ripped the furniture out of the living room and dumped it 
in the garage, scaring his children. Soon after the birth of their 
fourth child, Marlee Grace, Luther and his wife separated. They 
reunited a few months later, in time for their eighteenth anniversary.
    Luther knew he needed help. This time he sought it outside the 
military. He began seeing Troy Daniels, a psychologist, once a week. 
One fact was clear immediately, says Daniels. ``He did not have 
personality disorder. The symptoms we were looking at looked more like 
traumatic brain injury and post-traumatic stress disorder. To take a 
soldier having problems with vision, hearing and so forth--and to say 
he has personality disorder--that's a bogus kind of statement. I don't 
even think a master's student would make that kind of mistake.''
    While Daniels dismisses the Army doctors' diagnosis as a ``gross 
error,'' he says he was not surprised by it. ``I've treated hundreds of 
soldiers over the years, and I've seen a dozen personality disorder 
diagnoses. None of them,'' says the psychologist, ``actually had 
personality disorder.''
    Yet all of those soldiers, he says, faced serious repercussions 
because of their discharge. ``Many of the soldiers can't get hired 
anymore. Every time they go for a job, they'll have this paper that 
says they've been diagnosed with a personality disorder. Employers take 
one look at that and think, `This guy's crazy. We can't hire him.' For 
most of the soldiers,'' says Daniels, ``it becomes a lifetime label.''
    Luther luckily has secured a job, as a truck driver for Frito-Lay. 
Securing benefits has proved a bit tougher. Since being released from 
the Army, the sergeant has been locked in battle with the VA, fighting 
to prove that despite his PD discharge, his wounds are war related and 
thus worthy of disability and medical benefits.
    Those efforts stumbled at first. In May 2008 the VA declared Luther 
``incompetent'' and demanded that a fiduciary collect any disability 
benefits he may receive. Eventually, following a slew of paperwork and 
medical exams, the sergeant re-established his full standing. This past 
December--after VA doctors found Luther to be suffering from migraine 
headaches, vision problems, dizziness, nausea, difficulty hearing, 
numbness, anxiety and irritability--the VA cited traumatic brain injury 
and post-traumatic stress disorder and declared Luther 80 percent 
disabled. ``PTSD, a consequence of the TBI,'' wrote one VA doctor, ``is 
a clear diagnosis.''
    The VA rating cleared the way for the sergeant to receive 
disability benefits and a lifetime of medical care. But it hasn't 
changed the Army's view--or altered Luther's discharge papers, which 
still list the sergeant as suffering from personality disorder. The 
sergeant, in return, has refused to pay back the $1,500 of his signing 
bonus that the Army says he owes, despite threats to garnish his wages. 
``I told them, Let me put it this way: as long as I'm breathing of my 
own free will, I'm not paying you a dime.''
    Luther says what really boils his blood is having to accept that 
his military career is over while the careers of those who devised his 
discharge are flourishing. After Luther's dismissal, Wehri, a captain 
at the time, was promoted to major and selected to be an executive 
officer with NATO. Dr. Dewees returned to Kentucky, where he continues 
to serve with the National Guard. Social worker Applewhite is now an 
instructor at Fort Sam Houston, where he teaches a class on how to 
identify mental disorders.
    With or without the Army, Luther says he will continue to serve. 
With his health gradually improving and the bulk of his battle over, 
the sergeant is taking on a new mission: fighting the military on 
behalf of other soldiers like himself. Luther is now the founder and 
executive director of Disposable Warriors, a one-man operation that 
assists soldiers who are fighting their discharge and veterans who are 
appealing their disability rating.
    Luther's organization did not receive a hero's welcome. Soon after 
founding the group, he discovered a threatening note on his windshield. 
``Back off or you and your family will pay!!'' it read, in careful, 
black ink cursive. Weeks later, thieves broke into the home of a 
veterans' organizer who worked closely with Luther, taking nothing but 
the files of the soldiers they were assisting.
    The sergeant, characteristically, is undaunted. ``This is the right 
path for me,'' he says, his voice resolute. ``I got to be there for 
these other soldiers. I'm not the only one who needs help.''
                                 <F-dash>
        Prepared Statement of Sergeant Chuck Luther, Killeen, TX

    Mr. Chairman, Committee Members, and guests, thank you for the 
opportunity to speak and help my fellow soldiers and veterans by 
telling my story.
    I am here to day to say that wearing the uniform for the U.S. Army 
is what defined me. I was and still am very proud of the service that I 
gave to my country. I entered the service on active duty training 
status in February of 1988. I served 5 months and then went on to 8 
years of Honorable Reserve service. I had a break in service and 
reentered the Reserves in 2003, and after serving 8 months honorably, I 
enlisted into the active duty Army in October 2004. I was stationed at 
Fort Hood Texas. I served as an admin specialist for 3 years and was 
given several awards for my leadership and service. I then went to 
retrain to become a 19D cavalry scout, upon finishing school at Fort 
Knox, KY. I returned to Fort Hood and was assigned to Comanche Troop, 
1-7 CAV, 1st Brigade, and 1st Cavalry Division. I held the rank of 
specialist (E4) when we left for Taji, Iraq, for a 15 month combat 
deployment.
    We arrived in Iraq in November of 2006. We found ourselves in a 
very violent area at the beginning of the surge. On December 16, 2006, 
I was working in the company radio area monitoring the group that we 
had outside the FOB on an escort mission. I remember that day very 
clearly. The call came in from one of our Staff sergeants in that 
patrol that they had been attacked and one of our vehicles had been 
destroyed and that we had three killed-in-action and one wounded-in-
action. As we were receiving the information we could hear the small 
arms fire in the background as they tried to recover the dead and 
wounded soldiers. I served as the training room noncommissioned 
officer, so I was asked to translate the combat numbers given over the 
radio to my commander and first sergeant for identity. As the 
information came over, I instantly realized that the truck that had 
been destroyed contained one of my closest friends, SSG David Staats, 
and one of the soldiers that I had taken under my wing, PFC Joe Baines. 
I focused on the mission at hand and that evening drove the first 
sergeant and the platoon sergeant of these soldiers, to the mortuary 
affairs and helped unload their bodies from the vehicles bringing them 
home. I pushed through and the next morning we got word. as we were 
preparing to head to Baghdad to see the wounded soldier that he had 
died. For the next 2 months, we lost several other soldiers from our 
squadron and two Iraq interpreters.
    On February 16, 2007, I was a member of a convoy that drove out 4 
boats and members of our troop to conduct a river recon/mosque 
monitoring mission. After an uneventful drive out, unload boats, troops 
and soldiers, we headed back to FOB Taji. As we pulled back on FOB 
Taji, the call came over the radio that the unit of soldiers had been 
ambushed mission. We had to quickly gather up troops and head back to 
the drop off location to assist. Upon arriving, we received small arms 
and large scale fire from the enemy, we found one of our SSG's (SSG 
Thompson) lying in the middle of the beach bleeding from the legs, one 
of our Lieutenants had been shot in the arm, and two Iraq police 
officers had been killed. We quickly put together two boats of troops 
and ammo to retrieve our soldiers. After heading up river we had 
received fire and our boat had capsized and we were stranded on an 
island for approximately 14 hours before being picked up. We had 
limited ammunition and no radio communications. We all thought that we 
were going to die that day.
    Fourteen days to the day after that event, I was sent home for R 
and R leave. I was very angry, had severe headaches, was depressed and 
would cry at times. I fought with my wife and family while I was home. 
I had an episode where I broke my hand punching walls. After not being 
able to cope, I welcomed the trip back to Iraq. Upon returning to Iraq, 
I was promoted to SGT and received my Combat Action Badge for my part 
in the river mission firefights. After returning from R and R leave, 
several people in my unit said that something had changed in me. I 
tried to pull it together but had trouble sleeping, had anger problems, 
severe headaches, nose bleeds and chronic chest pain. I was living at 
the combat outpost x-ray. While there I went to see the medics to get 
my inhaler for asthma filled. I was sent back to the FOB, upon 
returning to the FOB aid station, the squadron aide station doctor, CPT 
Aaron Dewees was not present. I was told he was busy preparing for his 
triathlon that he was going to be in after deployment. I came back the 
next day and was seen. I asked to see the chaplain because I was 
feeling very depressed and needed to talk. After talking to the 
chaplain, I was sent to quarters for 2 days and then I was allowed to 
go back to the combat outpost. Around the first of April I was in guard 
tower 1 alpha when a mortar landed between the tower and the wall 
around the combat outpost. When it exploded it threw me down and I hit 
my right shoulder and head. I had severe ringing in my right ear with 
clear fluid coming from it and had problems seeing out of my right eye. 
After a few minutes, I went to the medics on the outpost and was given 
ibuprofen and water and sent back to duty.
    I started to have worse headaches and could not sleep. They sent me 
back to the FOB and I was seen by the aid station doctors and medics 
and then sent to the mental health center. I spoke with a LTC there who 
was a licensed clinical social worker. He had a 15-minute talk with me 
and they gave me celexia and ambien. I was sent back to my quarters. 
The next 2 days I began to get angry and hostile (due to the meds) and 
was sent back to the LTC. He informed me that if I did not stop acting 
like this that they were going to chapter me out under a 5-13. I tried 
and went back to the aid station. After several days on suicide watch 
for making the comment that ``if I had to live like this I would rather 
be dead,'' I asked to be sent somewhere where I could get help and to 
be able to understand what was wrong with me. I was told I could not go 
and I then demanded that I be taken to the Inspector General of the 
FOB. I was told by CPT Dewees that I was not going anywhere and he 
called for all the medics, roughly 6 to 10. I was assaulted, held down, 
and had my pants ripped off my left thigh and given an injection of 
something that put me to sleep. When I awoke, I was strapped down to a 
combat litter and had a black eye and cuts on my wrists from the zip 
ties. I eventually was untied and from that point forward for 5 weeks I 
was held in a room that was 6 feet by 8 feet that had bed pans, old 
blankets and other old supplies. I had to sleep on a combat litter and 
had a wool blanket. I was under guard 24/7 and on several occasions was 
told I was not allowed to use the phone or internet, and when I would 
take my meds and fall asleep I was not awakened to get food. On one 
occasion, I had slept through chow and asked to be taken to the chow 
hall or PX to get some food. I was told no and given a fuel soaked MRE 
to eat. I was constantly called a piece of crap, a faker, and other 
derogatory things. They kept the lights on and played all sorts of 
music from rap to heavy metal very loud all night, the medics worked in 
shifts, therefore, they didn't sleep; they rotated. These are some of 
the same tactics that we would use on insurgents that we captured to 
break them to get information or confessions. I went through this for 4 
weeks and the HHC Commander, CPT Wehri told me to sign this discharge 
and that if I didn't that they would keep me there for 6 more months 
and then kick me out when we got back to Fort Hood anyway, I said I 
didn't have a personality disorder and he told me that if I signed the 
paperwork that I would get back home and get help and I would have all 
my benefits. After the endless nights of sleep deprivation, harassment 
and abuse I finally signed just to get out of there. I was broken.
    It took 2 more weeks before I was flown out and brought to Fort 
Hood. Upon returning I was told by the rear detachment acting 1SG and 
Commander to stay out of trouble and they would get me out of there. I 
was sent out to wait on my wife in the rain with 2 duffle bags and 
another carry bag. This was my welcome home from war. I went home and 
went to sleep only to be awakened by three sergeants at my door saying 
I had to go back to mental health due to me being suicidal and they 
hadn't had me checked out. I went to the R and R center at Fort Hood 
and was seen by LTC Baker, who was a psychologist. He asked why I was 
brought back from Iraq, I explained they said I had a personality 
disorder and he disagreed, he shook his head and said that I had severe 
PTSD and combat exhaustion. He told me to get some sleep and rest and 
follow up in a week with him. I was never allowed to go back to see 
him. The ironic thing is that in my military records I held 3 Army jobs 
and had a total of 8 mental health screenings that all found me fit for 
duty. Also, I had never had a negative counseling or negative incident 
in my 12 years of Reserve and active duty career. Two weeks after 
getting back, I was discharged from the Army, I had my pay held and 
they took my saved up leave from me for repayment of my unearned 
reenlistment bonus. I received a notice in the mail 3 week after my 
discharge from the department of finance that I owed the Army $1501. 
Three months later, I went to the VA and was told they could not see me 
for mental health due to my preexisting disorder. I went back the next 
week and was seen by a psychologist, after an hour with her she 
scheduled me an appointment with a caseworker and then I had several 
follow-up mental health appointments. I was given my VA rating a year 
later in 2008 of 70 percent for PTSD, knee injury, headaches, right 
shoulder and asthma. Six months later after several emergency room 
visits and neurology appointments, my rating was upgraded to 90 percent 
and I was given service-connection for Traumatic Brian Injury. In June 
of this year, after 2 years from the date that I filed a request with 
the Military Boards of Correction to have my discharge changed from a 
Chapter 5-13 to a medical retirement, i was denied, even after the 3 
years of VA medical documents and evidence from people who know me. I 
demand that my discharge be changed and that I receive the proper 
discharge for my service.
    I have since founded Disposable Warriors and have assisted many 
veterans and soldiers in a range of issues from Personality Disorder 
diagnosis to soldiers on active duty with diagnosed PTSD that are not 
being treated or being discharged for misconduct under other than 
honorable or bad conduct discharge (which does not entitle them to VA 
benefits either). I want to say that it has been hell to just get my 
mind somewhat back on track and to exist; I have bouts of memory loss, 
agitation, flashbacks, paranoia, problems sleeping and depression. I 
get angry every time I look at my DD-214 with the fraudulent 
personality disorder discharge. It cost me contract jobs for private 
security after my exit from the Army. I had to get a job 3 days after I 
was kicked out of the Army to feed my wife and three children. I was 
taught for years in the Army the definition of Integrity, Honor, 
Respect and Selfless Service, all of which I did I have given to the 
Army, but did not get in return.
    I hold two things very dear to me to this day. It comes from the 
NCO Creed, the accomplishment of my mission and the welfare of my 
soldiers. I am on a new battlefield, with a new mission, and I will at 
all cost take care of soldiers and their families. I love my country, I 
love my Army but we cannot stand by and watch this continue to happen. 
At the very same time that this Committee was having SPC Jon Town 
testify in front of them in July of 2007, I was abused, broken and 
discharged for the very same thing that he testified about. Please do 
not let us be here in 3 years again with another story of shame. The 
lack of care and concern, coupled with the stigma of weakness for 
asking for help that we have allowed to be put on us, has to be totally 
removed. Then, and only then, will we see the veterans homelessness 
rate drop, the active duty and veteran suicide rate drop, and the 
skyrocketing rate of divorce decrease. The senior level of the armed 
forces gets it, but they can talk about it, design plans for it, make 
PowerPoints of it, but if it is not being enforced at the soldier's 
level, it is worthless.
    In closing I would like to state that I do not have, nor have I 
ever had, a personality disorder. I suffer from PTSD and Traumatic 
Brian Injury from my service to my country while at war in Iraq. I 
raised my right hand on several occasions and swore to protect the 
Constitution at all cost. I did my part and now it is time for the 
military to keep its part of the agreement that if I were injured they 
would help me get back on my feet. Please help stop these wrongful 
discharges and help get our wounded servicemen and women back to 
service or back home to their families.
    Thank you for your time.

                                 <F-dash>
        Prepared Statement of Paul Sullivan, Executive Director,
                       Veterans for Common Sense

    Veterans for Common Sense (VCS) thanks Committee Chairman Filner, 
Ranking Member Buyer, and Members of the Committee for inviting us to 
testify about the impact of improper Department of Defense (DoD) 
``personality disorder'' discharges on our veterans seeking benefits 
from the Department of Veterans Affairs (VA).
    VCS is here today because we remain alarmed DoD continues 
improperly discharging our servicemembers who had entered the military 
in good health and served with honor while deployed to the Iraq and 
Afghanistan Wars, only to be administratively discharged, often without 
access to medical care or benefits from DoD or VA.
    We begin our testimony with an urgent request that Congress put an 
immediate stop to DoD's improper ``personality disorder,'' ``adjustment 
disorder,'' and ``pattern of misconduct'' discharges for servicemembers 
deployed to war since 2001.
    The main underlying cause of the improper discharge remains the 
enormous pressure from top Pentagon officials, including Secretary 
Robert Gates himself, to curb military spending. A recent news article 
by Noel Brinkerhoff at www.AllGov.com is a recent example of 
significant pressure to reduce military medical spending: ``With the 
Department of Defense staring at enormous cost increases for its health 
care program, Defense Secretary Robert Gates is proposing raising 
premiums for the first time ever since the creation of the TRICARE 
system in 1996.''
    VCS believes the military's improper discharges will continue so 
long as there is pressure to reduce medical costs and so long as 
military recruitment standards remain artificially low due to strong 
public opposition to the current wars.
    Our testimony today focuses on three areas. First, how many of our 
Iraq and Afghanistan war veterans were improperly released by the 
military? Second, what are the financial incentives for our military to 
continue the policy, and what does it cost our veterans in terms of 
lost benefits? And, third, what are the solutions Congress can 
implement to repair the damage, and how do we prevent this from 
happening again?
First, How Many Veterans are Impacted?
    According to Army Times and U.S. Senator Christopher ``Kit'' Bond, 
discharges for ``other designated physical or mental conditions not 
amounting to disability''--which includes adjustment disorder--have 
shot from 1,453 in 2006 to 3,844 in 2009 (``Adjustment disorder 
discharges soar; Military boots PTSD troops with no benefits, vets 
advocates say,'' Army Times, Kelly Kennedy, August 16, 2010, is 
included in testimony).
    The increase in personality disorder discharges skyrocketed 165 
percent in 3 years without any plausible explanation from the military. 
Now, Army Times observed, ``Over the same time, personality disorder 
discharges dropped from a peak of 1,072 in 2006 to just 260 last 
year.'' In 2007, one estimate of the total number of improper 
discharges was as high as 20,000 based on an investigation by The 
Nation. Magazine.
    Congress and advocates need additional accurate and consistent 
information in order to understand the full scope of this issue. VCS 
urges Congress to demand the military produce statistics on the number 
of ``personality disorder,'' ``adjustment disorder,'' and ``pattern of 
misconduct'' discharges, every year since 2001, sorted by deployment 
status and military branch. DoD's refusal to release all of the data to 
Senators speaks volumes about DoD's intent to conceal this problem from 
Congress, continue the improper discharges, and otherwise avoid a 
proper resolution.
    Based on the limited statistics available, VCS believes the 
military switched from ``personality disorder'' discharges to 
``adjustment disorder discharges'' after this Committee exposed 
``personality disorder'' discharges during a July 2007 hearing.
    Again, quoting Army Times, ``Jason Perry, a former Army judge 
advocate who helps troops going through medical retirement, said he has 
seen dozens of such cases. `It's very common. And it's completely 
illegal.' '' In our view, the military was caught by investigative 
reporter Joshua Kors at The Nation. Magazine. In response to his 
investigation, and subsequent Congressional hearings featuring veterans 
and advocates, the military did change the rules. Shortly thereafter, 
the military went back the department's old ways, simply changing a few 
words on servicemembers' discharge forms and continuing the same 
shameful, outrageous, and improper practice.
    From our 2007 testimony, VCS restates the obvious. Using the 
``personality disorder,'' ``adjustment disorder,'' or ``pattern of 
misconduct'' discharges to remove servicemembers who served honorably 
during war is wrong and a violation of military regulations. Our 
servicemembers need medical exams and medical care, not improper 
discharges creating a cloud over their military service and access to 
VA care.
Second, Who Wins and Who Loses?
    The answer is obvious. The military wins while our veterans and 
local governments lose. The military's illegal activity means DoD 
spends less on health care and benefits during a time of tight budgets. 
Our veterans and families lose because some won't receive urgently 
needed health care, disability payments, and other VA benefits. When VA 
does not provide care, then state and local governments pick up the 
tab.
    The losses to our veterans are staggering. The average cost for VA 
care and benefits, over a period of 40 years, is between $500,000 to 
$1,000,000 per veteran. To date, DoD stands to illegally deny between 
$5 billion to $20 billion in lifetime health care and benefits to the 
estimated 10,000 to 20,000 veterans improperly kicked out by the 
military. This estimate is based on the academic research found in the 
book, The Three Trillion Dollar War, by Linda Bilmes and Joseph 
Stiglitz, published in 2008. The authors estimate the lifetime medical 
and benefit costs for our deployed Iraq and Afghanistan war veterans 
may be $500 billion or higher for nearly one million patients and 
claims.
    Based on our conversations with veterans, those with ``personality 
disorder'' discharges frequently believe they are not entitled to full 
VA benefits. In many cases, that's partly true. VA is supposed to 
provide 5 years of free medical care for veterans who deployed to a war 
zone after November 11, 1998 (except those with a dishonorable 
discharge). There are plenty of examples of veterans diagnosed with 
post-traumatic stress disorder (PTSD) and/or Traumatic Brain Injury 
(TBI) who urgently need VA care and benefits for those conditions. 
However, they either do not seek VA care, they are unreasonably delayed 
in obtaining care due to VA paperwork nightmares, or they are denied 
care by VA.
    Some non-medical VA benefits may be lost by veterans with improper 
``personality disorder'' discharges. For example, an early release from 
active duty may block access to VA's home loan guaranty and education 
benefits.
    PTSD symptoms may mimic ``personality disorder'' discharges with 
anger, self-medicating, and minor infractions. A proper diagnosis by a 
psychologist or psychiatrist is imperative, rather than DoD's current 
process of rushing veterans through a non-medical administrative 
discharge. According to DoD and VA policy, if PTSD symptoms last longer 
than 6 months, then the veteran's diagnosis should be changed to PTSD. 
With a PTSD diagnosis, a veteran may be medically retired with an 
honorable discharge, a disability rating of at least 50 percent, and 
free medical care.
    In the worst case examples of lost benefits among veterans, VA has 
improperly denied veterans' PTSD disability compensation claim because 
the veterans' DD-214 listed ``personality disorder,'' even when the 
veterans had deployed to a war zone, were diagnosed with PTSD, and were 
clearly given an improper military discharge.
Third, what are the solutions?
    VCS urges Congress to take several steps toward resolving the 
crisis of improper military discharges often preventing access to VA 
services for our Iraq and Afghanistan war veterans. These steps include 
modernizing military separation regulations, identifying and righting 
past inappropriate discharges, and dramatically improving oversight and 
accountability of military health surveillance. VCS encourages veterans 
to seek care and benefits at VA, without fear of discrimination or 
stigma. An improper discharge by the military may unfairly stigmatize a 
veteran and impede access to health care, benefits, and employment that 
are often vital for a smooth transition from combat to community.
    Improve VA Training. VCS recommends that VA train staff to identify 
potential veterans at risk of falling in the cracks. While some 
veterans may have a properly issued ``personality disorder,'' 
``adjustment disorder,'' or ``pattern of misconduct'' discharge, VA 
needs to look beyond that frequently incorrect DoD label. VA medical 
staff should be sure to welcome home deployed veterans with 5 years of 
free medical care. Similarly, VA claims adjudication staff should look 
beyond DoD's discharge documents and carefully review each veteran's 
mental health symptoms and diagnoses, especially those cases where the 
veteran deployed to a war zone.
    Update DoD's Discharge Regulations. VCS recommends DoD modernize 
military separation regulations to provide protection against abuse of 
mental health related administrative discharges. Although the governing 
Department of Defense Instruction, DoDI 1332.14, was updated, the 
language fails to guarantee protection from abuses and retains 
loopholes which continue to contribute to this problem. Specifically, 
Enclosure 3, paragraph 3(8)(a) still permits the individual services to 
authorize administrative separation for ``other designated physical or 
mental conditions, not amounting to disability, that interfere with 
assignment to or performance of duty,'' without providing any new 
protections against abuse of this authority, except for the recent 
protections for ``personality disorder.''
    Joshua Kors' article on this subject in The Nation. contributed 
greatly to the political pressure that led the Senate to submit 
amendments to the 2008 National Defense Authorization Act preventing 
DoD from discharging returning veterans with a ``personality 
disorder.'' While these strong protections against abuse were 
appropriate and beneficial, they have been effectively sidestepped 
merely by characterizing the early manifestations of mental health 
problems, such as PTSD, as ``other . . . mental conditions, not 
amounting to disability.'' DoD has simply shifted from ``personality 
disorder'' discharges to ``adjustment disorder'' and ``pattern of 
misconduct'' discharges.
    All mental health-related administrative separations under this 
section should be subject to the same rigid review and validation 
process as those for ``personality disorder'' discharges under 
subparagraphs (8)(a) through (d). VCS recommends that no servicemember 
previously deemed fit to deploy be processed for administrative 
separation for a mental condition unless such condition has been 
centrally reviewed and validated by the principal advisor for mental 
health issues of the component service.
    Review All Administrative Discharges Since 2001. To ensure no 
veteran is left behind, VCS recommends Congress legislate a mandatory 
review of all administrative separations for mental health conditions 
made since the start of combat operations in 2001. DoD was supposed to 
contact the 22,000 personality disorder discharges to determine if the 
discharges were correct. Congress should mandate that DoD retroactively 
correct and properly characterize all such discharges in accordance 
with these new recommended revised guidelines. In cases where the DoD 
made an error, DoD would upgrade the veteran's discharge. 
Unfortunately, in the 3 years since the hearing, the military did not 
contact the veterans or conduct a review.
    Enforce Stronger Oversight. VCS emphasizes how these episodes 
underscore the critical need to dramatically improve oversight and 
accountability for military health surveillance. Time and time again, 
DoD has proven itself a poor steward of military health information, 
failing to proactively identify disturbing and incriminating trends in 
patterns of administrative discharges, failing to release important 
information to Congress and the public, and as at least one recent 
episode suggests, engaging in outright lies in defense of its actions. 
For example, when the issue of improper discharges was first raised by 
Senator Kit Bond and then-Senator Barack Obama in 2007, DoD 
investigated itself. DoD fabricated a ghost-written review and claimed 
the Department had done nothing wrong. After Acting Surgeon General 
Gale Pollack released the report to Congress, advocates Steve Robinson 
and Andrew Pogany revealed the Pentagon report was falsified. To the 
best of our knowledge, no military officials were held accountable.
    Independent Review. Congress needs to create a method for an 
independent review of the overall health of our servicemembers. As VCS 
has argued on numerous occasions, the lack of timely and accurate 
health data has a chilling effect on the ability of Congress to perform 
effective oversight in the best interests of our servicemembers. On 
numerous occasions DoD has deeply troubling patterns of misconduct in 
relation to its sole ownership of this information: Delaying the 
release of information; feigning confusion as to the meaning or 
accuracy of information; and claiming requested analyses are not 
possible. Most often this happens with toxic exposures. This also 
happens with PTSD, TBI, and the improper discharges discussed at this 
hearing. DoD's actions serve to protect DoD's interests at the expense 
of servicemembers, and are conducted in many instances with the purpose 
of stalling Congressional investigations and reform.
    Conduct Universal, Mandatory Medical Exams. VCS urges Congress to 
order the military to implement mandatory, universal pre-deployment and 
post-deployment medical exams as required by the 1997 Force Health 
Protection Act. This means every soldier sits down, face-to-face, with 
a medical care provider before and after going to a war zone to 
identify--and then treat--identified medical conditions when care is 
more effective and less expensive. We support DoD's continued use of 
medical assessments 6 months after veterans return. This upholds our 
military's need to field a fit fighting force while protecting the 
health of our individual servicemembers.
    Fill Mental Health Professional Vacancies. VCS urges Congress to 
order the military to hire more medical professionals so our soldiers 
receive mandatory, universal exams. The creation of lifetime electronic 
records remains a superb and urgently needed reform for our 
servicemembers and veterans. However, the new electronic records will 
be rendered useless if the military fails to include examination, 
exposure, and other salient medical information in the new records. 
Secretary Shinseki must make it very clear to Defense Secretary Gates 
that VA expects DoD to perform pre-deployment and post-deployment 
medical exams as well as record toxic exposures. This military medical 
history, currently missing for many veterans, remains absolutely 
essential so VA may provide veterans with accurate claims decisions and 
health care.
    Honor Medical Opinions. VCS urges Congress to eliminate the ability 
of line commanders to overrule the decisions made by medical 
professionals regarding the ability of a servicemember to deploy to a 
war zone or to remain in the military. In too many cases commanders 
override medical opinions and send unfit soldiers back into combat, 
recklessly endangering the servicemember, the unit, and the mission.
    Expand Training and Anti-Stigma Education. VCS urges DoD and VA to 
expand the agencies' anti-stigma education program encouraging our 
servicemembers with PTSD and/or TBI to seek care, beyond what has 
already been established. VCS also supports mandatory reintegration 
training for every servicemember, regardless of discharge, except for 
dishonorable discharges.
    In conclusion, the problem of improper discharges is caused by the 
military, yet the solution requires cooperation between Congress, the 
military, and VA.
News Articles Cited:
1. Defense Secretary Gates Suggests Raising Health Care Premiums for 
        Employed Veterans
by Noel Brinkerhoff, www.AllGov.com
    September 08, 2010--With the Department of Defense staring at 
enormous cost increases for its health care program, Defense Secretary 
Robert Gates is proposing raising premiums for the first time ever 
since the creation of the TRICARE system in 1996.
    Health care costs for the Pentagon have ballooned from $19 billion 
in 2000 to an estimated $50 billion for next year, and $65 billion by 
2015. Gates wants to avoid increasing premiums for active-duty 
personnel and their families. Instead, he's suggesting charging higher 
premiums and co-pay fees for retired veterans using TRICARE who have 
access to private health care plans through their current employers.
    Gates' idea is likely to have a tough time gaining approval in 
Congress, where both Democrats and Republicans have been reluctant to 
lift TRICARE premiums for any military personnel.
2. `Adjustment disorder' discharges soar; Military boots PTSD troops 
        with no benefits, vets advocates say
By Kelly Kennedy, Army Times
    August 16, 2010--Two years ago, Congress enacted rules to curb the 
military's practice of separating troops with combat stress for pre-
existing personality disorders--an administrative discharge that left 
those veterans without medical care or other benefits. Now, veterans 
advocates say, the military is using a new means to the same end: 
giving stressed troops administrative discharges for ``adjustment 
disorders,'' which also carry no benefits. And just as before, Congress 
appears poised to wade in. Senator Christopher ``Kit'' Bond, R-Mo., 
plans to ask President Obama to have the Pentagon provide details on 
discharges for adjustment disorder in recent years. In the meantime, 
Bond's office has been gathering more general data that show discharges 
for ``other designated physical or mental conditions not amounting to 
disability''--which includes adjustment disorder--have shot from 1,453 
in 2006 to 3,844 in 2009. Over the same time, personality disorder 
discharges dropped from a peak of 1,072 in 2006 to just 260 last year. 
Shana Marchio, an aide to Bond, said the issue was brought to the 
Senator's attention by Steve Robinson, a former Army Ranger who is now 
a veterans advocate. ``The good news is that the Pentagon has moved 
away from personality disorders, but we feel [adjustment disorder] 
could be another piece of the same problem,'' Marchio said. At press 
time, Pentagon officials had not responded to a request for comment 
about the recent rise in administrative discharges. According to the 
DSM-IV, the psychiatric manual for mental health issues, adjustment 
disorder may occur when someone has difficulty dealing with a life 
event, such as a new job or a divorce--or basic training. It also may 
occur after exposure to a traumatic event. The symptoms can be the same 
as for post-traumatic stress disorder: flashbacks, nightmares, anger, 
sleeplessness, irritability and avoidance. According to military and 
Veterans Affairs Department rules, if symptoms last longer than 6 
months, the diagnosis should change to PTSD. Under the law enacted in 
2008, that means medical retirement, an honorable discharge, a 50 
percent disability rating and medical care. That is not always 
happening, Robinson said. ``This is a case of inappropriate discharges. 
There are hundreds of cases.''
    `I could barely function' During a deployment to Iraq with the 4th 
Infantry Division in 2008, former Army Pfc. Michael Nahas, 22, said he 
survived 2 roadside bomb explosions and 1 rocket-propelled grenade 
attack, and watched people die in another explosion in Mosul. Two 
months after returning to Fort Carson, Colo., he began feeling anxious 
and guilty about people he believed had died needlessly. He went to the 
post mental health clinic. Over 3 weeks, he said he had 3 
appointments--and a lot of medication, including 14 milligrams of Xanax 
a day. ``I was drooling on myself,'' he said. ``I could barely 
function.'' His mother and veterans advocates verified his doses. As 
enlisted supervisors in his unit chain found out he was going to 
behavioral health, Nahas said some made fun of him, calling him 
``crazy'' and telling him to kill himself so he would not be a problem. 
Veterans advocates who worked on Nahas' case verified his information, 
citing police and medical records as well as conversations with 
commanders. Army Lieutenant Colonel Steve Wollman, spokesman for the 
4th Infantry Division, declined to comment on Nahas' specific charges. 
``The allegations . . . were thoroughly investigated,'' he said. ``Some 
. . . were unsubstantiated and some of them were substantiated. 
Appropriate corrective actions were made, and the investigation is 
closed.'' In February, Nahas said he had a reaction to his medication 
that, coupled with the stress he was under, led him to try to commit 
suicide by sticking IV needles in his arms to bleed out. In a photo of 
the aftermath provided by Nahas' family, blood fills the bathtub and a 
red smiley face gazes from the tiles above. His wife found him and 
called for help, and Nahas survived. After his suicide attempt, he said 
he spent time in an inpatient clinic where he was diagnosed with PTSD, 
then went back to his unit. But rather than beginning the medical 
retirement process for PTSD, in late April his unit gave him an 
administrative discharge for adjustment disorder and sent him back to 
civilian life. ``I was told I had PTSD, and then I was told I didn't,'' 
he said. His situation is not unique, according to people familiar with 
the military disability system. Jason Perry, a former Army judge 
advocate who helps troops going through medical retirement, said he has 
seen dozens of such cases. ``It's very common,'' Perry said. ``And it's 
completely illegal.''

                                 <F-dash>
  Prepared Statement of Thomas J. Berger, Ph.D., Executive Director, 
          Veterans Health Council, Vietnam Veterans of America

    Chairman Filner, Ranking Member Buyer, and distinguished Members of 
the House Veterans' Affairs Committee, on behalf of President John 
Rowan, our Board of Directors, and our membership, Vietnam Veterans of 
America (VVA) thanks you for the opportunity to present our views on 
discharges for personality disorders and their impact on veterans' 
benefits.
    Some in this room may well remember that the issue of personality 
order discharges first surfaced publicly back in the spring of 2007 
because of an article in ``The Nation'' by Joshua Kors and a subsequent 
CBS Evening News special. They reported that since the attacks of 9/11, 
more than 22,600 servicemembers had been discharged for a ``personality 
disorder''. Nearly 3,400 of them, or 15 percent, had served in combat 
or imminent danger zones. Those numbers include personnel who had 
served multiple tours.
    Now, please remember that a personality disorder is a severe mental 
illness that emerges during childhood and is listed in military 
regulations as a pre-existing condition, not a result of combat. 
Personality disorder contains symptoms that are enduring and play a 
major role in most, if not all, aspects of the person's life. While 
many disorders vacillate in terms of symptom presence and intensity, 
personality disorders typically remain relatively constant. In other 
words, according to the DSM-IV, to be diagnosed with a disorder in this 
category, the symptoms have been present for an extended period of 
time, are inflexible and pervasive, and are not a result of alcohol or 
drugs or another psychiatric disorder, and the history of symptoms can 
be traced back to childhood or adolescence. Thus, those who are 
discharged with a personality disorder are denied a lifetime of 
disability benefits. Soldiers discharged with a personality disorder 
are also denied long-term medical care, and they may have to give back 
a portion of their re-enlistment bonus.
    At the time, VVA and other veterans' advocates contended that many 
of these servicemembers were suffering from Post-traumatic Stress 
Disorder (PTSD) or traumatic brain injury (TBI), but that it was easier 
and less costly for the military to separate them under the rubric of 
``personality disorder'', leading some to believe that such a large 
number of personality disorder discharges were in fact fabricated to 
save on the cost of other, more appropriate mental health treatments 
and disability benefits.
    Then, after several Congressional hearings--including one before 
this committee--and criticism from VVA and other veterans' advocates on 
the overuse of personality disorder separation, a revised Department of 
Defense (DoD) instruction (No. 1332.14) took effect without public 
announcement on August 28, 2008. This revision only allows separation 
for personality disorder for members currently or formerly deployed to 
imminent danger areas if: (1) the diagnosis by a psychiatrist or a 
Ph.D.-level psychologist is corroborated by a peer or higher-level 
mental health professional; (2) if the diagnosis is endorsed by the 
surgeon general of the service; and (3) if the diagnosis took into 
account a possible tie or ``co-morbidity'' with symptoms of PTSD or 
war-related mental injury or illness. The DoD director of officer and 
enlisted personnel management noted that ``rigor and discipline'' is 
``very important'' when separating deployed members for personality, 
considering what is at stake for the servicemember.
    In addition, the Senate also adopted an amendment to the fiscal 
2008 defense authorization bill introduced by then-Senator Obama (D-
Ill.), Senator Kit Bond (R-Mo.), and Senator Joseph Lieberman (ID-Ct.) 
that directed DoD officials to report on service use of personality 
disorder separations, and the Government Accountability Office (GAO) to 
study how well the services follow DoD's own rules for processing such 
separations.
    The Army, meanwhile, reviewed its own use of personality disorder 
separations for more than 800 soldiers who had wartime deployments. 
That review quickly found some ``appalling'' lapses, said an official, 
including incomplete files and missing counseling statements. In the 
following months, the Army claimed to have tightened its own rules for 
using personality disorder separations.
    DoD then reported to Congress that it would add ``rigor'' to its 
personality disorder separation policy, previewing the changes 
implemented in late August. The Navy had strongly opposed the changes 
because it frequently uses personality disorder separations to remove 
sailors found too immature or undisciplined to cope with life at sea. 
Requiring their surgeon general to review every personality disorder 
separation from ships deployed in combat theaters would be too 
burdensome, the Navy argued. But DoD officials insisted on the changes.
    DoD's report showed the Navy led all services in personality 
disorder separations. For fiscal years 2002 through 2007, the Navy 
total was 7,554 versus 5,923 for the Air Force, 5,652 for the Army, and 
3,527 for the Marine Corps. The Army led in personality disorder 
separations of members who had wartime deployments, with a total of 
1,480 over 6 years. The Navy total was 1,155, the Marine Corps 455 and 
the Air Force 282. But DoD said it found ``no indication'' that 
personality disorder diagnoses of deployed members ``were prone to 
systematic or widespread error.'' Nor did internal studies show ``a 
strong correlation'' between personality disorder separations and PTSD, 
brain injury or other mental disorders. ``Still, the Department shares 
Congress' concern regarding the possible use of personality disorder as 
the basis for administratively separating this class of 
servicemember,'' the report said.
    In late October 2008, the GAO released its findings based on a 
review of service jackets for 312 members separated for personality 
disorder from four military installations. It concluded that the 
services were not reliably compliant even with the pre-August 
regulation governing separations. For example, only 40-78 percent of 
enlisted member separated for personality disorder had documents in 
their files showing that a psychiatrist or qualified psychologist 
determined that their disorder affected their ability to function in 
service.
    After all that, the annual number of personality disorder cases 
dropped by 75 percent. Only 260 soldiers were discharged on those 
grounds in 2009. At the same time, the number of PTSD cases has soared. 
By 2008, more than 14,000 soldiers had been diagnosed with PTSD--twice 
as many as 2 years before.
    Fast-forward to August 2010: the Army denies that any soldier was 
misdiagnosed before 2008, when it drastically cut the number of 
discharges due to personality disorders and diagnoses of PTSD 
skyrocketed. The Army attributes the sudden and sharp reduction in 
personality disorders to its policy change. Yet Army officials deny 
that soldiers was discharged unfairly, saying they reviewed the 
paperwork of all deployed soldiers dismissed with a personality 
disorder between 2001 and 2006. According to an AP report, ``We did not 
find evidence that soldiers with PTSD had been inappropriately 
discharged with personality disorder,'' said Maria Tolleson, a 
spokeswoman at the U.S. Army Medical Command.
    But with the problem apparently solved, the Army is still refusing 
to treat those discharged before 2008, insisting that their diagnoses 
of these personnel were correct. Army officials ``reviewed the 
paperwork of all deployed soldiers dismissed with a personality 
disorder between 2001 and 2006, and said they ``did not find evidence 
that soldiers with PTSD had been inappropriately discharged with 
personality disorder.'' What does this mean? It means that thousands of 
soldiers, misdiagnosed as having a personality disorder, are still 
suffering without treatment in the wake of the U.S. military's mental 
health reform in 2008.
    We at VVA are skeptical of the Army's claim that it didn't make any 
mistakes because symptoms of PTSD--anger, irritability, anxiety and 
depression--can easily be confused for the Army's description of a 
personality disorder. There is no reason to believe the number of 
personality discharges would decrease so quickly unless the Army had 
misdiagnosed hundreds of soldiers each year in the first place. That 
leaves us to ask this Committee to ascertain the following:

    <bullet>  During its review of previous cases, did the Army 
interview soldiers' families, who can often provide evidence of a shift 
in behavior that occurred after the soldier was sent into a war zone?
    <bullet>  Can the Army explain why the number of the personality 
disorder discharges doubled between 2006 and 2009 and how many of those 
qualified to retain their benefits?
    <bullet>  Is the Army now relying on a different designation--
referred to as ``adjustment disorder''--to dismiss soldiers?

    It is absolutely clear, either through Congressional action or a 
Presidential directive, that the Army needs to conduct a thorough 
review of its personality disorder diagnoses prior to 2008, treat those 
who need help, and restore disability benefits where appropriate.
    VVA thanks you, Mr. Chairman, for holding this hearing. And we 
thank you and the Members of this Committee for the opportunity to 
present our views on this very troubling mental health care issue. I 
shall be glad to answer any questions you might have.
                                 <F-dash>
   Prepared Statement of Debra A. Draper, Ph.D., M.S.H.A., Director,
           Health Care, U.S. Government Accountability Office
 Defense Health Care: Status of Efforts to Address Lack of Compliance 
           with Personality Disorder Separation Requirements

    Mr. Chairman and Members of the Committee:
    I am pleased to be here today to discuss the Department of 
Defense's (DoD) separation requirements for enlisted servicemembers 
diagnosed with personality disorders and the military services' 
compliance with these requirements. DoD requires that all enlisted 
servicemembers, including those serving in support of Operation 
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF), be physically 
and psychologically suitable for military service.\1\ Enlisted 
servicemembers who fail to meet this standard may be involuntarily 
separated from the military.\2\ One psychological condition that can 
render an enlisted servicemember unsuitable for military service is a 
personality disorder, which is defined as a long-standing, inflexible 
pattern of behavior that deviates markedly from expected behavior, has 
an onset in adolescence or early adulthood, and leads to distress or 
impairment.\3\ Although a personality disorder by itself does not make 
enlisted servicemembers unsuitable for military service, DoD policy 
allows for involuntary separation from the military if a 
servicemember's disorder is severe enough that it interferes with his 
or her ability to function in the military.\4\ DoD data show that from 
November 1, 2001, through June 30, 2007, about 26,000 enlisted 
servicemembers were separated from the military because of a 
personality disorder. Of these 26,000 servicemembers, about 2,800 had 
deployed at least once in support of OEF/OIF.
---------------------------------------------------------------------------
    \1\ Operation Enduring Freedom, which began in October 2001, 
supports combat operations in Afghanistan and other locations, and 
Operation Iraqi Freedom, which began in March 2003, supports combat 
operations in Iraq and other locations. In September 2010, Operation 
Iraqi Freedom became known as Operation New Dawn.
    \2\ We discuss only enlisted servicemembers in this testimony 
because officers are generally able to resign at any time rather than 
be involuntarily separated.
    \3\ Diagnostic and Statistical Manual of Mental Disorders, 4th ed., 
Text Revision (Washington, D.C.: American Psychiatric Association, 
2000).
    \4\ Department of Defense Instruction 1332.14, Enlisted 
Administrative Separations (Mar. 29, 2010).
---------------------------------------------------------------------------
    In 2007, your Committee held a hearing on how a personality 
disorder separation may affect a veteran's ability to receive support 
from the Department of Veterans Affairs (VA). Specifically, enlisted 
servicemembers who receive only a diagnosis of personality disorder are 
ineligible to receive disability compensation benefits from VA after 
their military service because a personality disorder is not considered 
a service-connected mental health condition.\5\ At the hearing, a 
representative from Veterans for America, a veterans' advocacy group, 
expressed concern that some enlisted servicemembers may have been 
incorrectly diagnosed with a personality disorder, resulting in unfair 
denial of disability compensation.
---------------------------------------------------------------------------
    \5\ Enlisted servicemembers who are separated because of a 
personality disorder may receive other support, such as medical 
services, from VA if they have other illnesses or injuries possibly 
related to their service.
---------------------------------------------------------------------------
    Accurately diagnosing enlisted servicemembers who have served in 
combat with a personality disorder can be challenging. Specifically, 
some personality disorder symptoms--irritability, feelings of 
detachment or estrangement from others, and aggressiveness--are similar 
to the symptoms of post-traumatic stress disorder (PTSD), a condition 
for which OEF/OIF enlisted servicemembers may also be at risk. 
According to mental health experts and military mental health 
providers, one important difference between a personality disorder and 
PTSD is that a personality disorder is a long-standing condition, 
whereas PTSD is a condition that follows exposure to a traumatic event. 
According to the American Psychiatric Association and the American 
Psychological Association, the only way to distinguish a personality 
disorder from a combat-related mental health condition, such as PTSD, 
is by obtaining an in-depth medical and personal history from the 
enlisted servicemember that is corroborated, if possible, by others 
such as family members and friends.
    DoD has three key requirements that the military services--Army, 
Air Force, Marine Corps, and Navy--must follow when separating enlisted 
servicemembers because of a personality disorder. Specifically, before 
they are separated because of a personality disorder, enlisted 
servicemembers

    1.  must receive notification of their impending separation because 
of a personality disorder;
    2.  must receive, prior to the notification, a diagnosis of 
personality disorder by a psychiatrist or psychologist \6\ who 
determines that the personality disorder interferes with the enlisted 
servicemember's ability to function in the military; and
---------------------------------------------------------------------------
    \6\ According to a DoD official, DoD does not hire psychologists 
who are not doctoral-level psychologists.
---------------------------------------------------------------------------
    3.  must receive formal counseling about their problem with 
functioning in the military.\7\
---------------------------------------------------------------------------
    \7\ Although DoD separation policy does not specify who needs to 
conduct the formal counseling session, according to a DoD separation 
policy official, the counseling should be conducted by the enlisted 
servicemember's supervisor. The counseling can occur at any time up 
until the enlisted servicemember is notified of the separation.

    The separation process is typically initiated by an enlisted 
servicemember's commander, who must then follow the requirements 
established by DoD when separating an enlisted servicemember because of 
a personality disorder. Once an enlisted servicemember has been 
separated from military service, he or she receives a certificate of 
release from the military, which includes information on the reason for 
separation and an official characterization of his or her time in the 
service.\8\
---------------------------------------------------------------------------
    \8\ Enlisted servicemembers who are separated because of a 
personality disorder receive either an ``honorable'' or ``general under 
honorable'' characterization, or description, of service that is given 
at the time of separation.
---------------------------------------------------------------------------
    In my statement today, I will provide information from a report we 
issued in 2008 on our review of personality disorder separations in the 
military services.\9\ I will also update you on the actions DoD has 
taken since August 2008 related to the recommendations we made in that 
report.
---------------------------------------------------------------------------
    \9\ GAO, Defense Heath Care: Additional Efforts Needed to Ensure 
Compliance with Personality Disorder Separation Requirements, GAO-09-31 
(Washington, D.C.: Oct. 31, 2008).
---------------------------------------------------------------------------
    To do the work for our 2008 report, we analyzed DoD data and 
identified installations that had the highest or second highest 
incidence of enlisted OEF/OIF servicemembers separated because of a 
personality disorder from November 1, 2007, through June 30, 2007. We 
then selected four of these installations to visit--Fort Carson (Army), 
Fort Hood (Army), Davis-Monthan Air Force Base (Air Force), and Camp 
Pendleton (Marine Corps). We also reviewed the personnel records, which 
contain the separation packet--the documents necessary to separate a 
servicemember--for selected servicemembers from the four installations 
we visited. In our review, we determined whether the packets contained 
documentation demonstrating that DoD's personality disorder separation 
requirements had been met. Our findings from the four installations 
that we visited can be generalized to each of these installations, but 
not to the military services. In addition to the four military 
installations from the Army, Air Force, and Marine Corps, we also 
visited Naval Base San Diego and reviewed the personnel records from 
servicemembers who were identified to have been separated because of a 
personality disorder from this installation. Due to the structure of 
the Navy, we cannot attribute our findings to the particular 
installation we visited, and so we reported these results separately 
from the findings of the other four military installations.\10\ In 
total, we examined 371 enlisted servicemembers' personnel records for 
compliance with personality disorder requirements--312 for 
servicemembers from the Army, Air Force, and Marine Corps installations 
we visited and 59 records for enlisted servicemembers from the Navy. We 
also reviewed DoD and the military services' separation regulations and 
instructions and interviewed relevant officials to determine how DoD 
ensures the military services' compliance with its personality disorder 
separation requirements.
---------------------------------------------------------------------------
    \10\ We were told that the separation process for enlisted Navy 
servicemembers may occur at various locations, such as on a ship or in 
a transition center at a naval base. Because of this, we could not 
attribute our findings to the particular installation we visited. 
Additionally, we could not generalize these findings to the Navy.
---------------------------------------------------------------------------
    To obtain updated information on the actions DoD has taken related 
to the recommendations in our 2008 report, we reviewed documentation 
provided by DoD's Office of Inspector General (OIG)--the DoD office 
responsible for following up and tracking the status of GAO 
recommendations. We also contacted DoD officials to clarify information 
in the documentation we reviewed. We conducted this performance audit 
from July 2010 through September 2010 in accordance with generally 
accepted government auditing standards. Those standards require that we 
plan and perform the audit to obtain sufficient, appropriate evidence 
to provide a reasonable basis for our findings and conclusions based on 
our audit objectives. We believe that the evidence obtained provides a 
reasonable basis for our findings and conclusions based on our audit 
objectives.
    In summary, our 2008 review found that the documented compliance 
with DoD's requirements for personality disorder separations varied by 
requirement and by military installation. Additionally, we found that 
DoD did not have reasonable assurance that its key personality disorder 
separation requirements had been followed by the military services. 
Since our 2008 review, DoD has taken some action to implement our 
recommendations. However, we have not verified whether the actions the 
services planned or reported to DoD to increase compliance were 
actually realized. Because the military services have not demonstrated 
full compliance with DoD's personality disorder separation 
requirements, we reiterate the importance of DoD implementing our 2008 
recommendations.
    In 2008, we found that, while compliance with DoD's requirement 
that servicemembers be notified of an impending personality disorder 
separation was high among the four installations, it varied 
considerably for the other two requirements. (See table 1.) 
Specifically, at the four installations, we found that

    <bullet>  compliance with the notification requirement was at or 
above 98 percent,
    <bullet>  compliance with the requirement related to the 
personality disorder diagnosis by a psychiatrist or psychologist ranged 
from 40 to 78 percent, and
    <bullet>  compliance with the requirement for formal counseling 
ranged from 40 to 99 percent.

       Table 1: Rate of Documented Compliance at Selected Military
                              Installations
    with Three Key Personality Disorder Separation Requirements, for
   Separations Completed from November 1, 2001, through June 30, 2007
------------------------------------------------------------------------
                                           Diagnosis-         Formal
     Installation        Notification       related         counseling
                       requirement \a\  requirement \b\  requirement \c\
------------------------------------------------------------------------
Fort Carson (Army)            99%              73%              92%
------------------------------------------------------------------------
Fort Hood (Army)              98%              57%              76%
------------------------------------------------------------------------
Davis-Monthan Air            100%              40% \d\          40%
 Force Base (Air
 Force)
------------------------------------------------------------------------
Camp Pendleton                99%              78%              99%
 (Marine Corps)
------------------------------------------------------------------------
Source: GAO analysis of enlisted servicemembers' personnel records
  obtained from the military services.
Note: We determined whether servicemembers' records demonstrated
  compliance with the requirements that servicemembers be diagnosed with
  a personality disorder by a psychiatrist or psychologist who
  determines that the personality disorder interferes with the
  servicemember's ability to function in the military and that the
  servicemembers receive formal counseling only if the servicemembers'
  records had documentation that the servicemembers were notified of
  their impending separation because of a personality disorder. In
  total, four records did not indicate that the servicemembers were
  notified of their separation as required.
a  The Department of Defense (DoD) requires that before enlisted
  servicemembers are separated because of a personality disorder they
  must receive notification of their impending separation because of a
  personality disorder.
b  DoD requires that before enlisted servicemembers are separated
  because of a personality disorder they must receive, prior to the
  notification, a diagnosis of personality disorder by a psychiatrist or
  psychologist who determines that the personality disorder interferes
  with the enlisted servicemember's ability to function in the military.
c  DoD requires that before enlisted servicemembers are separated
  because of a personality disorder they must receive formal counseling
  about their problem with functioning in the military.
d  Air Force officials acknowledged that prior to October 2006 some
  enlisted servicemembers with a mental health diagnosis other than a
  personality disorder, such as an adjustment disorder, were erroneously
  separated under the reason of a personality disorder. However in
  October 2006, Air Force officials stated that they took steps to
  correct this error. Some of the servicemembers separated from the Air
  Force installation we visited may have been affected by this error.

    We also found variation in the enlisted Navy servicemembers' 
personnel records we reviewed. Ninety-five percent of these records 
demonstrated compliance with the notification requirement, 82 percent 
demonstrated compliance with the requirement related to the personality 
disorder diagnosis, and 77 percent demonstrated compliance with the 
requirement for formal counseling.\11\
---------------------------------------------------------------------------
    \11\ If the psychiatrist or psychologist determines that 
servicemembers are a threat to themselves or others, the Navy waives 
the requirement that servicemembers must receive formal counseling. We 
considered enlisted servicemembers' separation packets that included 
documentation of this waiver to indicate compliance with DoD's 
counseling requirement.
---------------------------------------------------------------------------
    Moreover, we found in our prior work that DoD did not have 
reasonable assurance that its key personality disorder separation 
requirements had been followed by the military services. To address 
this issue, we recommended that DoD (1) direct the military services to 
develop a system to ensure that personality disorder separations are 
conducted in accordance with DoD's requirements, and (2) monitor the 
military services' compliance with DoD's personality disorder 
separation requirements.
    In August 2008, after our review was completed, DoD updated its 
requirements for personality disorder separations to clarify its three 
key requirements and include additional requirements to help ensure 
that servicemembers are not incorrectly separated because of a 
personality disorder. DoD's revised requirements for personality 
disorder separations required that enlisted servicemembers be advised 
that the diagnosis of a personality disorder does not qualify as a 
disability. Additionally, the revised policy specified additional 
requirements for enlisted servicemembers who have or are currently 
serving in imminent danger pay areas.\12\ Specifically, for 
servicemembers serving in these pay areas, their diagnosis of 
personality disorder must be corroborated by a psychiatrist or PhD-
level psychologist, or a higher level mental health professional,\13\ 
and the diagnosis must be endorsed by the Surgeon General of the 
respective military service prior to the separation. In addition, for 
these enlisted servicemembers, the diagnosis of personality disorder 
must also discuss whether or not PTSD or other mental health conditions 
are present.
---------------------------------------------------------------------------
    \12\ An imminent danger pay area is defined by DoD as an area in 
which enlisted servicemembers were in imminent danger of being exposed 
to hostile fire or explosion of hostile mines and in which, during the 
period they were on duty in that area, other members of the uniformed 
services were subject to hostile fire or explosion of hostile mines. A 
foreign area in which enlisted servicemembers were subject to the 
threat of physical harm or imminent danger on the basis of civil 
insurrection, civil war, terrorism, or wartime conditions is also 
considered an imminent danger pay area.
    \13\ A higher level mental health professional generally refers to 
a mental health professional who is of higher rank than the diagnosing 
official.
---------------------------------------------------------------------------
    DoD has taken two actions in response to our 2008 recommendations. 
First, in a January 2009 memo, the Under Secretary of Defense directed 
each of the military services to provide reports on their compliance 
with DoD's personality disorder separation requirements for fiscal 
years 2008 and 2009. Regarding these reports, the memo specified the 
following.

    <bullet>  The first report, for fiscal year 2008, was due on June 
30, 2009. The second report, for fiscal year 2009, was due on March 31, 
2010.
    <bullet>  Both compliance reports were to include a random sample 
of at least 10 percent of all personality disorder separations in the 
fiscal year and were to document compliance with the three key 
requirements listed in our 2008 report as well as the requirements DoD 
added in August 2008.
    <bullet>  The military services were to report the total number of 
personality disorder separations for that fiscal year, as well as the 
total number of these separations that were for enlisted servicemembers 
who had served in imminent danger pay areas at any time since September 
11, 2001.

    The DoD OIG has collected the services' fiscal year 2008 compliance 
reports, which were due June 30, 2009. Overall, these reports showed 
that in fiscal year 2008, three out of the four services were not in 
compliance with any of the personality disorder separation 
requirements. (See table 2.) Each military service reported their 
findings of compliance based on their review of a sample of personality 
disorder separations; the sample size for each service ranged from 10 
to 35 percent of the respective service's total personality disorder 
separations for fiscal year 2008. In addition, in a summary of the 
services' compliance reports, the Office of the Under Secretary of 
Defense stated that the military services' compliance with the 
additional personality disorder separation requirements that DoD added 
in 2008 was generally well below 90 percent. The Office of the Under 
Secretary attributed this level of compliance to the services not 
revising their own requirements to reflect DoD's changes until after 
fiscal year 2008 was complete.\14\
---------------------------------------------------------------------------
    \14\ DoD's revisions to its personality disorder separation 
requirements became effective August 28, 2008.

  Table 2: Number of Separations Because of a Personality Disorder and
  Compliance with Key Personality Disorder Separation Requirements, by
                 Military Service, for Fiscal Year 2008
------------------------------------------------------------------------
                           Army      Air Force   Marine Corps     Navy
------------------------------------------------------------------------
Total number of         567         86           409           946
 enlisted
 servicemembers
 separated because of
 a personality
 disorder
------------------------------------------------------------------------
Number of enlisted      Not         15           60            Not
 servicemembers         reported \                             reported
 separated because of    b\                                     \c\
 a personality
 disorder who served
 in imminent danger
 pay areas \a\
------------------------------------------------------------------------
Compliance with         8           <check>      8             8
 requirement that
 enlisted
 servicemembers
 receive notification
 of impending
 separation
------------------------------------------------------------------------
Compliance with         8           <check>      8             8
 requirement that
 enlisted
 servicemembers
 receive a diagnosis
 by an appropriate
 professional \d\
------------------------------------------------------------------------
Compliance with         8           8            8               8 \e\
 requirement that
 enlisted
 servicemembers
 receive formal
 counseling
------------------------------------------------------------------------
Source: GAO analysis of Department of Defense documents.
a  An imminent danger pay area is defined by the Department of Defense
  (DoD) as an area in which enlisted servicemembers were in imminent
  danger of being exposed to hostile fire or explosion of hostile mines
  and in which, during the period they were on duty in that area, other
  members of the uniformed services were subject to hostile fire or
  explosion of hostile mines. A foreign area in which enlisted
  servicemembers were subject to the threat of physical harm or imminent
  danger on the basis of civil insurrection, civil war, terrorism, or
  wartime conditions is also considered an imminent danger pay area.
b  The Army's report did not include the total number of servicemembers
  separated for a personality disorder during fiscal year 2008 who had
  served in imminent danger pay areas. The report did note that of the
  60 records reviewed for the compliance report, 21 servicemembers (35
  percent) had served in imminent danger pay areas.
c  According to the Navy's report, the office performing the compliance
  analysis did not have the capability to screen records to see which
  individuals separated for a personality disorder served in an imminent
  danger pay area.
d  According to DoD policy, an appropriate professional to diagnose a
  personality disorder is a psychiatrist or PhD-level psychologist. This
  professional must determine that the personality disorder interferes
  with the enlisted servicemember's ability to function in the military.
e  The Navy attributes its noncompliance with this requirement to an
  error in its personality disorder separation regulations. The Navy
  regulation allowed for an exemption to the counseling requirement if
  servicemembers were deemed a danger to themselves or others.

Key:

<check> = Military service met DoD's 90 percent compliance threshold for
  the personnel records reviewed of enlisted servicemembers who were
  separated because of a personality disorder. The services' compliance
  rates were based on their review of a sample of personality disorder
  separations. The sample size for each service ranged from 10 to 35
  percent of the respective service's total personality disorder
  separations for fiscal year 2008.
8 = Military service did not meet DoD's 90 percent compliance threshold
  for the personnel records reviewed of enlisted servicemembers who were
  separated because of a personality disorder. The services' compliance
  rates were based on their review of a sample of personality disorder
  separations. The sample size for each service ranged from 10 to 35
  percent of the respective service's total personality disorder
  separations for fiscal year 2008.

    According to DoD OIG officials with whom we spoke, as of August 31, 
2010, the DoD OIG had not received copies of the military services' 
fiscal year 2009 compliance reports, which were due March 31, 2010. It 
is unclear if DoD will require the military services to report 
compliance beyond fiscal years 2008 and 2009.
    Regarding DoD's second action to address our recommendations, in 
the January 2009 memo, DoD also required the military services to 
provide a plan for correcting compliance deficiencies if the services 
found that their compliance with any DoD personality disorder 
separation requirement was less than 90 percent. According to their 
fiscal year 2008 reports, each service has planned or taken corrective 
actions to improve compliance. For example, the Army's report stated 
that as of March 13, 2009, the Army's Office of the Surgeon General 
will review all personality disorder separation cases to ensure that 
each contains the required documentation. Similarly, the Marine Corps 
will require the General Court Martial Convening Authority \15\ to 
certify that the requirements have been met. The military services also 
reported actions they will take to implement DoD's revised personality 
disorder separation requirements. For example, the Marine Corps will 
incorporate a checklist of the new requirements to be used with all 
personality disorder separations. We did not verify whether the actions 
the services planned or reported as of March 2009 were actually 
realized.
---------------------------------------------------------------------------
    \15\ In the Marine Corps, the General Court Martial Convening 
Authority, typically a high ranking commanding officer, is designated 
as the official who approves personality disorder separations.
---------------------------------------------------------------------------
    Since the military services have not demonstrated full compliance 
with DoD's personality disorder separation requirements, we reiterate 
the importance of DoD implementing our 2008 recommendations.
    Mr. Chairman, this concludes my prepared remarks. I will be pleased 
to respond to any questions you or other Members of the Committee may 
have.
Contacts and Acknowledgments
    For further information about this testimony, please contact Debra 
Draper at (202) 512-7114 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5733253627322533173036387930382179">[email&#160;protected]</a> Contact points for our 
Offices of Congressional Relations and Public Affairs may be found on 
the last page of this testimony. GAO staff who made key contributions 
to this testimony include Randall B. Williamson, Director, Health Care; 
Mary Ann Curran, Assistant Director; Susannah Bloch; Rebecca 
Hendrickson; Lisa Motley; and Rebecca Rust.

                                 <F-dash>
  Prepared Statement of Lernes J. Hebert, Acting Director, Officer and
Enlisted Personnel Management, Office of the Deputy Under Secretary of 
    Defense (Military Personnel Policy), U.S. Department of Defense

    Mr. Chairman, Mr. Ranking Member, and Members of the Committee, 
thank you for the opportunity to testify on Personality Disorder 
discharges and the Department's progress in implementing 
recommendations made by the Government Accountability Office (GAO) to 
improve oversight of the Personality Disorder discharge process. In 
response to the October 2008, GAO audit, the Department implemented 
policy changes and established a reporting process to maintain 
oversight of the Military Departments' progress in carrying out these 
requirements. Today, I will report on those policy changes and how the 
Military Departments' compliance with those policy changes has 
progressed.
Separation Policy
    Through the Department's separation policies, individuals are 
provided an orderly transition after service to the Nation and the 
Department can properly husband the forces under arms to meet national 
security needs. As the requirements for service are often physically 
demanding, fitness for duty is a key element of these policies.
    Medical fitness determination is an area where great care must be 
taken to ensure accuracy and fairness. In that regard, the nature of 
the signature injuries sustained in Operations Iraqi Freedom and 
Enduring Freedom (OIF/OEF) of Traumatic Brain Injuries (TBI) and Post-
Traumatic Stress Disorder (PTSD) has challenged the Department's 
understanding and treatment of those injuries. As the body of knowledge 
of PTSD and TBI has matured, personnel policies have also evolved to 
provide Servicemembers a thorough evaluation prior to consideration of 
a discharge from military service. The Department's separation and 
transition policies offer multiple levels of oversight to tender the 
appropriate characterization of each servicemember's separation. This 
critical review by medical professionals is especially important in 
ensuring the proper diagnosis and treatment of wounded warriors with 
PTSD, TBI, or other physical and psychological conditions and initiate 
an appropriate, compensable, physical disability discharge when 
warranted.
    Leadership awareness and understanding of PTSD and TBI, and 
accurate diagnosis of mental health conditions, as they relate to 
Personality Disorder separations, are Department priorities. On August 
28, 2008, the Department issued new policy on personality disorders 
separations, which added greater rigor and oversight. The revised 
policy only permits a personality disorder separation if diagnosed by a 
psychiatrist or PhD-level psychologist. Implementation of this change 
has increased the Department's confidence in our ability to accurately 
diagnose personality disorders, which by themselves are not 
compensable. This change serves to help ensure accurate diagnoses of 
mental health conditions and improve the identification of any co-
morbidity of PTSD or TBI, which are compensable disabilities.
    In addition, members who have served in an imminent danger pay area 
must have their diagnosis corroborated by a peer psychiatrist, PhD-
level psychologist, or higher level mental health professional and 
endorsed by The Surgeon General of the Military Service concerned. This 
change specifically addresses concerns early in the War that members 
suffering PTSD or TBI might be separated without proper treatment under 
the non-compensable, exclusive diagnosis of a personality disorder. To 
ensure continued monitoring of this critical process, the Department 
implemented oversight mechanisms to include an annual personality 
disorder report and periodic reviews of personality disorder separation 
data by the Department's Medical and Personnel (MedPers) Council.
    By adding new requirements for personality disorder separations to 
the requirements that were already contained in Department of Defense 
Instruction 1332.14, Enlisted Administrative Separations, there are now 
eight requirements that must be met prior to separating a Servicemember 
for personality disorder.
Personality Disorder Separations Oversight and Compliance
    On January 14, 2009, the Under Secretary of Defense for Personnel 
and Readiness directed the Secretaries of the Military Departments to 
report their compliance with the personality disorder separation 
requirements in DoDI 1332.14, for two fiscal years beginning with 
fiscal year 2008. The Services were directed to review, at a minimum, a 
random sampling of at least 10 percent of all personality disorder 
separations for compliance with the eight DoD personality disorder 
separation requirements and report the total number of personality 
disorder separations for Servicemembers who had served in an imminent 
danger pay area since September 11, 2001.
    Of note is that fact that the early reports were impacted by the 
delay between when the Department issued new personality disorder 
separation policy and the incorporation of that new guidance into 
Military Service regulations. The Military Departments made 
considerable progress between FY 2008 and FY 2009 to fully comply with 
the personality disorder separation requirements in DoDI 1332.14. To 
ensure this progress is not lost, the Under Secretary of Defense for 
Personnel and Readiness has extended the requirement for the Military 
Departments to report their compliance until FY 2012.
    The number of personality disorder separations across the 
Department by more than a third since 2008 when the more rigorous 
processes were implemented. Each of the Military Services has similarly 
experienced decreases in personality disorder separations. While other 
factors may have contributed to this decrease, the increased oversight 
and awareness clearly supported this trend.
PTSD Disability Evaluation System (DES) Case Disposition Trends
    The Military Departments combined reported 979 more PTSD DES case 
dispositions (a 47 percent increase) in FY 2009 versus FY 2008. There 
were 3,063 PTSD DES case dispositions in FY 2009 versus 2,084 PTSD DES 
case dispositions in FY 2008. The Army accounted for 81 percent of all 
PTSD DES case dispositions.
    The Military Departments reported they complied with requirements 
in the Veterans Affairs Schedule for Rating Disabilities (VASRD) when 
rating mental illness due to traumatic events. Conditions classified as 
mental disorders by the VASRD existed in 5,141 (27 percent) of 19,215 
FY 2009 DES case dispositions.
    PTSD DES case dispositions comprised 16 percent of the total 19,215 
DES case dispositions in FY 2009. In FY 2008, PTSD DES case 
dispositions comprised 11 percent of the total 19,583 DES case 
dispositions.
    In FY 2009, 119 (3.9 percent) of the PTSD DES case dispositions 
resulted in the Servicemember being placed on the Permanent Disability 
Retirement List (PDRL). 2,936 (95.8 percent) of the FY 2009 PTSD DES 
case dispositions resulted in the Servicemember being placed on the 
Temporary Disability Retirement List (TDRL). This represents 42 percent 
of the total of 6,965 Servicemembers placed on the TDRL in FY 2009. Six 
(.2 percent) case dispositions resulted in Separation with Severance 
Pay and three (.1 percent) case dispositions resulted in Separation 
without benefits.
    In FY 2008, 233 (11.2 percent) of the PTSD case dispositions 
resulted in the Servicemember being placed on the PDRL. 1,352 (64.9 
percent) of the FY 2008 PTSD DES case dispositions resulted in the 
Servicemember being placed on the TDRL. 489 (23.5 percent) case 
dispositions resulted in Separation with Severance Pay and two (.1 
percent) case dispositions resulted in Separation without Benefits.
Mental Health Assessments
    A Mental health assessment is a bio-psycho-social evaluation 
examining every aspect of the patient's life. A psychiatric diagnosis 
is made if the patient demonstrates symptoms that meet clinical 
criteria as defined by the Diagnostic and Statistical Manual of Mental 
Disorders (DSM-IV-TR).
    Symptoms that may be present in PTSD represent a challenge in the 
differential diagnosis and treatment of the disorder. Moreover, chronic 
PTSD is frequently complicated by co-morbid (dual diagnosis) 
psychiatric disorders including depression and other mood disorders, 
substance abuse, dissociative disorders, other anxiety disorders, and 
psychotic symptoms or disorders. These co-morbidities offer a further 
challenge in the diagnosis and management of PTSD. Concurrent (pre-
existing) character pathology (personality disorders) is important to 
diagnose since it may affect the course, severity, and prognosis of 
PTSD. When personality changes (newly) emerge and persist after an 
individual has been exposed to extreme stress, a diagnosis of Post-
Traumatic Stress Disorder should be considered.
    Policy issuances currently require an examination and multiple 
reviews by medical professionals prior to administrative separation for 
a Personality Disorder. Servicemembers diagnosed with or reasonably 
asserting post-traumatic stress disorder (PTSD) or traumatic brain 
injury (TBI) fall under guidance provisions for psychiatric and/or 
medical disorders, respectively (DoDI 1332.38). If a Servicemember is 
diagnosed with PTSD or TBI at the time of their separation examination, 
it is policy that a Medical Evaluation Board should be initiated. If a 
Personality Disorder is diagnosed after all other medical and mental 
health disorders have been ruled out, and the patient is considered to 
be a hazard to themselves or others and unable to function in the 
military setting, one of the criteria for an administrative separation 
would be met. Ultimately, it is the Servicemember's commander, with the 
advice of medical professionals, who makes the final decision as 
whether the Servicemember should be processed for Administrative 
Separation.
PTSD and TBI Related Discharge Review Board and BCMR Request
    The Department realizes that the new policies and body of knowledge 
of PTSD and TBI evolved too late to benefit many Servicemembers. In 
that regard, the Department continues to encourage veterans who are 
later diagnosed with PTSD or other mitigating disorders to request 
review of their separations through their respective Military 
Department Discharge Review Board (DRB) and Board for Correction of 
Military Records (BCMR). As expected, the number of DRB and BCMR 
appeals related PTSD or TBI has increased. This process has worked 
well, and we continue to work with the Military Departments and the 
Department of Veterans Affairs to identify those with PTSD and TBI who 
may have transitioned prior to our current understanding of these 
conditions.
Conclusion
    The Department is confident that given the positive trends 
Servicemembers who experience or assert PTSD or TBI are being diagnosed 
and that those diagnoses are being considered prior to separation. 
Rigorous execution and oversight of the Department's separation 
policies is crucial to ensuring the proper transition of our veterans 
and the readiness of the military forces. The Department is committed 
to continue efforts to improve the accuracy and efficacy of these 
policies. I will be happy to answer any questions you might have at 
this time.

                                 <F-dash>
    Prepared Statement of Major General Gina S. Farrisee, Director,
  Department of Military Personnel Management, G-1, Department of the 
                    Army, U.S. Department of Defense

Introduction
    Chairman Filner, Representative Buyer, Distinguished Members of 
this Committee, thank you for the opportunity to appear before you on 
behalf of America's Army. Our greatest heroes are America's most 
precious resource--our Soldiers and Veterans. These Soldiers and 
Veterans represent the very best of America's values and ideals and 
faithfully shoulder the load that our Nation asks of them. Their 
dedicated service and sacrifice are deserving of the very best 
services, programs, equipment, training, benefits, lifestyle, and 
leadership available.
Personality Disorder
    The Army is dedicated to ensuring that all Soldiers with physical 
and mental conditions caused by wartime service receive the care they 
deserve. The Army remains committed to tracking personality disorder 
separations for our Soldiers. Our culture is shifting away from the 
stigma associated with having post-traumatic stress disorder (PTSD) or 
traumatic brain injury (TBI) and ensuring Soldiers know that it is 
expected that they seek help for these hidden wounds to restore and 
maintain their health and readiness.
    A personality disorder is a deeply ingrained maladaptive pattern of 
behavior of long duration that interferes with a Soldier's ability to 
perform duty. The onset of a personality disorder is frequently 
manifested in the early adult years and may reflect an inability to 
adapt to the military environment as opposed to an inability to perform 
the requirements of specific jobs or tasks. As such, observed behavior 
of specific deficiencies are documented in appropriate military 
counseling records to include history from sources such as supervisors, 
peers, and others, as necessary to establish that the behavior is 
persistent, interferes with assignment to or performance of duty, and 
has continued after the Servicemember has been counseled and afforded 
the opportunity to overcome the deficiencies.
    In 2006 and 2007, public concern arose that some Soldiers returning 
from combat tours who were also suffering from PTSD or TBI as a result 
of their combat experiences had been discharged from the military for 
personality disorder. To address these concerns, the Army's Office of 
the Surgeon General issued policies in August 2007 and May 2008 
requiring higher-level review of recommendations to administratively 
separate Soldiers for personality disorder and requiring screening for 
PTSD and TBI for administrative separation for personality disorder and 
other types of administrative separation. In August 2008, the 
Department of Defense (DoD) mandated similar requirements across DoD 
including the requirement that the diagnosis of personality disorder 
for Servicemembers who had served or were serving in imminent danger 
pay areas must be endorsed by the Military Department's Surgeon 
General.
    Army administrative separations policy was subsequently updated 
implementing the recommendations of the Government Accountability 
Office, the requirements of Department of Defense Instruction 1332.14 
and the National Defense Authorization Act for Fiscal Year 2010. 
Included were the requirements that a psychiatrist or PhD-level 
psychologist be the mental health professional diagnosing the 
personality disorder, that a Personality Disorder diagnosis be 
corroborated by a peer or higher-level mental health professional 
(Medical Treatment Facility Chief of Behavioral Health or equivalent 
official), that the Personality Disorder diagnosis be endorsed by the 
Director, Proponency of Behavioral Health, Office of The Surgeon 
General, and that the diagnosis address PTSD or other co-morbid mental 
illness, if present. The Army also provided for the distinction between 
Soldiers who were separated for Personality Disorder who had less than 
2 years time in service (Chapter 5-13/Personality Disorder) with 
Soldiers with 2 or more years of service (Chapter 5-17/Other Designated 
Physical or Mental Conditions).
    Commanders make maximum use of counseling and rehabilitation before 
determining that a Soldier has limited potential for further military 
service and, therefore, should be separated. When a Soldier's conduct 
or performance becomes unacceptable, the commander will ensure that the 
Soldier is formally counseled on his or her deficiencies and given a 
reasonable opportunity to overcome or correct them. If the commander 
believes a medical issue may be the basis of the misconduct or poor 
performance, the commander refers the Soldier for a medical evaluation. 
Separation for personality disorder is authorized only if the diagnosis 
concludes that the disorder is so severe that the Soldier's ability to 
function effectively in the military environment is significantly 
impaired. The Soldier is counseled that the diagnosis of a personality 
disorder does not qualify as a disability. When it is determined that 
separation for personality disorder is appropriate, the unit commander 
takes action to notify the Soldier. Separation authority for 
personality disorder for Soldiers who are or have been deployed to an 
area designated as an imminent danger pay area is the General Court 
Martial Convening Authority (General Officer-level commander). In all 
other cases, the separation authority is the Special Court Martial 
Convening Authority (Colonel-level commander).
    Separated Soldiers may request review and change of their discharge 
by petitioning the Army Review Boards Agency (ARBA). ARBA's case 
management division screening team hand carries these cases to the Army 
Discharge Review Board (ADRB), which prioritizes review and boarding of 
applications for upgrades or changes in discharges where either PTSD or 
TBI is diagnosed. ARBA's Medical Advisor serves as a voting board 
member when PTSD/TBI cases are boarded by the ADRB.
Army Career and Alumni Program
    Soldiers who are separated from Active Duty prior to their actual 
separation date, also known as unanticipated losses, are fully eligible 
for all transition services provided by the Army Career and Alumni 
Program (ACAP). Programs available for Soldiers within ACAP include 
pre-separation counseling, employment assistance, Veterans Benefits 
Briefing, and the Disabled Transition Assistance Program (DTAP).
    Pre-separation counseling provides Soldiers information about 
services and benefits they have earned while on active duty. The 
following areas are covered in this counseling: effects of a career 
change, employment assistance, relocation assistance, education and 
training, health and life Insurance, finances, Reserve affiliation, 
Veterans benefits, Disabled Veterans benefits, post government service 
employment restriction and an Individual Transition Plan. Each of these 
areas have several items that support the specific area. This pre-
separation counseling is mandatory for all separating Soldiers who have 
at least 180 days of active duty upon time of separation.
    Employment assistance consists of individual one-on-one counseling, 
attending a Department of Labor two-and-a-half day long employment 
workshop, finalizing a resume, practice employment interviews, using 
various automated employment tools and using the internet to access job 
data banks. This is strictly voluntary; Soldiers do not have to 
participate.
    The Veterans Benefits Briefing is a 4-hour long briefing provided 
by Veterans Affairs (VA) counselors covering all VA-controlled services 
and benefits that a Soldier can receive or may be eligible for after 
separation. Transition counselors strongly encourage separating 
Soldiers to attend.
    The Disabled Transition Assistance Program (DTAP) is a 2-hour long 
briefing provided by VA counselors. Soldiers who are separated due to 
medical or physical injuries, as well as Soldiers who believe that they 
will file a VA Disability Claim, are highly encouraged to attend this 
briefing.
    Soldiers out-processing as an unanticipated loss normally have 
limited time remaining on active duty and will in almost all cases have 
insufficient time to take advantage of the above programs except for 
the legally-mandated pre-separation counseling. However, these Soldiers 
are fully eligible to receive these services for up to 180 days after 
separation. Additionally, they are referred by the transition counselor 
to go to the nearest Department of Labor Career One Stop after 
separation for assistance in obtaining employment and are instructed to 
use the VA E-benefits Web site to obtain information concerning their 
eligibility for VA benefits.
Congressional Assistance
    The Army remains dedicated to making sure that all Soldiers with 
physical and mental conditions caused by wartime service receive the 
care they deserve. The Army is grateful for the continued support of 
Congress for providing for the well-being of the best Army in the 
world.
Conclusion
    The Army leadership has confidence in our behavioral health 
providers and the policies in place to ensure proper treatment for our 
Soldiers. We continue to monitor these processes to ensure the accurate 
diagnosis of PTSD and TBI and to further corroborate each diagnosis of 
personality disorder. Veterans who feel that they were discharged 
inappropriately are encouraged to seek a remedy through the Army Review 
Boards Agency (ARBA).
    The mental and physical well-being of our Soldiers and Veterans 
depends on your tremendous support. We must continue to maintain an 
appropriate level of oversight on PTSD and TBI, wounds all too 
frequently associated with the signature weapon of this war, the 
improvised explosive device. The men and women of our Army deserve 
this; we owe this to them. The Army is committed to continuing to 
improve the accuracy and efficiency of these policies and their 
implementation. Thank you for the opportunity to appear before you this 
morning. I look forward to answering any questions you may have.

                                 <F-dash>
  Prepared Statement of Antonette M. Zeiss, Ph.D., Acting Deputy Chief
   Patient Care Services Officer for Mental Health, Office of Patient
             Care Services, Veterans Health Administration,
                  U.S. Department of Veterans Affairs

    Good morning Chairman Filner, Ranking Member Buyer, and Members of 
the Committee. Thank you for inviting me to discuss the mental health 
services the Department of Veterans Affairs (VA) provides our Veterans, 
and how a Veteran's discharge for a personality disorder affects his or 
her access to key VA benefits. I am accompanied today by Mr. Tom 
Murphy, Director of the Compensation &Pension Service (VBA).
    A personality disorder is defined by the Diagnostic and Statistical 
Manual of Mental Disorders, 4th Edition (Text Revision, or DSM-IV-TR) 
as an enduring pattern of inner experience and behavior that deviates 
markedly from the expectations of the individual's culture, manifested 
in cognition (ways of perceiving or interpreting events and others' 
behavior), affect (including the range, intensity, ability to manifest, 
or appropriateness of emotional responses), interpersonal functioning, 
and impulse control. Essentially, this means that a person with a 
personality disorder displays behavior and attitude that is a 
consistent, long-term characteristic of the individual and that differs 
from cultural norms in problematic ways.
    In DSM-IV-TR, personality disorders differ fundamentally from other 
types of mental health disorders. DSM-IV-TR requires that a new 
diagnosis of a personality disorder should only be made after 
considering the possibility that there may be other causes of the 
behavioral change, such as another mental disorder, the physiological 
effect of a substance (such as medication), or a general medical 
condition like head trauma. Primarily, these requirements exist because 
many of the problems exhibited by individuals with personality 
disorders can also be symptoms of other mental health disorders or 
other health problems, and without a prior personality disorder 
diagnosis, the clinician cannot assume that these symptoms represent 
long-standing, enduring characteristics of the individual. For example, 
traumatic brain injuries (TBI) and Post-Traumatic Stress Disorder 
(PTSD) can have effects similar to the symptoms of some personality 
disorders.
    Given the complexity associated with personality disorders and 
other cognitive and behavioral issues, VA has developed a comprehensive 
system involving outreach, screening and treatment for Veterans to 
determine if they have mental health disorders or TBI. Our intensive 
programs ensure that any problems are recognized, diagnosed, and 
treated, and our benefits programs provide compensation and support for 
Veterans whose conditions were the result of service in the military. 
My testimony today will begin by discussing Veterans' eligibility for 
benefits from VBA and health care. I will then describe the process by 
which Veterans are screened for cognitive and behavioral problems and 
discuss three conditions: personality disorders, TBI and PTSD. Finally, 
I will cover the health care benefits and services available to 
Veterans in VA health care facilities and Vet Centers.
Veteran Benefits Administration
    Veterans' eligibility for benefits under title 38 is generally 
conditioned on two factors: 1) the character of discharge, and 2) the 
completion of an enlistment or period to which called. Title 38 U.S.C. 
Sec. 101(2) and 38 CFR Sec. 3.1(d) define a Veteran ``as a person who 
served in the active military, naval, or air service, and who was 
discharged or released under conditions other than dishonorable.'' The 
uniformed services, when separating a Servicemember, characterize his 
or her service as one of the following: honorable; general, under 
honorable conditions; under other than honorable conditions; bad 
conduct; dishonorable; or, uncharacterized.
    VA accepts discharges that are characterized as honorable or 
general, under honorable conditions, as ``other than dishonorable'' for 
VA purposes. Such discharges generally do not disqualify a Veteran for 
health care, disability compensation and pension, educational 
assistance, vocational rehabilitation and employment services, home 
loan guaranty, and burial and memorial benefits offered by VA as long 
as the Veteran meets the minimum active duty requirement of 2 years of 
service or ``the period called'' to service if activated for less than 
2 years. Service ``for the period called'' would be applicable in the 
situation of a Reservist or National Guard member called to active duty 
by a Federal Order (for other than training purposes) and completing 
the full call-up period. If VA determines that a Veteran has a service-
connected disability the minimum active duty requirement does not 
apply. In addition, for purposes of the Montgomery GI Bill and the 
Post-9/11 GI Bill, a Veteran must have received an honorable discharge.
    VA uses the process outlined in 38 CFR Sec. 3.12 to determine 
whether other than honorable and bad conduct discharges may be 
considered ``other than dishonorable'' for VA purposes. Dishonorable 
discharges are all disqualifying. A separation resulting from a 
reported personality disorder is of potential significance to VA only 
if it results in a separation that is less than honorable or if it 
results in a separation before completion of the minimum active duty 
requirement.
    Personality disorders are considered constitutional or 
developmental abnormalities and thus are not service-connected. 
Therefore the law does not permit payment of compensation for a 
personality disorder. However, Veterans who are eligible to enroll for 
VA health care can be examined by VA clinicians, who may diagnose other 
mental health disorders. Veterans are not bound by any diagnosis from 
the Department of Defense (DoD) when seeking treatment from VA or when 
submitting a claim for service connection.
Veterans Health Administration
    <bullet>  Eligible Veterans may enroll in the VA health care 
system. Once enrolled, they are provided all needed care set forth in 
the medical benefits package. VA's enrollment system manages the 
enrollment of Veterans in accordance with priority categories. 
Currently, the following Veterans are eligible to enroll:

        <bullet>  The Veteran was a former Prisoner of War;
        <bullet>  The Veteran received a Purple Heart Medal;
        <bullet>  The Veteran is determined to have a compensable 
        service-connected disability;
        <bullet>  The Veteran receives a VA pension;
        <bullet>  The Veteran received a Medal of Honor;
        <bullet>  The Veteran is determined to be catastrophically 
        disabled;
        <bullet>  The Veteran has an annual household income below 
        applicable income thresholds.

    In addition, Operation Enduring Freedom and Operation Iraqi Freedom 
(OEF/OIF) combat Veterans may enroll and receive free VA medical care 
for any condition related to their service. Under the ``Combat 
Veteran'' authority, VA provides cost-free health care services and 
nursing home care for conditions possibly related to military service 
to:

    <bullet>  Combat Veterans who were discharged or released from 
active service on or after January 28, 2003, for 5 years from the date 
of discharge or release if they enroll for VA health care during this 
period.
    <bullet>  Combat Veterans who were discharged from active duty 
before January 28, 2003, but who did not enroll in VA health care 
system now have until January 27, 2011 to enroll and receive care as 
combat veterans. Veterans who enroll with VA under this authority will 
continue to be enrolled even after their combat-Veteran eligibility 
period ends but may be required to make applicable copayments.
Screening for Cognitive and Behavioral Conditions
    VA clinicians routinely and systematically screen enrolled Veterans 
for a range of health concerns. Every Veteran who visits a VA health 
care facility is screened initially and periodically for PTSD, problem 
drinking, and depression, and all Veterans receive a one-time screening 
for Military Sexual Trauma (MST). Veterans from OEF/OIF are screened 
for possible TBI as well. Any Veteran who screens positive for any of 
these conditions is referred for further assessment and care. With the 
widespread integration of mental health into primary care settings, 
this process has become easier for Veterans, and the potential stigma 
of being referred to an exclusively mental health environment has been 
reduced.
    VA's universal screens are primarily health assessments meant to 
ensure that appropriate care is delivered, but such assessments may be 
relevant to service connection claims as well. VA clinicians, including 
psychologists or psychiatrists, conduct detailed assessments when 
Veterans apply for disability benefits for a mental health condition 
connected to their military service. These experts review medical 
records, including screening and further test results, as part of this 
assessment.
    Compensation and pension (C&P) examinations for mental health 
disorders follow established guidelines and cover psychosocial 
functioning, as well as self-reports of symptoms of mental disorders 
that manifested before, during, or after military service. VA 
clinicians also assess the Veteran's individual military experience, 
including exposure to traumatic events or other stressful experiences 
that could trigger a mental health problem, and compare this 
information with the timing of symptoms to determine if the condition 
is likely to be connected to military service. If the Veteran exhibited 
a pattern of maladaptive behavior prior to military service, VA must 
determine whether there has been a change in behavior connected to and 
a result of military service. All VA clinicians, including those 
responsible for completing C&P evaluations, adhere to the DSM-IV-TR, 
which is widely recognized as the most current and authoritative source 
for mental health conditions.
Personality Disorders, TBI, and PTSD
    As I stated earlier, some personality disorders, TBI, and PTSD can 
share common symptoms. Behavioral changes may be the result of physical 
or psychological injuries, or both, and it is our responsibility to 
properly identify which condition a Veteran has to ensure an accurate 
record for benefits administration and effective treatment planning. 
For this reason, I will spend some time describing the similarities and 
differences of these conditions.
Personality Disorders
    At the beginning of my testimony, I provided an overview of the 
DSM-IV-TR definition of a personality disorder. For a VA clinician to 
make a diagnosis that a Veteran meets criteria for a personality 
disorder, the clinician must use the full definition and establish each 
component. Generally speaking, this means that a personality disorder 
is not situational, temporary, or recently acquired, and that the 
person's behavior has been adversely affected and cannot be explained 
by other disorders.
    Events characterized by repeated exposure to traumatic stress can 
result in symptoms and behaviors that appear, on the surface, to 
resemble some of these personality disorders. In addition to a 
comprehensive psychological assessment of the individual, VA advises 
clinicians to consult with family members or others with knowledge of 
the individual prior to his or her military service when considering 
whether a Veteran should be diagnosed with a personality disorder.
Traumatic Brain Injury
    Traumatic brain injury is the result of a severe or moderate force 
to the head, where physical portions of the brain are damaged and 
functioning is impaired. Depending upon where the injury is sustained 
and its severity, the effects of a TBI on a person's behavior will 
vary. A mild TBI, which is also commonly called a concussion, may 
simply require some time to recover. Short term effects might include 
dizziness, nausea, memory lapses, or other conditions, and in many 
cases, there are no long term effects. Moderate and severe TBI can have 
more lasting effects and may impact a person's behavior. For example, a 
person may be more irritable or aggressive as a result of a brain 
injury.
    Due to the severity and complexity of their injuries, 
Servicemembers and Veterans with moderate to severe TBI require an 
extraordinary level of coordination and integration of clinical and 
other support services. Veterans who screen positive for TBI are 
referred for a comprehensive evaluation at one of 22 Polytrauma Network 
Sites or one of 83 Polytrauma Support Clinic Teams. This comprehensive 
evaluation assesses the Veteran's current physical, behavioral, 
emotional, and cognitive status. The evaluation includes a 22-item 
Neurobehavioral Symptom Inventory, which allows for systematic 
assessment of a wide array of potential current problems. This 
diagnostic tool allows VA to develop an appropriate diagnosis of 
current TBI-related symptoms and problems and to contribute to 
developing an interdisciplinary plan for care.
PTSD
    According to the DSM-IV-TR clinical criteria, PTSD can follow 
exposure to a severely traumatic stressor that involves personal 
experience of an event involving actual or threatened death or serious 
injury. It can also be triggered by witnessing an event that involves 
death, injury, or a threat to the physical integrity of another. The 
person's response to the event must involve intense fear, helplessness 
or horror. The symptoms characteristic of PTSD include persistent re-
experiencing of the traumatic event, persistent avoidance of stimuli 
associated with the trauma, numbing of general responsiveness, and 
persistent symptoms of increased arousal. It is extremely rare that an 
individual would display all of these symptoms, and a diagnosis 
requires a combination of a sufficient number of symptoms, while 
recognizing that individual patterns will vary.
    PTSD can be experienced in many ways. Symptoms must last for more 
than 1 month, and the disturbance must cause clinically significant 
distress or impairment in social, occupational, or other important 
areas of functioning. Military combat certainly can create situations 
that fit the DSM-IV-TR description of a severe stressor event that can 
result in PTSD, and VA recognizes that being stationed in a combat area 
where there is constant danger and inability to predict or control the 
threat of danger also can meet the description of a severe stressor 
event. The likelihood of developing PTSD is known to increase as the 
proximity to, intensity of, and number of exposures to such stressors 
increase. In addition, PTSD can be a result of many other experiences 
besides combat exposure, such as sexual assault, life-threatening 
accidents, or natural disasters.
    PTSD is associated with increased rates of other mental health 
conditions, including Major Depressive Disorder, Substance-Related 
Disorders, Generalized Anxiety Disorder, and others. PTSD can directly 
or indirectly contribute to other medical conditions. Duration and 
intensity of symptoms can vary across individuals and within 
individuals over time. Symptoms may be brief or persistent; the course 
of PTSD may ebb and return over time, and PTSD can have a delayed 
onset. Clinicians use these criteria and discussions with patients to 
identify cases of PTSD, sometimes in combination with additional 
psychological testing.
Comparing and Contrasting Personality Disorders, TBI, and PTSD
    The significance of an accurate diagnosis cannot be underestimated, 
as the diagnosis will inform our approach to treatment and care, and a 
person can meet criteria for more than one problem at a time. For 
example, a Veteran could have experienced events that led to both PTSD 
and TBI. A person previously able to function in spite of a long-
standing mild-to moderate personality disorder can develop PTSD after 
trauma. Such a person could also have sustained a TBI, which could 
contribute to aggression, poor impulse control, or suspiciousness.
    Since the onset of personality disorders by definition occurs by 
late adolescence or early adulthood, there typically should be evidence 
of the behavior pattern prior to adulthood. A history of solid 
adjustment and good psychosocial functioning prior to adulthood would 
not be expected in an individual with a personality disorder. Following 
an extended event characterized by traumatic stressors, it is 
particularly important to determine if problematic behaviors are due to 
PTSD. The DSM-IV-TR explicitly states, ``When personality changes 
emerge and persist after an individual has been exposed to extreme 
stress, a diagnosis of Post-Traumatic Stress Disorder should be 
considered'' (p. 632). PTSD can induce irritability or outbursts of 
anger, feelings of detachment or estrangement from others, and 
restricted range of affect (unable to experience feelings such as 
love). In addition, PTSD may increase the risk of self-destructive and 
impulsive behavior, social withdrawal, hyper-vigilance, and impaired 
relationships with others.
    Many Veterans who screen positive for possible TBI and who are seen 
for a comprehensive evaluation have co-occurring conditions, including 
PTSD. A Veteran may exhibit significant interpersonal difficulties that 
were not present prior to the TBI. Inability to control anger, trouble 
with social tact, and other interpersonal difficulties are examples, 
and these occur more frequently in those with moderate to severe TBI. 
Clinicians are able to distinguish a TBI-related interpersonal change 
by taking a thorough history and obtaining collateral interview data. 
Pinpointing the onset of interpersonal and personality change to the 
time of sustaining a TBI provides evidence of acquired interpersonal 
dysfunction and rules out a longstanding personality disorder.
    The symptoms and problems related to TBI and PTSD can be 
particularly challenging to differentiate for several reasons, most 
notably because the same event may have resulted in TBI and led to the 
development of PTSD. However, specific criteria in the DSM-IV-TR guide 
clinicians in distinguishing between the two conditions by looking for 
symptoms that are specific to one or the other disorder, such as 
persistent re-experiencing of a traumatic event and avoidance of 
stimuli associated with the trauma, which would only be related to 
PTSD.
    To address this, VA uses interdisciplinary polytrauma 
rehabilitation teams and neuropsychologists and rehabilitation 
psychologists to determine if a Veteran with TBI also has PTSD. 
Standardized questionnaires such as the PTSD Checklist--Military 
Version (PCL-M) and structured interviews such as the Clinically 
Administered PTSD Scale (CAPS) also aid VA clinicians in determining 
whether a Veteran meets criteria for PTSD, with or without TBI. VA 
clinicians consider factors such as symptom presentation and a 
psychosocial history from the Veteran that creates a timeline of 
symptom development. Clinicians also conduct a medical record review, a 
psychological and neuropsychological assessment, and interviews. 
Following a thorough evaluation, the polytrauma rehabilitation team, 
often in concert with mental health providers, collaborates to develop 
and execute a comprehensive treatment plan.
    According to the DSM-IV-TR classification system, these clinical 
scenarios involving personality change after a TBI are diagnostically 
distinct from Personality Disorders and are coded as such. Most 
frequently, they fall under the category of Mental Disorders Due to a 
General Medical Condition (i.e., diagnostic code 310.1--Personality 
Disorder Due to General Medical Condition) or Relational Problem 
Related to a General Medical Condition (code V61.9). When these 
diagnostic codes are used, TBI also must be coded as the relevant 
medical condition.
Treatment
    VA offers mental health services to Veterans through medical 
facilities, community-based outpatient clinics (CBOC), and in VA's Vet 
Centers, discussed later in my testimony. VA has been making 
significant enhancements to its mental health services since 2005, 
through the VA Comprehensive Mental Health Strategic Plan and special 
purpose funds available through the Mental Health Enhancement 
Initiative from fiscal years 2005 to 2009. In 2007, VA approved the 
Handbook on Uniform Mental Health Services in VA Medical Centers and 
Clinics to define what mental health services should be available to 
all enrolled Veterans who need them, no matter where they receive care, 
and to sustain the enhancements made in recent years.
    VA's enhanced mental health activities include outreach to help 
those in need to access services, a comprehensive program of treatment 
and rehabilitation for those with mental health conditions, and 
programs established specifically to care for those at high risk of 
suicide. To reduce the stigma of seeking care and to improve access, VA 
has integrated mental health into primary care settings to provide much 
of the care that is needed for those with the most common mental health 
conditions. In parallel with the implementation of these programs, VA 
has been modifying its specialty mental health care services to 
emphasize psychosocial as well as pharmacological treatments and to 
focus on principles of rehabilitation and recovery. VA is ensuring that 
treatment of mental health conditions includes attention to the 
benefits as well as the risks of the full range of effective 
interventions. Making these treatments available responds to the 
principle that when there is evidence for the effectiveness of a number 
of different treatment strategies, the choice of treatment should be 
based on the Veteran's values and preferences, as well as the clinical 
judgment of the provider.
    Veterans with TBI seen in VA receive some of the best care 
available. The VA Polytrauma System of Care, which is composed of 4 
regional Polytrauma/TBI Rehabilitation Centers, 22 Polytrauma Network 
Sites, and 83 Polytrauma Support Clinic Teams, currently provides 
specialty rehabilitation care. Veterans with TBI can also be seen at 
other VA facilities for treatment, including via telehealth.
Vet Center Services
    In addition to the clinical care and diagnostic services discussed 
previously, VA's Vet Centers offer an important complement that assists 
Veterans with readjustment issues. Vet Centers provide quality outreach 
and readjustment counseling services to returning war Veterans of all 
eras and their family members in confidential, easy to access 
community-based sites. The Vet Centers' mission goes beyond medical 
care in providing a holistic mix of services designed to treat the 
Veteran as a whole person in his or her community setting. Vet Centers 
provide an alternative to receiving treatment in traditional mental 
health care settings that helps many combat Veterans overcome the 
stigma and fear related to accessing professional assistance for 
military-related problems. Vet Centers are staffed by interdisciplinary 
teams that include psychologists, nurses and social workers, many of 
whom are Veterans themselves.
    Vet Center care consists of a continuum of social and psychological 
services including community outreach to special populations, 
professional readjustment counseling to Veterans and families, and 
brokering of services with community agencies that provides a key 
access link between the Veteran and other needed services both in and 
outside of the VA. Readjustment counseling offered at Vet Centers may 
address problems such as war-related psychological readjustment, PTSD 
counseling, family or relationship problems, lack of adequate 
employment or career goals, lack of educational achievement, social 
isolation, homelessness and lack of adequate resources, and other 
psychological problems such as depression or substance use disorders. 
Vet Centers also provide military-related sexual trauma counseling, 
bereavement counseling, employment counseling and job referrals, 
preventive health care information, and referrals to other VA and non-
VA medical and benefits facilities.
    The Vet Center program promotes early intervention and ease of 
access to services by helping combat Veterans and families overcome all 
barriers of care. To facilitate access to services for Veterans in hard 
to reach outlying areas, 50 mobile Vet Centers have been deployed 
across the country to provide assistance to Veterans, military service 
personnel, and family members. There are currently 267 operational Vet 
Centers nationwide, with another 33 expected to open in 2011, for a 
total of 300.
    In addition to the wide range of services and increased 
accessibility for Veterans to access these services, Vet Centers 
provide assistance and support for combat Veterans through referrals to 
other agencies. Section 402 of the Caregivers and Veterans Omnibus 
Health Services Act of 2010 (Public Law 111-163) provides VA the 
authority to assist Veterans with problematic discharges through 
referral to services outside VA or referral for assistance with 
discharge upgrades when appropriate. Until 1996, VA had specific 
statutory authority to refer ineligible Veterans to non-VA resources 
and to advise such individuals of the right to apply for review of the 
individual's discharge or release. With this renewal, the Vet Centers 
have the authority to help combat Veterans with problem discharges that 
may be related to traumatic war-time stress. We appreciate the renewal 
of this provision, and VA has advised its readjustment counselors that 
they should provide such help to Veterans when needed.
Conclusion
    Thank you again for this opportunity to speak about VA's role in 
providing care for all our Veterans, including those with personality 
disorders, PTSD, or TBI. VA recognizes the sacrifice all of our 
Veterans have made, and we seek to ensure we offer the right diagnosis 
in all clinical settings, whether for a compensation and pension 
examination or as part of a standard mental health assessment and 
treatment plan. Once a Veteran is enrolled in the VA health care 
system, it does not matter when or where the condition developed; we 
will deliver appropriate, Veteran-centered care as set forth in the 
medical benefits package. We are prepared to answer your questions at 
this time.
                                 <F-dash>
  Statement of Amy Fairweather, Policy Director, Swords to Plowshares

    Thank you Chairman Filner, Congressman Buyer and the members of the 
House Veterans Affairs Committee for the opportunity to submit 
testimony on this important topic; Personality Disorder discharges and 
their impact on our veterans.
    Founded in 1974, Swords to Plowshares is a community-based not-for-
profit organization that provides counseling and case management, 
employment and training, housing and legal assistance to homeless and 
low-income veterans in the San Francisco Bay Area. We promote and 
protect the rights of veterans through advocacy, public education, and 
partnerships with local, state and national entities. Swords to 
Plowshares is a Congressionally recognized Veteran Service Organization 
which represents veterans in VA Compensation and Pension claims as well 
as discharge review matters. As such we have represented many veterans 
who have unjustly received inappropriate personality disorder (PD), 
adjustment disorder (AD) and pattern of misconduct discharges and been 
denied treatment for their PTSD.
    The purpose of this testimony is to emphasize how the inappropriate 
use of personality disorder, adjustment disorder and pattern of 
misconduct impact our veteran clients on the ground. Such discharges 
have a tremendously negative impact on our veteran clients. We will not 
go into data on a broader scale as our colleagues at Veterans for 
Common Sense have done an excellent job framing the issues. Instead, we 
can tell you that client after client with PTSD and traumatic brain 
injury and inappropriate PD discharges come to us feeling that they 
have been branded as damaged goods, their combat service has been 
invalidated, and their identity and self worth as once proud warriors 
destroyed. The fallout can be tragic, this practice exacerbates PTSD, 
depression, homelessness and suicidally, and creates obstacles to 
employment, and access to health care and benefits.
    At Swords to Plowshares we have 35 years experience in picking up 
the pieces and pulling our Vietnam era clients out of poverty, and 
chronic homelessness, mental health need and substance abuse stemming 
from their military service. We hope that we have learned lessons and 
may be proactive, prevent future homelessness and suffering by ensuring 
that this generation of combat veterans are afforded the honor, care 
and support they need for successful outcomes.
    The following are some of our observations regarding personality 
disorder, adjustment disorder and pattern of misconduct discharges for 
veterans with PTSD, TBI and other mental health needs.
                       The Impact of Misdiagnosis
    Many of our clients served honorably and without any disciplinary 
or mental health concerns for several years prior to receiving a 
personality disorder or adjustment disorder discharge. Unlike PTSD, 
schizophrenia and psychosis, personality disorder does not develop 
following a traumatic stressor or deployment. It does not manifest 
suddenly. Instead it is a pre-existing condition and was allegedly 
present at the time the servicemember joined the military. If the 
servicemember had a pre-existing personality disorder which led to such 
a discharge it should have been identifiable in the preceding years of 
service. Indeed, it should be identified in boot camp or A school. We 
are seeing and hearing from veterans who have been diagnosed with 
personality disorder after multiple deployments. The military is simply 
not following the diagnostic criteria set forth in the DSM-IV, and its 
failure to do so should not forever punish former servicemembers.
    The DoD is shirking their responsibility to treat PTSD to the VA 
and the community-based system of care. If these servicemembers were 
properly and legally discharged they should receive medical retirement, 
an honorable discharge, a 50 percent disability rating and medical 
care. Instead they are kicked out of the military with a less than 
honorable discharge status with no readily available means of support 
or health care. Veterans come to Swords to Plowshares in financial and 
psychological crisis, many believe that they are not eligible for VA 
care and benefits because personality disorder, as a pre-existing 
condition is not service connectable. Even with the help of our legal 
and social services staff, this status causes significant delays in 
care, causing unnecessary exacerbation of their symptoms. The cost of 
care should never have been externalized to our communities. Further 
the cost in suffering, poverty, and the shame inflicted on warriors is 
immeasurable.
    The DoD is taking advantage of vulnerable disabled servicemembers. 
Many of our clients have signed away their right to a just and proper 
discharge because they are suffering from PTSD or TBI and cannot bear 
remaining in the military environment. Some because their PTSD and 
depression are too acute, others because of the stigma and mistreatment 
they receive in seeking care. In other cases, their symptoms have led 
to some diminished capacity which interferes with performance or have 
engaged in some degree of misconduct symptomatic of their true 
diagnosis and are being met with discipline rather than care. These 
servicemembers will sign anything to escape a hostile environment and 
do not have the capacity for informed consent in signing away their 
right to a proper medical discharge.
    Personality, adjustment and pattern of misconduct discharges can 
unjustly strip veterans of their GI Bill benefits. A personality 
disorder discharge in itself is not a bar to benefits however, in our 
experience; they often arise in the context of a pattern of misconduct 
and disciplinary action. If the veteran received an other than 
honorable discharge they are barred from the GI Bill benefits. This 
unjustly throws more obstacles in their path to healing, employment, 
housing and economic stability.
    To assign a PD, AD or BCD discharge to a mentally ill warrior is a 
devastating betrayal. It is a cruel injustice to servicemembers who 
have served their country for some years, deployed to combat, been 
exposed to trauma and injury, witnessed the deaths of friends, and 
struggled with the demons of PTSD. Rather than honoring their service 
and healing their wounds, the military with which they have identified 
and sacrificed for has labeled them `crazy' and sent them packing. This 
overwhelming psychic blow to our clients cannot be overstated. The 
military is a not just a job, it is an all-encompassing culture of its 
own, and these injured veterans are in essence banished from society.
    There is virtually no access to justice for disabled veterans who 
have illegally and unjustly received PD, AD and BCD discharge. There 
are very very few attorneys who specialize in discharge upgrades and 
corrections. And only a handful in the country that provide this 
service free of charge. Our own funding for discharge review has been 
cut back and we have had to severely restrict our client representation 
in these matters. Without competent affordable representation too many 
combat veterans will fall into a life of chronic mental illness, 
poverty and homelessness due to the military's illegal and inexcusable 
mistreatment of wounded servicemembers.
    In closing, we urge the HVAC committee will ensure that 
servicemembers with mental health needs receive appropriate discharges 
and streamlined access to all the benefits and care they have earned. 
To that end, we fully concur with the recommendations of Veterans for 
Common Sense.
                   MATERIAL SUBMITTED FOR THE RECORD

                                         U.S. Department of Defense
                                         Under Secretary of Defense
                                            Personnel and Readiness
                                                    Washington, DC.
                                                 September 10, 2010

MEMORANDUM FOR SECRETARIES OF THE MILITARY DEPARTMENTS

SUBJECT:  Continued Compliance Reporting on Personality Disorder (PD) 
        Separations
Reference:  USD (P&R) Memorandum, dated January 14, 2009

    In October 2008, the Government Accountability Office released a 
report titled, Additional Efforts Needed to Ensure Compliance with 
Personality Disorder Separation Requirements, which found that the 
Military Departments were not wholly compliant with DoD personality 
disorder separation guidance contained in DoD Instruction 1332.14, 
Enlisted Administrative Separations. The Department endorsed the 
subsequent recommendation that DoD review compliance on a regular 
basis.
    In January 2009, the Military Departments were directed (reference) 
to provide a report on compliance with DoD PD separation guidance 
contained in DoDI 1332.14 for PD separations during fiscal year (FY) 
2008 and FY 2009. While improvement has occurred, it is clear that 
compliance reporting should continue through FY 2012. Your report is 
due by March 31 of the year following the close of the FY.
    The report provided shall be based, at a minimum, on a random 
sampling of at least 10 percent of all PD separations for your 
respective Military Department for the designated FY. Each case file 
sampled shall be checked for compliance with the DoD requirements 
listed in the attached document titled, ``DoD Personality Disorder 
Separation Requirements.'' Additionally, the report shall include the 
total number of PD separations for the applicable FY and the total 
number of PD separations of Servicemembers who had served in imminent 
danger pay areas since September 11, 2001.
    If a Military Department finds that compliance with any DoD PD 
separation requirement is less than 90 percent, then the report shall 
also contain the Military Department's plan for correcting compliance 
deficiencies.
    We owe special care to those Servicemembers who have deployed in 
support of a contingency operation since September 11, 2001, and were 
later administratively separated for a personality disorder, regardless 
of years of service, without completing the enhanced screening 
requirements for Post-Traumatic Stress Disorder (PTSD) and Traumatic 
Brain Injury (TBI). Our knowledge in these areas has evolved 
significantly and we need to make every effort to ensure our veterans 
are advantaged by the latest medical knowledge in this area.
    Accordingly, I am directing that your FY 2010 Compliance Report on 
Personality Disorder Separations include actions taken to: (1) identify 
these discharged Servicemembers; (2) inform them of the correction of 
discharge characterization process; (3) inform them on how to obtain a 
mental health assessment through the Department of Veterans Affairs; 
and (4) identify these individuals to the Department of Veterans 
Affairs
    If you should have any questions regarding this matter, please 
contact my action officer, Michael Pachuta, at (703) 695-6461 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a2cfcbc1cac3c7ce8cd2c3c1cad7d6c3e2cdd1c68ccfcbce8c">[email&#160;protected]</a>

                                                Clifford L. Stanley
Attachment:
As stated

cc:
ASA (M&RA)
ASN(M&RA)
SAF(MR)

                                <greek-l>E
                               LIMINATE 
                               BAD 
                               BREAK deg.
         DoD Personality Disorder (PD) Separation Requirements
    All references listed refer to DoD Instruction 1332.14, Enlisted 
Administrative Separations, August 28, 2008.

    <bullet>  Member received formal counseling and was afforded 
adequate opportunity to improve his or her behavior prior to being 
separated on the basis of PD (Ref: Paragraph 3.a.(8)(a)).
    <bullet>  Member's PD diagnosis was made by a psychiatrist or 
Ph.D.-level psychologist (Ref: Paragraph 3.a.(8)(c)).
    <bullet>  The PD diagnosis included a statement or judgment from 
the psychiatrist or Ph.D.-level psychologist that the Servicemember's 
disorder was so severe that the member's ability to function 
effectively in the military environment was significantly impaired 
(Ref: Paragraph 3.a.(8)(c)).
    <bullet>  Member received written notification of his or her 
impending separation based on PD diagnoses (Ref: Paragraph 3.a.(8)(f) 
and Enclosure 6, Paragraph 2.a).
    <bullet>  Member was advised that the diagnosis of a personality 
disorder does not qualify as a disability (ref: Paragraph 3.a.(8)(a))--
(only required for PD separations after August 28, 2008).
    <bullet>  For Servicemembers separated on the basis of PD who 
served in imminent danger pay areas (only required for PD separations 
after August 28, 2008).

        <ctr-circle>  Member's PD diagnosis was corroborated by a peer 
        psychiatrist or Ph.D.-level psychologist or higher level mental 
        health professional (Ref: Paragraph 3.a.(8)(c)).
        <ctr-circle>  Member's PD diagnosis addressed Post-Traumatic 
        Stress Disorder (PTSD) or other mental illness co-morbidity 
        (Ref: paragraph 3.a.(8)(c)). (NOTE: According to paragraph 
        3.a.(8)(d), unless found fit for duty by the disability 
        evaluation system, a separation for PD is not authorized if 
        Service-related PTSD is also diagnosed.)
        <ctr-circle>  Member's PD diagnosis was endorsed by The Surgeon 
        General of the Military Department concerned prior to discharge 
        (Ref: Paragraph 3.a.(8)(c)).

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                 September 21, 2010

Joshua Kors
Reporter
The Nation.
190 E. 7th Street, Suite 503
New York, NY 10009

Dear Joshua:

    In reference to our Full Committee hearing entitled ``Personality 
Disorder Discharges: Impact on Veterans' Benefits,'' that took place on 
September 15, 2010, I would appreciate it if you could answer the 
enclosed hearing questions by the close of business on October 29, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman

CW:ds

                                <greek-l>E
                               LIMINATE 
                               BAD 
                               BREAK deg.
                       Responses from Joshua Kors

    Question 1: Of the 22,600 servicemembers who have been discharged 
with personality disorder, how many do you believe are due to improper 
diagnosis?

    Response: All of them. A personality disorder discharge is a 
contradiction in terms. Applicants with a severe mental illness like a 
personality disorder do not pass the military's rigorous screening and 
are not accepted into the Army. . . . My years of reporting on this 
problem further indicate how the diagnosis/discharge are being used, 
applied to thousands of soldiers only after they suffer physical 
injuries from combat. These are soldiers deemed perfectly healthy in 
multiple screenings, many of whom even served in multiple combat tours.
    Worth mentioning that the recent hearing revealed that the current 
count of fraudulent PD discharges since 2001 is now over 25,500 
soldiers. The 22,600 figure went through 2007. In his testimony, the 
Army's acting director of Officer/Enlisted Personnel Management, Lernes 
Hebert, provided the numbers for recent discharges. (Note: I'll have to 
go back and look at the tape, but I'm curious to see whether Hebert 
just gave the number of post-2007 Army PD discharges. In which case, he 
was really giving one-quarter of the true PD discharge figure, as the 
fraudulent discharges are spread equally through all four branches.)
    For further info on PD discharge stats: www.joshuakors.com/
statistics.

    Question 2: What recommendations do you have for DoD in correcting 
the wrongful diagnosis of personality disorders? Do you believe that 
DoD should eliminate personality disorder discharges altogether or find 
alternative, rigorous means of validating personality disorders? Please 
explain.

    Response: The ``personality disorder discharge'' should certainly 
be eliminated altogether. It has no honest purpose, existing solely to 
rapidly discharge wounded soldiers and deny them benefits. Even the 
staunchest defenders of PD discharges--and I have met very few in my 
3.5 years of speaking with military personnel on this topic--would say 
that after a soldier has been deployed and suffers a clear physical 
wound (broken bones, aural damage, Traumatic Brain Injury) or notable 
psychological injury (like shell shock/PTSD) and can no longer serve, 
the honest thing to do is chapter them out for those injuries. In each 
case I've looked at, the military then claims this pre-existing mental 
illness, on soldiers who had been perfectly healthy, with no proof 
presented that a mental illness did indeed exist before the soldier 
joined the Armed Forces.

    Question 3: When speaking with military doctors, how prevalent do 
you believe the pressure is to purposely misdiagnose wounded soldiers 
with personality disorders?

    Response: It's a great question, and it's very hard to say, since 
military doctors are so afraid to speak out. As Sergeant Luther learned 
this week, speaking out has severe consequences for them and their 
family.
    Of course, you have obvious examples of that pressure, like the 
Perez memo (www.joshuakors.com/perezmemo), in which Norma Perez, former 
coordinator of the PTSD program at the VA hospital in Temple, Texas, 
urged the doctors under her command to guard against ``compensation 
seeking veterans'' by diagnosing pre-existing conditions. And the Knorr 
memo (www.joshuakors.com/part2#knorrmemo), in which Colonel Steven 
Knorr, chief of Fort Carson's Behavioral Health unit, posted a memo to 
his doctors urging them not to ``believe everything Soldiers tell us'' 
about their injuries and instead move to a rapid discharge, like a PD 
discharge. In the words of his memo: ``Get rid of dead wood.''
    An indication of how ``mainstream'' those views are within the 
military is the fact that for the first PD discharge review, former 
Army Surgeon General Gale Pollock tapped Knorr--and only Knorr--to do 
the review: www.joshuakors.com/part2#
SGreview. Further reporting revealed that in the Knorr/Surgeon General 
5-month ``thoughtful and thorough'' review, to determine that all the 
soldiers were suffering from severe, pre-existing mental illness, they 
interviewed no one, not even the soldiers whose cases they were 
reviewing. As with the Pentagon review 3 years later, the Knorr/Surgeon 
General review determined that all soldiers had been properly diagnosed 
and all had been properly discharged, even the soldiers' whose cases 
they couldn't even find (www.joshuakors.com/part2#lostcases).
    Then again, the doctors who spoke with me about being pressured to 
misdiagnose wounded soldiers weren't even at these two facilities. I 
think of the military doctor who worked far from Colorado (Fort Carson) 
and Texas (Perez's VA facility) and was pressured to diagnose the 
soldier with a chunk missing from his leg as suffering from a 
personality disorder--an indication of how widespread this is, a reason 
why the fraudulent discharge figures are so high.
    Finally I would say that my sense is, after reporting on this for 
several years, that this pressure on doctors is simply part of the 
military culture. I think of the VA's manual for its doctors, which 
advises doctors not to trust soldiers' reports of their own wounds 
because injuries like shell shock are ``relatively easy to fabricate.'' 
When you're instructing doctors to begin with that mindset, suspecting 
dishonesty from wounded soldiers, it's not too far from there to arrive 
at ``personality disorder'' as the diagnosis.

    Question 4: Beyond personality disorder discharges, have you 
observed a problem with DoD wrongfully using ``adjustment disorder'' 
and ``pattern of misconduct'' discharges?

    Response: Yes. As Paul Sullivan, director of Veterans for Common 
Sense, testified at the hearing, from the cases he's seeing, 
``adjustment disorder'' is becoming the new PD. Of course, adjustment 
disorder is just another phony pre-existing condition that prevents 
benefits, so we're talking about the same trick with only a small 
change in the language. (The Perez memo actually uses the term 
``Adjustment Disorder.'') Needless to say, yes, I've seen pre-existing 
``adjustment disorder'' diagnoses too, and yes, they do screen for that 
mental condition as well before applicants are accepted into the 
military.
    As for ``pattern of misconduct,'' so many of these soldiers fall 
into immediate trouble when they're faced with these fraudulent 
discharges, get stressed, and smoke some marijuana or lose their temper 
and punch someone. You'll recall Major Wehri, Luther's commander, in my 
recent article speaking about Luther's attempted escape from his closet 
and how, in the ensuing ruckus, Luther bit one of his guards and spit 
in the face of the aid station chaplain. Wehri said his pushing Luther 
to sign the PD discharge papers was truly an act of kindness. ``With 
Luther's biting and spiting,'' he said, ``I could have court-martialed 
him out right there for failure to perform in a military manner.''
    If Luther, like so many others in his shoes, did end up receiving 
that dishonorable discharge, it would have meant a whole new batch of 
devastating consequences.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                 September 21, 2010

Thomas J. Berger, Ph.D.
Executive Director, Veterans Health Council
Vietnam Veterans of America
8719 Colesville Road
Silver Spring, MD 20910

Dear Tom:

    In reference to our Full Committee hearing entitled ``Personality 
Disorder Discharges: Impact on Veterans' Benefits,'' that took place on 
September 15, 2010, I would appreciate it if you could answer the 
enclosed hearing questions by the close of business on October 29, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax your responses at 202-225-2034. If you have any 
questions, please call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman

CW:ds

                                <greek-l>E
                               LIMINATE 
                               BAD 
                               BREAK deg.
                        Veterans Health Council
      Improving Veterans Health through Information and Education




To:                                The Honorable Bob Filner, Chair, U.S.
                                    House of Representatives Committee
                                    on Veterans' Affairs

From:                              Thomas J. Berger, Ph.D., Executive
                                    Director, Veterans Health Council
                                    Vietnam Veterans of America

Date:                              October 29, 2010



    Question 1: What recommendations do you have for DoD in correcting 
the wrongful diagnosis of personality disorder? Do you believe that DoD 
should eliminate personality disorder discharges altogether or find 
another alternative rigorous means of validating personality disorder 
discharges?

    Response: First, we at Vietnam Veterans of America remain skeptical 
of the claims by both DoD and the individual military services that 
each of the 22,600 personality disorder discharges reported back in 
2007 were, in fact, reviewed appropriately to determine the possibility 
of a misdiagnosis. Our skepticism was bolstered by the October 2008 GAO 
report and the testimony presented by GAO Director Dr. Draper before 
the HVAC on September 15, 2010 that ``only 40 to 78 percent'' of the 
reviews of service jackets for ``312 members separated for personality 
disorder from four military installations'' were not compliant with the 
regulations governing such separations. In addition, after the GAO 
report was issued in 2008, the number of personality disorder 
discharges dropped by 75 percent, while the number of PTSD diagnoses 
soared. Thus, there is no reason to believe the number of personality 
disorder discharges would decrease so quickly unless hundreds of 
military personnel had been misdiagnosed in the first place.
    Secondly, VVA believes that the military services, with the Army in 
particular, may now be using different administrative designations--
``adjustment disorder'' and/or ``readjustment disorder''--to 
erroneously discharge members of the Armed Forces who are experiencing 
symptoms of Post-traumatic Stress Disorder (PTSD) or Traumatic Brain 
Injury (TBI), instead of making sure they can receive the mental health 
medical care worthy of their service and sacrifice.
    Because of these concerns, VVA and the Jerome N. Frank Legal 
Services Organization at the Yale School of Law have filed a FOIA 
request with DoD and each military service (including National Guard) 
to provide the records and demographic details of all personality 
disorder discharges, adjustment disorder discharges and readjustment 
disorder discharges from October 2001 through October 2010 (see 
attached letter to the Air Force). This FOIA request is a more detailed 
complement to the October 15, 2010 request from Senators Bond, 
Brownback, Grassley, and Leahy to Secretary Gates for information about 
the use of personality disorder discharges (see attached letter from 
U.S. Senate).
    As a result, As a result, VVA suggests that a review of the FOIA 
information should take place before making a recommendation to keep or 
eliminate the personality disorder discharge altogether.

    Question 2: In your view, does VA do a good job of ensuring that 
veterans who have been inappropriately discharged with a personality 
disorder discharge are correctly diagnosed and provided the appropriate 
care and benefits?

    Response: According to the statement of the VA's Acting Deputy 
Chief of Patient Care Services, Dr. Antoinette Zeiss, at the September 
15, 2010 HVAC hearing, ``A separation resulting from a reported 
personality disorder is of potential significance to VA only if it 
results in a separation that is less than honorable or if it results in 
a separation before completion of the minimum active duty requirement. 
Veterans are not bound by any diagnosis from the Department of Defense 
(DoD) when seeking treatment from VA or when submitting a claim for 
service connection.'' However, VVA does not know how many ``veterans 
who have been inappropriately discharged with a personality disorder'' 
have been subsequently ``correctly diagnosed and provided the 
appropriate care and benefits''. So VVA and the Jerome N. Frank Legal 
Services Organization at the Yale School of Law have also filed a FOIA 
request with the VA to provide the records and demographic details of 
inappropriate personality disorder discharges handled by VA's mental 
health services.

                               __________
                    The Jerome N. Frank Legal Services Organization
                                                    Yale Law School
                                                     New Haven, CT.
                                                   October 22, 2010

U.S. Air Force
HAF/ICIOD
1000 Air Force Pentagon
Washington, DC 20330-1000

Re: Freedom of Information Act Request

Dear FOIA Officer:

    Pursuant to the Federal Freedom of Information Act, 5 U.S.C. 
Sec. 552, we request access to and copies of records \1\ in possession 
of the Air Force (and all its component offices). These records are 
requested by the Veterans Legal Services Clinic at the Jerome N. Frank 
Legal Services Organization on behalf of Vietnam Veterans of America 
and Connecticut Greater Hartford Chapter 120 of Vietnam Veterans of 
America (``Requesters''). This letter requests all records related to 
the use by the United States Air Force (``Air Force'') \2\ of 
personality disorder discharges and adjustment disorder or readjustment 
disorder discharges to separate members of the Air Force \3\ from 
service since October 1, 2001.
---------------------------------------------------------------------------
    \1\ The term ``records'' as used herein, includes all records or 
communications preserved in electronic or written form, including but 
not limited to correspondence, documents, data, videotapes, audio 
tapes, emails, faxes, files, guidance, guidelines, evaluations, 
instructions, analyses, memoranda, agreements, notes, orders, policies, 
procedures, protocols, reports, rules, technical manuals, technical 
specifications, training manuals, or studies.
    \2\  The terms ``United States Air Force'' or ``Air Force,'' as 
used in this letter, refers to the Air Force and any subcomponents of 
that branch of service including, but not limited to, the Reserves.
    \3\  The terms ``servicemembers'' or ``members of the Air Force,'' 
as used in this letter, refer to officers and enlisted members of the 
Air Force, and includes both active duty members and reservists.
---------------------------------------------------------------------------
    These records include, but are not limited to:

     1.  Any records containing information indicating the total number 
of servicemembers of the Air Force from October 1, 2001, through the 
present time who have been separated from the Air Force on the basis of 
a personality disorder, adjustment disorder, or readjustment disorder, 
including information indicating the number of these servicemembers who 
were deployed as part of Operation Iraqi Freedom, Operation Enduring 
Freedom, and/or Operation New Dawn; information indicating the number 
of these servicemembers who served multiple tours in Operation Iraqi 
Freedom, Operation Enduring Freedom, and/or Operation New Dawn; 
information indicating the number of these servicemembers who served on 
aircraft carriers deployed in support of Operation Iraqi Freedom, 
Operation Enduring Freedom, and/or Operation New Dawn. Where possible, 
records breaking down this information into the following categories 
should also be provided:

         <bullet>  Indicating the number of such discharges given to 
        active duty servicemembers and reservist servicemembers 
        respectively.
         <bullet>  By number of enlisted servicemembers and number of 
        officers.
         <bullet>  By year, whether by fiscal year or calendar year.
         <bullet>  By gender.
         <bullet>  By whether or not servicemembers served multiple 
        tours in Operation Iraqi Freedom, Operation Enduring Freedom, 
        and/or Operation New Dawn.

     2.  Any records containing information indicating the total number 
of members of the Air Force, broken down by year and rank, if 
available, or combined if not available, from October 1, 2001, through 
the present time, who have been separated from the Air Force on the 
basis of an administrative discharge for the convenience of the 
government.
     3.  Any record identifying which types of personality disorder, 
adjustment disorder, and/or readjustment disorder have been used as the 
basis for personality disorder, adjustment disorder, or readjustment 
disorder separations of members of the Air Force from October 1, 2001, 
to the present.
     4.  Any reports, documents, memoranda, or the like prepared, 
issued, submitted, or otherwise produced by the Air Force from January 
1,2008 to the present regarding compliance with the Department of 
Defense personality disorder separation requirements \4\ and any record 
containing information regarding these reports.
---------------------------------------------------------------------------
    \4\  See Department of Defense, Instruction No. 1332.14 
Sec. (3)(a)(8)(b) (Aug. 28, 2008).
---------------------------------------------------------------------------
     5.  All records relating to claims made by the Air Force or any of 
its component parts regarding the accuracy of the personality disorder 
discharges made before 2008, including, but not limited to all records 
(e.g., interviews with family members) relied on by the Air Force in 
reaching these conclusions and all records regarding the methodology 
used.
     6.  Any and all memoranda, manuals, guidance or other record, in 
effect at any time from October 1, 2001, to the present, containing 
information regarding the policies governing the administrative 
separation of members of the Air Force based on personality disorder, 
adjustment disorder, or readjustment disorder.
     7.  Any record containing information regarding measures 
implemented from October 1, 2001, to the present to ensure that members 
of the Air Force who should be evaluated for disability separation or 
retirement due to mental health conditions are not processed for 
separation from the Air Force on the basis of a personality disorder, 
an adjustment disorder, or a readjustment disorder.
     8.  Any record containing information regarding whether members of 
the Air Force who were discharged on the basis of a personality 
disorder, an adjustment disorder, or a readjustment disorder since 
October 1, 2001, have been allowed access to service-connected 
disability compensation, pension benefits, and health care; and an 
identification of the various forms of personality, adjustment, or 
readjustment disorders forming the basis for such separations.
     9.  Any record containing information regarding any evaluation, 
review, or other assessment since October 1, 2001 of the adequacy of 
policies controlling administrative separations of members of the Air 
Force for ensuring that covered members of the Air Force who may be 
eligible for disability evaluation due to other mental health 
conditions are not separated from the Air Force on the basis of 
personality disorder, adjustment disorder, or readjustment disorder.
    10.  Any record containing information regarding measures 
implemented since October 1, 2001, to ensure that members of the Air 
Force who should be evaluated for disability separation or retirement 
due to other mental health conditions are not processed for separation 
from the Air Force on the basis of a personality disorder, an 
adjustment disorder, or a readjustment disorder.
    11.  Records relating to any application for a discharge upgrade or 
record correction submitted by any former servicemember who received a 
personality disorder, adjustment disorder, or readjustment disorder 
discharge after October 1, 2001, including but not limited to the total 
number of servicemembers who have submitted such petitions to the Air 
Force Review Board, or to the Board of Correction of Military Records 
of any service branch; the number of petitions that have been granted; 
the number that have been appealed, whether appealed to the Board of 
Correction of Military Records or to a U.S. District Court, after their 
initial application for a discharge upgrade was denied; the judicial 
districts in which such appeals were brought; and the city and state 
where any veteran seeking such a discharge upgrade resides.

    Requesters request that any records that exist in electronic form 
be provided in electronic format on a compact disc. If this information 
is not available in a succinct format, we request the opportunity to 
view the records in your offices.
    Requesters agree to pay search, duplication, and review fees up to 
$100. If the fees amount to more than $100, requesters request a fee 
waiver pursuant to \5\ U.S.C. Sec. 552(a)(4)(A)(ii)(II) and 
(a)(4)(A)(iii), as the information is not sought for commercial uses 
and its disclosure is in the public interest, because it is likely to 
contribute significantly to public understanding of the operations and 
activities of the government and is not in the commercial interest of 
the requester. If the request is denied in whole or in part, please 
justify all deletions by reference to the specific exemptions of the 
Act. In addition, please release all segregable portions of otherwise 
exempt material. We reserve the right to appeal your decision to 
withhold any information or to deny a waiver of fees.
---------------------------------------------------------------------------
    \5\  The Department of Defense's regulations related to the Freedom 
of Information Act ``take[ ] precedence over all DoD Component 
publications that supplement and implement the DoD FOIA Program.'' 32 
CFR Sec. 286.1 (b).
---------------------------------------------------------------------------
    FOIA's legislative history makes clear that the ``fee waiver 
provision . . . is to be liberally construed in favor of waivers for 
non-commercial requesters.'' Fed. Cure v. Lappin, 602 F. Supp. 2d 
197,201 (D.D.C. 2009) (internal quotation marks omitted). Department of 
Defense (DoD) FOIA regulations (which apply to all DoD Components 
explain that a fee waiver will be granted where ``disclosure of the 
information is in the public interest because it is likely to 
contribute significantly to public understanding of the operations or 
activities of the Government,'' and ``is not primarily in the 
commercial interest of the requester.'' 32 CFR Sec. 286.28(d)(3)(i), 
(ii).
    To determine whether disclosure is in the public interest because 
it is likely to contribute significantly to public understanding of the 
operations or activities of the Government, DoD regulations look to: 
(i) The subject of the request; (ii) The informative value of the 
information to be disclosed; (iii) The contribution to an understanding 
of the subject by the public likely to result from disclosure; and (iv) 
The significance of the contribution to public understanding. 32 CFR 
Sec. 286.28(d)(3)(i)(A-D).
    The subject of requesters' request certainly ``involves issues that 
will significantly contribute to the public understanding of the 
operations or activities of the Department of Defense.'' 32 CFR 
Sec. 286.28(d)(3)(i)(A). The records requested concern how (and how 
often) DoD and its Components determine that a soldier merits a 
personality disorder, adjustment disorder, or readjustment disorder 
discharge; the methodology by which DoD determined that only two of . . 
. the nearly 30,000 soldiers discharged since 2001 with personality 
disorder were designated incorrectly; and how DoD responds to requests 
for personality disorder or adjustment or readjustment disorder 
discharge upgrades. All these issues are integral to public 
understanding of governmental operations and activities.
    The information which requesters seek has significant informative 
value because it is ``meaningful'' and ``shall inform the public on the 
operations or activities of the Department of Defense.'' 32 CFR 
Sec. 286.28(d)(3)(i)(B). DoD has refused to fully explain, on a case-
by-case basis, the methodology by which it determined that nearly 
30,000 soldiers had a ``personality disorder,'' and the methodology by 
which it later determined that only two of these soldiers were 
diagnosed incorrectly. DoD's decision to release the number of soldiers 
who were discharged with personality disorder between 2001 and 2007 and 
to discuss its official policies related to these discharges did not 
provide the public with the meaningful information necessary to 
understand the way in which DoD determined, on a case-by-case basis, 
whether soldiers had personality disorder.\6\ The disclosure of the 
requested records will enable the public to verify DoD's 
unsubstantiated statements that nearly all personality disorder 
discharges between 2001 and 2006 were appropriate.\7\ Disclosure is 
particularly meaningful because the public remains unaware of whether 
DoD has misused personality disorder discharges, how DoD polices its 
own discharge policies in practice, and whether disabled veterans 
continue to be unjustly denied the benefits they are due by virtue of 
their service to the Nation while in uniform. In addition, the public 
does not know whether adjustment disorder or readjustment disorder 
discharges have increased in the past few years, let alone whether DoD 
and its Components have been using adjustment or readjustment disorder 
discharges inappropriately.
---------------------------------------------------------------------------
    \6\ See Office of the Under Secretary of Defense, Report to 
Congress on Administrative Separations Based on Personality Disorder 
(2008) [hereinafter DoD, 2008 Report].
    \7\  Anne Flaherty, Advocates See Trouble for Misdiagnosed 
Soldiers, Associated Press, Aug. 15, 2010, available at http://
abcnews.go.com/Politics/wireStory?id=11404572.
---------------------------------------------------------------------------
    Disclosure of the requested records will contribute to an 
understanding of the subject by the general public, rather than simply 
informing ``the individual requester or small segment of interested 
persons.'' 32 CFR Sec. 286.28(d)(3)(i)(C). Vietnam Veterans of America 
(VVA) is a highly respected 32-year-old nonprofit organization with 
60,000 members and 635 chapters nationwide.\8\ VVA's legislative 
efforts have led to the establishment of the Vet Center system and the 
passage of legislation assisting veterans with job training and job 
placement, assisting Agent Orange victims, and permitting veterans to 
challenge adverse VA decisions in court.\9\ Connecticut Greater 
Hartford Chapter 120 is a 27-year-old chapter of VVA.\10\
---------------------------------------------------------------------------
    \8\  A Short History of VVA, Vietnam Veterans of America, http://
www.vva.orglhistory.html (last visited Sept. 29, 2010).
    \9\  Id.
    \10\  VVA Connecticut Chapter 120, http://www.vvaI20.org/ (last 
visited Sept. 29, 2010).
---------------------------------------------------------------------------
    Requesters' research will involve determining, on a case-by-case 
basis, why and how DoD discharged soldiers on the basis of personality 
disorder, adjustment disorder, and readjustment disorder; whether these 
diagnoses were inaccurate and improper; and the methodology by which 
DoD determined that all but two of these discharges had been 
appropriate. This information will be used to inform the public whether 
DoD has unjustly denied disabled veterans the benefits they deserve, 
and to enable the public to prevent DoD from misusing personality 
disorder and adjustment or readjustment disorder discharges in the 
future. The general public is highly interested in this issue. The 
Nation \11\ and The Associated Press \12\ have recently published 
articles on personality disorder and adjustment disorder discharges for 
popular consumption. In addition, Congress has responded to public 
discontent by holding a hearing on personality disorder discharges.\13\ 
VVA is immensely capable of disseminating its findings to the public. 
VVA continuously produces publications related to veterans' health and 
government affairs, and disseminates these publications via mail and on 
its Web site.\14\ In addition, VVA has a long history of working with 
the media and testifying at Congressional hearings in order to 
publicize information and issues.\15\ VVA plans to disseminate its 
research on personality disorder and adjustment disorder discharges via 
publications, work with the media, and attendance at Congressional 
hearings.
---------------------------------------------------------------------------
    \11\  Joshua Kors, Disposable Soldiers: How the Pentagon Is 
Mistreating Wounded Vets, NATION, Apr. 26, 2010, at 11.
    \12\  Flaherty, supra note 7.
    \13\  Personality Disorder Discharges: Impact on Veterans' 
Benefits, House Committee on Veterans' Affairs, http://
veterans.house.govihearingsihearing.aspx?newsid=622 (last visited Sept. 
29, 2010).
    \14\  VVA Publications, Vietnam Veterans of America, http://
www.vva.orglbrochures.html (last visited Sept. 29, 2010).
    \15\  A Short History of VVA, supra note 8.
---------------------------------------------------------------------------
    Disclosure of the requested records will ``lead to a significant 
understanding of the issue'' of personality disorder and adjustment 
disorder discharges, and will ``be unique in contributing unknown 
facts, thereby enhancing public knowledge.'' 32 CFR 
Sec. 286.28(d)(3)(i)(D). DoD's use of adjustment disorder discharges is 
completely unknown to the public. And DoD has kept the public in the 
dark about how, in practice and on a case-by-case basis, it determined 
that nearly 30,000 soldiers should be discharged with personality 
disorder. The public knowledge of the number of personality disorder 
discharges between 2001 and 2007 and of DoD's official policies related 
to personality disorder discharges is worthless unless the public gets 
to look at the ways in which DoD actually dealt with real soldiers on a 
case-by-case basis.\16\ Yet DoD continues to conceal the procedures and 
processes by which it determined that soldiers had personality disorder 
and the methodology by which it determined that all but two of these 
discharges were appropriate.
---------------------------------------------------------------------------
    \16\  DoD, 2008 Report, supra note 6.
---------------------------------------------------------------------------
    DoD's refusal to admit that the overwhelming number of the 
discharges were inappropriate is shocking in light of the fact that the 
number of personality disorder discharges has dramatically decreased 
since DoD released its report at the behest of Congress in 2008.\17\ 
The public has a right to know whether DoD is unjustly preventing the 
disabled veterans who defended their country from receiving veterans 
benefits. Only if the public fully understands how DoD uses personality 
disorder and adjustment or readjustment disorder discharges will it be 
able to prevent misuse of these discharges in the future and to help 
improperly discharged soldiers access the benefits they deserve.
---------------------------------------------------------------------------
    \17\  Flaherty, supra note 7.
---------------------------------------------------------------------------
    In determining whether disclosure of information is primarily in 
the commercial interest of the requester, DoD and its Components will 
consider ``[t]Nhe existence and magnitude of a commercial interest,'' 
and, if a commercial interest exists, whether the requester's primary 
interest in disclosure is commercial. 32 CFR Sec. 286.28(d)(3)(ii)(A-
B).
    Requesters have no commercial interest in gaining access to the 
requested records. Requesters are both nonprofit organizations whose 
primary goal is to assist veterans. Because no commercial interest 
exists, the requesters' primary interest in disclosure is not 
commercial.
    Finally, pursuant to 5 U.S.C. Sec. 552(a)(6)(A)(i), we expect a 
response within the twenty (20)-day statutory time limit.
    Should you have any questions in processing this request, we can be 
contacted by mail at the address below or by telephone at (203) 432-
4800.
    Please furnish all applicable records to:

    Tasha Brown, Law Student Intern
    Melissa Ader, Law Student Intern
    Michael Wishnie, Supervising Attorney
    Veterans Legal Services Clinic
    Jerome N. Frank Legal Services Organization
    P.O. Box 209090 New Haven, CT 06520

    Thank you for your assistance and prompt attention to this matter.

            Sincerely,

                                                     Tasha N. Brown
                                                 Law Student Intern

                                                    Melissa S. Ader
                                                 Law Student Intern

                                                 Michael J. Wishnie
                                               Supervising Attorney
                                     Veterans Legal Services Clinic
                        Jerome N. Frank Legal Services Organization

CC: Representative Robert Filner
    Chairman, United States House Committee on Veterans' Affairs

                               __________
                                                      U.S. Congress
                                                    Washington, DC.
                                                   October 15, 2010

The Honorable Dr. Robert Gates
Secretary of Defense
The Pentagon
Washington, D.C. 20301

Mr. Secretary

    In 2007, several members of the Senate formed a bipartisan 
coalition to identify and combat the misuse of personality disorder 
(PO) discharges in the Armed Forces, and as a result, improved mental 
health care and services for combat veterans. Today, we request your 
assistance to ensure that a new loophole has not been created that 
abuses the administrative discharge system by erroneously discharging 
members of the Armed Forces who are experiencing symptoms of Post-
Traumatic Stress Disorder (PTSD) or Traumatic Brain Injury (TBI) rather 
than providing them with medical care worthy of their service and 
sacrifice.
    While it is a good thing that the Pentagon has moved away from 
unfairly discharging combat troops by erroneously claiming a 
servicemember had a PO rather than addressing the harmful effects of 
combat stress, we need to ensure a new method is not being used to deny 
combat veterans the care and benefits they deserve. Unfortunately, the 
recent drop in discharges for PDs has been accompanied by a disturbing 
rise in discharges for the ``convenience of the government'' for 
``other physical or mental conditions not amounting to disability.'' 
According to Pentagon data, while PO discharges have decreased from 
1,072 in Fiscal Year 2006 to just 64 through March, 20 I0, discharges 
for ``other physical or mental conditions'' have more than doubled from 
1,453 in Fiscal Year 2006 to 3,844 in Fiscal Year 2009. We fear the 
rise in this category of discharges could reflect a failure to identify 
and treat troops for whom a deployment related disability board would 
be more appropriate.
    Under a discharge for the ``convenience of the government,'' troops 
may be separated from the Army for mental or physical conditions 
``manifesting . . . behavior sufficiently severe that the Soldier's 
ability to effectively perform military duties is significantly 
impaired''. We are concerned that many of these discharges are 
occurring among Soldiers in whom the diagnosis reflected in the 
discharge may actually represent a deployment-related mental health 
condition which might-had the Soldier continued on active duty--
otherwise have progressed towards a diagnosis eligible for a disability 
evaluation. Specifically, we are aware of numerous discharges for 
``adjustment disorder'', a mental health condition which, according to 
U.S. Army documents, exists along a spectrum of deployment-related 
stress occurring in progressive severity, from acute stress reaction to 
PTSD. We are particularly concerned that troops who display symptoms of 
combat stress are being expeditiously chaptered out of the military by 
the medical bureaucracy prior to their condition meeting formal 
diagnostic criteria for PTSD or other conditions that would constitute 
disability.
    This problem appears to be most acute in the U.S. Army, which is 
why in early August of this year we asked the Army to provide 
information on the number of soldiers discharged with an ``adjustment 
disorder'' or similar mental health diagnosis under the provisions of 
Army Regulation 600-235 (Enlisted Separations), chapter 5-17, and the 
number of troops who served in combat. Army officials assured us they 
would provide the information in 30 days, but as the due date arrived, 
announced their data search would take 6 months to complete and even at 
that late date would only include soldiers discharged in fiscal year 
2009. As a result of this disappointing response and our ongoing 
concern for the treatment of our combat troops, we request your 
assistance in obtaining information on the use of the adjustment 
disorder discharge by the Army.
    In order to identify discharge trends and ensure our combat troops 
are receiving proper care it is critical Congress be provided figures 
on the number of active duty Army servicemembers discharged from 2008 
through 2010 for Personality Disorders (Chapter 5-13) and for ``other 
designated physical or mental conditions'' (Chapter 5-17). 
Specifically, we request the following information by fiscal year:

    1.  The total number of soldiers discharged each under provisions 
of Chapter 5-13 and 5-17; and
    2.  Among (1), the number of those each who had served in an 
imminent danger pay area.

    As members of the United States Senate, we have an obligation to 
ensure that our troops receive the benefits and care they have earned 
on the battlefield. We are eager to work with you the Administration on 
these issues to ensure no soldier who has served their nation honorably 
in combat is unfairly discharged from the military or denied the care 
needed to heal their wounds, whether physical or mental.

            Sincerely,

Kit Bond

Sam Brownback
                                                     Chuck Grassley

                                                      Patrick Leahy

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                 September 21, 2010

Gene L. Dodaro
Acting Comptroller General
U.S. Government Accountability Office
441 G Street, NW
Washington, DC 20548

Dear Gene:

    In reference to our Full Committee hearing entitled ``Personality 
Disorder Discharges: Impact on Veterans' Benefits,'' that took place on 
September 15, 2010, I would appreciate it if you could answer the 
enclosed hearing questions by the close of business on October 29, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman
CW:ds

                               __________
                     United States Government Accountability Office
                                                    Washington, DC.
                                                    October 6, 2010

The Honorable Bob Filner
Chairman
Committee on Veterans' Affairs
House of Representatives

Subject:  Responses to Questions for the Record; Hearing Entitled 
Personality Disorder Discharges: Impact on Veteran's Benefits

Dear Mr. Chairman,

    This letter responds to your September 21, 2010, request that we 
address several questions for the record related to the Committee's 
September 15, 2010, hearing on the impact of personality disorder 
discharges on veteran's benefits. Our responses to the questions, which 
are in the enclosure, are based on our previous work and updates on the 
actions DoD has taken since August 2008 related to the recommendations 
we made in our 2008 report.
    If you have any questions about the letter or need additional 
information, please contact me on (202) 512-7114 or at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6f0b1d0e1f0a1d0b2f080e0041080019">[email&#160;protected]</a> 
or contact Mary Ann Curran on 202-512-4048 or at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a0c3d5d2d2c1cecde0c7c1cf8ec7cfd68e">[email&#160;protected]</a>

            Sincerely yours,

                                                    Debra A. Draper
                                              Director, Health Care

Enclosure

                               __________
                              Enclosure 1
    Responses to Post-Hearing Questions for the Record, Personality
    Disorder Discharges: Impact on Veterans' Benefits, Committee on
 Veterans' Affairs, U.S. House of Representatives, September 15, 2010,
       Questions for Debra A. Draper, Ph.D., M.S.H.A., Director,
           Health Care U.S. Government Accountability Office
     Questions for the Record Submitted by the Honorable Bob Filner

    Question 1: Has DoD taken sufficient action to implement GAO's 2008 
recommendations?

    Response: In our 2008 report--Defense Health Care: Additional 
Efforts Needed to Ensure Compliance with Personality Disorder 
Separation Requirements, GAO-09-31 (Washington, D.C.: October 31, 
2008)--we recommended that DoD (1) direct the military services to 
develop a system to ensure that personality disorder separations are 
conducted in accordance with DoD's requirements, and (2) monitor the 
military services' compliance with DoD's personality disorder 
separation requirements. Although DoD strengthened its personality 
disorder separation policy and has taken some action in response to our 
recommendations, at this time, we do not believe that DoD has taken 
sufficient action to implement our recommendations. In August 2008, 
after our review was completed, DoD updated its requirements for 
personality disorder separations and included additional requirements 
to help ensure that servicemembers, especially those serving in 
imminent danger pay areas, are not inappropriately separated because of 
a personality disorder. Additionally, in January 2009, DoD required the 
military services to submit compliance reports on their fiscal year 
2008 and 2009 personality disorder separations. The fiscal year 2008 
compliance reports from the military services showed a high rate of 
noncompliance with the requirements we reviewed in our report. 
Specifically, three out of four of the military services were not in 
compliance with any of the personality disorder separation 
requirements. As of August 31, 2010, DoD did not have the services' 
fiscal year 2009 compliance reports available for our review. Because 
the military services have not demonstrated full compliance with DoD's 
personality disorder separation requirements, we reiterate the 
importance of DoD implementing our 2008 recommendations.

    Question 2: Do you know why the military services have not provided 
the fiscal year 2009 compliance reports?

    Response: At this point, we are unsure of the reason we have not 
been provided the military services' compliance reports for fiscal year 
2009, as the services were required to submit them to DoD by March 31, 
2010. Based on DoD's response to us, it is unclear to us if these 
fiscal year 2009 compliance reports actually exist, or if DoD simply 
does not know where the reports are.

    Question 3: Of the requirements GAO reviewed, what requirement had 
the worst compliance rate among the military services?

    Response: In our 2008 review, which covers the period November 1, 
2001, through June 30, 2007, we found that for each of the four 
installations whose records we reviewed, the requirement that all 
enlisted servicemembers receive a diagnosis of personality disorder by 
a psychiatrist or psychologist who determines that the personality 
disorder interferes with the enlisted servicemembers' ability to 
function in the military had the lowest rate of documented compliance 
when compared with the other personality disorder separation 
requirements that GAO reviewed. Specifically, for these four 
installations, we found that the documented compliance rate for this 
requirement ranged from 40 to 78 percent. At one of these 
installations, compliance with the requirement that servicemembers 
receive formal counseling prior to their separation was equally low. 
For Navy servicemembers whose records we reviewed, the requirement that 
servicemembers receive formal counseling had the lowest rate of 
documented compliance (77 percent) of the personality disorder 
requirements that we reviewed.
    In our review of the military services' compliance reports that 
covered fiscal year 2008, the requirement that all enlisted 
servicemembers receive formal counseling prior to their separation had 
the worst rate of compliance for all of the services; none of the 
services met DoD's 90 percent compliance threshold for this 
requirement. In particular, the Navy's policy allowed enlisted 
servicemembers to be separated without formal counseling if they were 
deemed a danger to themselves or others, which did not mirror DoD's 
policy.

    Question 4: Why is formal counseling important?

    Response: Formal counseling is an important requirement for a 
personality disorder separation because it is intended to inform the 
enlisted servicemember that his or her behavior is unacceptable in the 
military; it is also intended to provide the servicemember with an 
opportunity to change his or her behavior.

    Question 5: Has DoD required any actions of the military services 
because of their reported noncompliance?

    Response: Yes. In January 2009, DoD required the military services 
to submit, along with their compliance reports for fiscal years 2008 
and 2009, corrective action plans for any requirements that did not 
achieve a 90 percent compliance rate.

    Question 6: Can you provide an example or two of the types of 
corrective actions the services submitted?

    Response: Each of the military services did not demonstrate 
compliance with all of DoD's personality disorder separation 
requirements for fiscal year 2008, and all of the services submitted 
corrective action plans for how each respective service planned to 
correct any deficiency in compliance. The Army, for example, stated in 
its fiscal year 2008 compliance report that its corrective action was 
to have the Army's Office of the Surgeon General review all personality 
disorder separation cases to ensure that each contains the required 
documentation. Each case that is found to not be in compliance with 
these requirements is to be returned for corrective action. This plan 
was to become effective as of March 13, 2009. The Marine Corps stated 
in its fiscal year 2008 compliance report that it would educate its 
personnel on the requirements for a personality disorder separation and 
provide a checklist of DoD's additional requirements to ensure these 
are followed during enlisted servicemembers' separations.

    Question 7: DoD's additional requirements cover enlisted 
servicemembers who were separated as of August 28, 2008. What is DoD 
doing about servicemembers who were separated prior to August 28, 2008?

    Response: Servicemembers who feel that their separations from the 
military were inappropriate can request adjudication through their 
respective service's Discharge Review Board. If a servicemember does 
not agree with the decision made by his or her service's Discharge 
Review Board, he or she may appeal this decision by applying to the 
respective service's Board for the Correction of Military Records.

    Question 8: Do you know if any servicemembers have gone before this 
discharge board to request adjudication of their separation?

    Response: Of the 371 servicemembers' records that we reviewed for 
our 2008 report, we found that 3 servicemembers applied to their 
respective Discharge Review Board to challenge the reason for their 
separation. One of these servicemembers received a change to the reason 
for separation because the review board found the separation because of 
a personality disorder was unjust. This servicemember's reason for 
separation was changed to secretarial authority of the military 
service, meaning that the Secretary of the military service decided it 
was in the best interest of the service to separate the servicemember. 
The other two servicemembers did not receive a change to their 
separation reason because the Discharge Review Board found that the 
documentation in the personnel records supported the personality 
disorder separation.

    Question 9: How long do servicemembers have to utilize the 
Discharge Review Board?

    Response: The Discharge Review Board process has to be utilized 
within 15 years after a servicemember's separation. After 15 years, 
servicemembers may apply directly to their service's Board for the 
Correction of Military Records to have the reason for separation 
reviewed.

    Question 10: Do enlisted servicemembers have any protections when 
going through the separation process?

    Response: Yes, enlisted servicemembers going through a personality 
disorder separation have several protections that they can utilize when 
going through the separation process. Enlisted servicemembers can 
submit statements on their own behalf to the commander with separation 
authority, consult with legal counsel prior to separation, and obtain 
copies of the separation packet--the documents necessary to separate a 
servicemember--that is sent to the commander with the authority to 
separate the servicemember. Those enlisted servicemembers with 6 or 
more years of service are eligible to request a hearing before an 
administrative board. The Navy allows enlisted servicemembers with less 
than 6 years of service to request this hearing. The administrative 
board hearing allows servicemembers to have legal representation, call 
witnesses, and speak on their own behalf in defending against the 
separation.

    Question 11: Did any of the servicemembers' records that GAO 
reviewed show that the servicemember selected any of the protections?

    Response: In our 2008 review, we found that enlisted servicemembers 
utilized the protections available to them to a varying degree. For 
example, 41 of the 371 servicemembers whose records we reviewed--or 11 
percent--submitted statements on their own behalf. Of the 41 
servicemembers that submitted a statement, 8 of these servicemembers 
(20 percent) questioned the accuracy of the diagnosis or requested not 
to be separated. All were eventually separated. We also found that 120 
of the 371 servicemembers' records (32 percent) indicated that the 
servicemembers wanted to consult with legal counsel prior to their 
separation. We could not verify if they met with legal counsel. 
Additionally, 328 of the 371 records that we reviewed (88 percent) had 
documentation that the servicemember requested a copy of their 
separation packet. For the 36 enlisted servicemembers in our review who 
were eligible to request an administrative hearing, we found that none 
of these servicemembers requested to do so.

                                 <F-dash>

    <greek-l>ELIMINATE BAD BREAK deg.Committee on Veterans' Affairs
                                                    Washington, DC.
                                                 September 21, 2010

The Honorable John M. McHugh
The Secretary
U.S. Department of the Army
The Pentagon, Room 3E700
Washington, DC 20310

Dear Mr. Secretary:

    In reference to our Full Committee hearing entitled ``Personality 
Disorder Discharges: Impact on Veterans' Benefits,'' that took place on 
September 15, 2010, I would appreciate it if you could answer the 
enclosed hearing questions by the close of business on October 29, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman

CW:ds

                               __________
                     Army Questions for the Record
           Hearing Date: September 15, 2010, Committee: HVA,
      Member: Congressman Filner, Witness: Major General Farrisee
                      Response to Sergeant Luther

    Question 1: Sergeant Luther was ordered confined to a closet and 
subjected to sleep deprivation so that he would sign his name to a 
personality disorder discharge. What is your response to this story?

    Answer: This is a mischaracterization of the chain of command's 
actions to prevent Sergeant Luther from endangering his life or the 
lives of his fellow soldiers. Sergeant Luther indicated suicidal 
ideations to his chain of command and doctors; in response, his chain 
of command placed him on a suicide watch. Sergeant Luther's battalion 
and company commanders were interviewed by officials within the 
Department of the Army's Deputy Chief of Staff for Personnel about 
Sergeant Luther's suicide watch. The chain of command stated that they 
acted out of genuine concern to protect Sergeant Luther and possibly 
other soldiers. Once placed on suicide watch, Sergeant Luther spent 
days and nights in the squadron aid station, so he would be close to 
medical care, if required, and so that he could be continuously 
monitored. Every day, Sergeant Luther was escorted to the life support 
area (about 1 mile away) so he could take a shower. He was also 
afforded opportunities to visit the internet cafes and dining facility. 
During the day, Sergeant Luther sat in the waiting room of the squadron 
aid station. The description of the small sleeping quarters in the aid 
station is accurate. However, the small sleeping quarters was not set 
up specifically for Sergeant Luther. It was a sleeping quarters used by 
medics during the night as they remained on duty 24/7 for possible 
casualties. Sergeant Luther used the sleeping quarters at night 
following his suicidal ideations that led the chain of command to place 
him on a suicide watch.
    The claim that sleep deprivation was used against Sergeant Luther 
to obtain his signature on his separation documentation is false. 
Sergeant Luther's signature was not required in order to process his 
separation packet. More importantly, the chain of command ensured 
Sergeant Luther's individual rights were protected and due process 
followed. Sergeant Luther was provided legal counsel throughout the 
separation proceeding; he was provided the opportunity to have his 
separation heard before an administrative separation board (he elected 
not to); he was provided the opportunity to submit matters to include 
supporting witness statement on his behalf (he elected not to).
                    Personality Disorder Separation
    Question 2: Please explain how the Army reached the conclusion that 
no soldier was dismissed improperly with personality disorder.

    Answer: In 2006 and 2007, the Office of The Surgeon General 
conducted two reviews of all separations, under Army Regulation (AR) 
635-200, Enlisted Separations, Chapter 5-13 (Personality Disorder) for 
Soldiers who had deployed to an imminent danger pay area. The results 
of these two investigations indicated that there was no evidence of 
inappropriate discharges of enlisted personnel for Personality 
Disorders. Recently, the Office of The Surgeon General conducted a 
record by record review of all cases of enlisted Soldiers who have 
deployed and were administratively separated under the provisions of AR 
635-200, Chapter 5-13 (Personality Disorder) or Chapter 5-17 
(categorized as behavioral health) since 2009, and found that no 
enlisted Soldier was dismissed improperly during this time.
                 Investigation with Soldiers' Families
    Question 3: During its review of previous cases, did the Army 
interview soldiers' families, who can often provide evidence of a shift 
in behavior that occurred after the soldier was sent into a war zone?

    Answer: During its review of cases, the Army did not interview 
Soldiers' Families. While interviewing Family members could indeed 
yield helpful collateral information, in accordance with the Diagnostic 
and Statistical Manual of Mental Disorders, 4th Edition, a diagnosis of 
Personality Disorder is not contingent on collateral information being 
provided. Instead, it is based on the presence of an enduring, 
inflexible, and pervasive pattern of behavior that can typically be 
traced back to an individual's adolescence, and causes significant 
distress in different areas of the individual's life. Our review showed 
that in all these cases that there was a pattern of behavior that 
predated deployment.
            Personality Disorder Diagnoses from 2006 to 2009
    Question 4: Can the Army explain why the number of the personality 
disorder discharges doubled between 2006 and 2009 and how many of those 
qualified to retain their benefits?

    Answer: The number of Soldiers discharged from the Army for 
personality disorder from 2006 to 2009 did not increase, the number 
decreased. In 2006, 1,071 Soldiers were separated for personality 
disorder. In 2007 a total of 1,066 Soldiers were separated compared to 
641 Soldiers in 2008, and 575 Soldiers in 2009. Soldiers who are 
separated from Active Duty are fully eligible for all transition 
services provided by the Army Career and Alumni Program (ACAP). 
Programs available within ACAP include pre-separation counseling, 
employment assistance, Veteran's Benefits Briefing, and the Disabled 
Transition Assistance Program (DTAP). Pre-separation counseling 
provides Soldiers information about services and benefits they have 
earned while on Active Duty. Employment assistance consists of 
individual voluntary one-on-one counseling, employment workshop, 
resume, and more. The Veterans Benefits Briefing is a 4-hour long 
briefing provided by Veterans Affairs counselors covering all VA-
controlled services and benefits that a Soldier can receive or may be 
eligible for after separation. DTAP is a 2-hour long briefing provided 
by VA counselors. Soldiers who are separated due to medical or physical 
injuries, as well as Soldiers who believe that they will file a VA 
Disability Claim, are highly encouraged to attend this briefing. 
Benefits are generally based on the Soldier's characterization of 
discharge as opposed to the chapter of AR 635-200 under which an 
administrative separation is processed. Soldiers discharged for 
personality disorder are normally awarded an honorable discharge and 
eligible for the same benefits as any Soldier separating under 
honorable conditions with similar lengths of service.
                     Adjustment Disorder Diagnoses
    Question 5: Is the Army now relying on a different designation--
referred to as ``adjustment disorder''--to dismiss soldiers?

    Answer: No. Adjustment disorders are a basis for administrative 
discharge under Army Regulation 635-200, Enlisted Separations, Chapter 
5-17. To endorse an adjustment disorder separation, the Office of The 
Surgeon General requires clinical documentation that the Soldier 
manifests a long-standing, chronic pattern of difficulty adjusting, and 
that the Soldier is not amenable to behavioral health treatment nor 
will respond to Command efforts at rehabilitation (e.g., transfer, 
disciplinary action, or reclassification).
                                 DD 214
    Question 6: On the DD 214 where it asks for a narrative reason for 
discharge is it common to list ``personality disorder'' if in fact the 
soldier was diagnosed with a personality disorder?

    Answer: Yes, it is common to list ``personality disorder'' on the 
DD Form 214 when an enlisted Soldier has been diagnosed with 
personality disorder and separated for that reason in accordance with 
Army Regulation 635-200, Active Duty Enlisted Administrative 
Separations, paragraph 5-13. However, not all Soldiers diagnosed with 
personality disorder are separated for that reason. Separation for 
personality disorder is not appropriate when separation is also 
warranted under another chapter of the regulation. Enlisted Soldiers 
diagnosed with personality disorder but separated under a different 
chapter of the regulation will not have personality disorder listed on 
their DD Form 214.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                 September 21, 2010

The Honorable Robert M. Gates
The Secretary
U.S. Department of Defense
The Pentagon
Washington, DC 20301-1155

Dear Mr. Secretary:

    In reference to our Full Committee hearing entitled ``Personality 
Disorder Discharges: Impact on Veterans' Benefits,'' that took place on 
September 15, 2010, I would appreciate it if you could answer the 
enclosed hearing questions by the close of business on October 29, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman

CW:ds

                               __________
                    Hearing Date: September 15, 2010
    Committee: HVA, Member: Congressman Filner, Witness: Mr. Hebert
                         Personality Disorders

    Question 1: Some individuals contend that personality disorders are 
not possible for servicemembers who must demonstrate physical and 
mental fitness for duty. How do you respond to these assertions?

    Answer: Qualified medical professionals have diagnosed Personality 
Disorders in Servicemembers who previously demonstrated physical and 
mental fitness for duty. Latent symptoms do occur and may present 
themselves after exposure to differing conditions.
              FY 2009 Military Services Compliance Reports
    Question 2: Do you know when the fiscal year 2009 compliance 
reports for each of the military services that were supposed to be 
submitted to DoD by March 31, 2010, will be submitted to DoD?

    Answer: Yes. All Military Departments have submitted their fiscal 
year 2009 Personality Disorder Separation Reports. Dates submitted: 
Dept of Navy-6 Apr 10; Air Force-23 Apr 10; Army-14 Jun 10. Based on 
the Services reports, on 10 September 2010, USD (P&R) directed the 
Military Departments to report their compliance with DoD Personality 
Disorder separation guidance through FY 2012 for continued review by 
USD (P&R).
         Oversight of FY 2008 Services Corrective Action Plans
    Question 3: How is DoD ensuring that the corrective action plans 
discussed by each of the military services in their fiscal year 2008 
compliance reports are being implemented by the services?

    Answer: To ensure that the corrective action plans are being 
implemented, the Department required the Services to report their 
compliance with Personality Disorder separation guidance for FY 2008 
and FY 2009. Significant compliance improvement was reported in FY 2009 
versus FY 2008. However, the Services were not yet 100 percent 
compliant with all eight DoD Personality Disorder Separation 
requirements. Therefore, on 10 Sep 2010, the Under Secretary of Defense 
for Personnel and Readiness directed the Military Departments to 
continue to report on their compliance with DoD Personality Disorder 
Separation guidance through FY 2012, which will be reviewed by the 
Under Secretary of Defense for Personnel and Readiness.
          DoD Plans to Implement a Long-Term Reporting System
    Question 4: Does DoD plan to implement a long-term system of 
reporting, beyond the fiscal years 2008 and 2009 compliance reports, 
for each of the military services to document their compliance with 
personality disorder separation requirements?

    Answer: Yes. On September 10, 2010, the Under Secretary of Defense 
for Personnel and Readiness directed the Military Departments to 
continue to report on their compliance with DoD Personality Disorder 
Separation guidance through FY 2012. These reports will be reviewed by 
the Under Secretary of Defense for Personnel and Readiness.
                    Personality Disorder Separation
    Question 5: How does DoD plan to oversee the military services' 
compliance with DoD personality disorder separation requirements?

    Answer: In order to oversee the Military Services' compliance with 
DoD Personality Disorder separation requirements, DoD requires the 
Military departments to provide a report on compliance. On January 14, 
2009, the Military Departments were directed to provide a report on 
compliance with DoD Personality Disorder separation guidance contained 
in DoDI 1332.14 for FY 2008 and FY 2009. While significant improvement 
in compliance has occurred, it is clear that compliance reporting 
should continue. Therefore, on September 10, 2010, the Under Secretary 
of Defense for Personnel and Readiness directed the Military 
Departments to continue their compliance reporting through FY 2012. 
These reports will be personally reviewed by the USD (P&R). Further 
extensions will be considered until USD (P&R) is satisfied that full 
compliance is being achieved.
                    Personality Disorder Separation
    Question 6: Please explain how enlisted servicemembers who are 
separated with a personality disorder diagnosis got into the service in 
the first place. Does DoD or the military services have any kind of 
test or assessment that could help detect a personality disorder prior 
to a recruit coming into the service?

    Answer: All applicants for military service go through a multi-step 
medical screening process. An essential part of that screening is a 
medical exam at a Military Entrance Processing Station (MEPS). With 
respect to Personality Disorder, the following applies:

    1.  Applicants are required to complete a medical pre-screening (DD 
2807-2 Medical Prescreen of Medical History Report) before reporting to 
the MEPS. That form is reviewed by the MEPS' Medical Staff to identify 
individuals who require additional screening. The question on the form 
related to mental health issues is:

      a.  Have you seen a psychiatrist, psychologist, counselor or 
other professional for any reason (inpatient or outpatient) including 
counseling or treatment for school, adjustment, family, marriage or any 
other problem, to include depression, or treatment for alcohol, drug or 
substance abuse?

    2.  Furthermore, all applicants undergo a medical evaluation that 
includes a review of medical history and physical with a licensed 
physician. Included in the medical history at the time of the 
examination are the following questions:

      a.  Nervous trouble of any sort (anxiety or panic attacks)?
      b.  Received counseling of any type?
      c.   Depression or excessive worry?
      d.  Been evaluated or treated for a mental condition?
      e.  Attempted suicide?

    All positive responses are addressed by the examining physician at 
the time of the physical examination. In addition, through the course 
of interactions with military and medical professionals, symptoms which 
present themselves result in further examinations.
    It is possible for a person who is separated with a personality 
disorder to enter a Service. If during the examination, an applicant 
fails to reveal a personality disorder or another mental health issue 
and none are detected, the applicant may be deemed qualified from a 
mental health standpoint. However, it should be noted that this 
screening process is unlikely to identify all cases of personality 
disorder. Even if a recruit has a history of difficulties working or 
getting along with others, which might provide a clue to possible 
personality disorder, that behavior might not have resulted in a 
medical evaluation or diagnosis that could later be reviewed during an 
entrance examination. A person also may enter service without a 
personality disorder and develop one over time that leads to 
separation.
                    Personality Disorder Separation
    Question 7: DoD's August 2008 policy requires that the military 
services comply with additional requirements when separating enlisted 
servicemembers diagnosed with a personality disorder who served in an 
imminent danger pay area. This policy applies to servicemembers 
separated as of August 28, 2008, and is intended to make sure that 
these servicemembers do not have post-traumatic stress disorder or some 
other combat-related condition. What action is DoD taking for those 
servicemembers who were separated with a diagnosis of a personality 
disorder prior to August 28, 2008, and who served in an imminent danger 
pay area?
    Answer: On September 10, 2010, the Under Secretary of Defense for 
Personnel and Readiness directed the Military Departments to report by 
March 31, 2011, actions taken to:

    1.  Identify Servicemembers who have deployed in support of a 
contingency operation since September 11, 2001, and were later 
administratively separated for a personality disorder, regardless of 
years of service, without completing the enhanced screening 
requirements for Post-Traumatic Stress Disorder (PTSD) and Traumatic 
Brain Injury (TBI).
    2.  Inform Servicemembers of the correction of discharge 
characterization process.
    3.  Inform Servicemembers on how to obtain a mental health 
assessment through the Department of Veterans Affairs.
    4.  Identify these individuals to the Department of Veterans 
Affairs.

    The Office of the Under Secretary of Defense (Personnel and 
Readiness) will examine the reports and ensure that the Services 
perform the latter three actions for any Servicemember found to have 
not received the services.
                     Adjustment Disorder Diagnoses
    Question 8: Has DoD reviewed the allegation that the military 
services may be discharging enlisted servicemembers with a diagnosis of 
adjustment disorder in order to reduce the number of personality 
disorder discharges? If so, what did DoD find? If not, does DoD intend 
to review this?

    Answer: Yes, the Department has conducted this review. When this 
allegation came to light, the Department examined the number of 
Servicemembers administratively separated for Personality Disorder and 
Adjustment Disorder since 2000. Defense Manpower Data Center (DMDC) 
data showed the Air Force was the only Service that separated 
Servicemembers for Adjustment Disorder.
    Air Force clinicians are sensitive to the need and requirement to 
evaluate for potential disability when an administrative separation is 
being considered. Clinicians follow current DoD and Air Force guidance 
when making these recommendations regarding administrative separations. 
The Air Force is fully compliant with the DoD Personality Disorders 
separation guidance. It is understood that under the Diagnostic and 
Statistic Manual (DSM), Personality Disorders and Adjustment Disorders 
are not substitutes for one another. Data are collected and coded 
separately, but they often co-exist. Substituting one diagnosis for 
another simply to avoid administrative or clinical review is neither 
appropriate nor authorized.
    The Air Force reviewed data related to the separation of Airmen for 
Adjustment Disorders and Personality Disorders. The percentage of Air 
Force mental health discharges for Personality Disorders has always 
been quite small (approximately 5-8 percent of the total number of 
mental health discharges).
                     Adjustment Disorder Diagnoses
    Question 9: What action has DoD taken to ensure that servicemembers 
discharged with a diagnosis of adjustment disorder do not have post-
traumatic stress disorder or traumatic brain injury? Do symptoms for an 
adjustment disorder overlap with symptoms for PTSD or TBI?

    Answer: On August 28, 2008, the Department issued new policy on 
personality disorders separations, which added greater rigor and 
oversight. The revised policy only permits a personality disorder 
separation if diagnosed by a psychiatrist or PhD-level psychologist. 
Implementation of this change has increased the Department's confidence 
in our ability to accurately diagnose personality disorders. This 
change also serves to improve the identification of any co-morbidity of 
PTSD or TBI.
    In addition, Servicemembers who have served in an imminent danger 
pay area must have their diagnosis corroborated by a peer psychiatrist, 
PhD-level psychologist, or higher level mental health professional and 
endorsed by the Surgeon General of the Military Service concerned. This 
change specifically addresses concerns that Servicemembers suffering 
PTSD or TBI might be separated without proper treatment under the non-
compensable, exclusive diagnosis of a personality disorder. To ensure 
continued monitoring of this critical process, the Department 
implemented oversight mechanisms to include an annual personality 
disorder report and periodic reviews of personality disorder separation 
data by the Department's Medical and Personnel (MedPers) Council.
    With regard to whether there can be overlap between the cognitive 
and behavioral symptoms of adjustment disorder (particularly mixed 
type) and PTSD or TBI, the answer is yes. Examples of potentially 
overlapping symptoms include subjective memory difficulties, mood 
problems, impulsivity, anger or withdrawal. However, diagnosis is not 
made solely on reported symptoms. Evaluation includes interview, 
medical history, and mental status examination. Additional physical 
examination, laboratories, imaging, psychological testing, and other 
evaluations are performed as appropriate. There are distinguishing 
factors of each condition used to make an accurate diagnosis. 
Prerequisite to each condition is the root cause of the inciting event. 
In the case of PTSD, it is exposure to an event where there was risk to 
life or limb of self or others. In the case of TBI, it is a blast or 
blow to the head. In the case of an adjustment disorder, the stressor 
is usually a more common psychosocial one, such as problems in a 
relationship, problems in adjusting to military life, or legal 
problems. When the stressor is removed, the adjustment disorder should 
resolve. With the understanding that an individual can have one, two, 
or all three diagnoses simultaneously, a review of personal history is 
necessary to separate the three conditions under most circumstances.
              FY 2009 Military Services Compliance Reports
    Question 10: Ms. Draper stated that, as of August 31, 2010, DoD had 
not received the military services' FY 2009 reports on compliance with 
the additional personality disorder requirements implemented in 2008. 
When do you expect to receive these reports?

    Answer: These reports have been received by DoD. All of the 
Military Departments have submitted their fiscal year 2009 Personality 
Disorder Separation Reports. (Dates submitted: DoN-6 Apr 10; AF-23 Apr 
10; Army-14 Jun 10.)

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                 September 21, 2010

The Honorable Eric K. Shinseki
The Secretary
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Mr. Secretary:

    In reference to our Full Committee hearing entitled ``Personality 
Disorder Discharges: Impact on Veterans' Benefits,'' that took place on 
September 15, 2010, I would appreciate it if you could answer the 
enclosed hearing questions by the close of business on October 29, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman

CW:ds

                               __________
                        Questions for the Record
    The Honorable Bob Filner, Chairman, House Committee on Veterans'
    Affairs, ``Personality Disorder Discharges: Impact on Veterans' 
                               Benefits''
                           September 15, 2010

    Question 1: Does VA track the cases where veterans are granted 
service connection for PTSD or other mental health conditions even 
though they were discharged from the military with a personality 
disorder?

    Response: VA does not systematically track instances where Veterans 
are discharged from the military with a personality disorder and are 
subsequently granted service connection for PTSD or other mental health 
conditions. VA generally reviews and decides issues that are 
specifically claimed by the Veteran. Unless the Veteran claims the 
issue of service connection for a personality disorder, there is no 
requirement for VA to electronically enter information about the 
condition into the corporate system. Thus, the requested data cannot be 
obtained through VA's corporate computer system.

    Question 2: How many personality disorder discharges have you seen 
since the new policy was implemented where the servicemember may have 
served in combat?

    Response: Deferred to Committee to forward to DoD.

    Question 3: It's said that PTSD symptoms mimic personality 
disorders. Is there standard clinical guidance that allows for proper 
diagnosis of personality disorders?

    Response: The standard clinical guidance for the diagnosis of both 
PTSD and personality disorders is found in the Diagnostic and 
Statistical Manual of Mental Disorders, Fourth Edition, Text Revision 
(DSM-IV-TR) published by the American Psychiatric Association. A 
personality disorder is defined by the DSM-IV-TR as an enduring pattern 
of inner experience and behavior that deviates markedly from the 
expectations of the individual's culture, manifested in cognition (ways 
of perceiving or interpreting events and others' behavior), affect 
(including the range, intensity, ability to manifest, or 
appropriateness of emotional responses), interpersonal functioning, and 
impulse control. Essentially, this means that a person with a 
personality disorder displays behavior and attitude that is a stable, 
long-term characteristic of the individual and that differs from 
cultural norms in problematic ways. Specifically, DSM-IV TR requires 
that, ``The pattern is stable and of long duration and its onset can be 
traced back at least to adolescence or early adulthood.'' On the other 
hand, PTSD is an anxiety disorder that may develop at any point of the 
lifespan as a response to traumatic event(s) and is not seen as a 
stable, longstanding characteristic of the individual.
    When clinicians provide a differential diagnosis between PTSD and 
personality disorders, they take several factors into account. For 
example, a new diagnosis of a personality disorder should not be made 
if the person currently also meets criteria for another major mental 
health disorder. Specifically, it requires that, ``The enduring pattern 
is not better accounted for as a manifestation or consequence of 
another mental disorder,'' and that, ``The enduring pattern is not due 
to the direct physiological effects of a substance (e.g., a drug of 
abuse, a medication) or a general medical condition (e.g., head 
trauma).'' Primarily, these requirements exist because the problems 
exhibited by individuals with personality disorders can also be 
symptoms of other mental health conditions, and without a prior 
personality disorder diagnosis, the clinician cannot assume that these 
symptoms represent long-standing, enduring characteristics of the 
individual, rather than being symptoms of a new major mental health 
disorder.

    Question 3(a): Are personality disorders inherently pre-existing, 
or is it possible to develop a personality disorder as a result of 
military service? If so, how does the C&P examination process consider 
this possibility?

    Response: As noted above, a personality disorder is ``an enduring 
pattern of inner experience and behavior . . . The pattern is stable 
and of long duration and its onset can be traced back at least to 
adolescence or early adulthood.'' Therefore, most cases of personality 
disorders would manifest prior to a person's military experience. 
However, it is possible that the diagnosis may not be made until one's 
military service. A personality disorder would not be considered to 
develop as a result of military service in the same way that PTSD might 
have a precipitating event that occurred as part of an individual's 
military service. However, it is possible that some individuals may not 
have encountered the sorts of challenging experiences in a structured 
setting (which could include basic training or combat experiences) that 
would have precipitated recognition of the fact that the individual 
meets criteria for a personality disorder until the individual entered 
military service.
    Compensation and Pension (C&P) examination processes begin with the 
Veterans submitting a claim. An appropriate interview is then arranged 
to examine the clinical basis for the claim. A diagnosis given by DoD 
when the Veteran separates, while reviewed as part of the medical 
record, is not determinative of the diagnosis established as a result 
of the C&P examination. The Veteran will be evaluated as to whether the 
diagnosis for which he or she submits a claim is substantiated 
according to DSM-IV-TR criteria. For mental health claims, only 
doctoral level, licensed Psychologists or Psychiatrists can conduct the 
diagnostic interview. Service connection may not be granted for a 
personality disorder; only acquired psychiatric disorders, which are 
categorized separately in the DSM-IV-TR, may be service connected.

    Question 4: In your testimony, you note that veterans are not bound 
by any diagnosis from DoD when seeking treatment from VA or when 
submitting a claim for service connection. While this may be true, do 
you believe that these veterans face an uphill battle in proving that 
their pre-existing conditions were aggravated by or worsened by their 
service?

    Response: Because personality disorders are considered 
constitutional or developmental abnormalities, they are not diseases in 
the meaning of applicable legislation for disability compensation 
purposes. Therefore, personality disorders are not subject to service 
connection (this includes service connection on the basis of 
aggravation). In instances where a Servicemember enters service with a 
pre-existing personality disorder, it is possible that a superimposed 
disease or injury could occur. In these cases, service connection would 
be warranted for the additional resultant disability. An example would 
be PTSD superimposed on the personality disorder. When adjudicating 
these types of cases, VA reviews all evidence of record and then 
renders a fair and equitable decision based on the merits of the case.

    Question 5: Do VA clinicians administering C&P examinations receive 
training on distinguishing between PTSD or TBI and a personality 
disorder? Do non-VA clinicians contract to administer C&P examinations?

    Response: The standard clinical guidance for the diagnosis of PTSD 
and personality disorders is found in the Diagnostic and Statistical 
Manual of Mental Disorders, Fourth Edition, Text Revision (DSM-IV-TR) 
published by the American Psychiatric Association. Psychiatrists and 
psychologists, who are the clinicians conducting the C&P examinations 
for mental health conditions, receive training on the diagnostic 
nomenclature, as well as related guidance on differential diagnosis 
provided in the DSM-IV-TR during their graduate and postgraduate 
training. Knowledge of this clinical guidance is tested through state 
professional licensure exams and reinforced through professional 
continuing education.
    VHA requires that its clinicians complete certification training 
before performing C&P examinations. Certification training is available 
and required for both PTSD and TBI. VHA has conducted in depth training 
programs on a variety of mental health subjects during National C&P 
Conferences. PTSD is included in these conferences, as is TBI. VHA held 
a four day National Conference August 5-7, 2008 specifically to address 
PTSD and TBI. Included in this national conference were programs 
titled:

    <bullet>  Overview of PTSD Regulations;
    <bullet>  PTSD Stressor Identification and Other Key Exam Items;
    <bullet>  PTSD Measures; and
    <bullet>  PTSD, Psychiatric and Medical Co-Morbidities.

    The next conference is being planned for early summer 2011.
    VHA can hire (contract) part time C&P exam services. Those 
providers examine on site and are required to follow the same 
certification and registration process as full-time examiners. Some 
facilities have chosen to contract with QTC Medical Services, Inc., one 
of VBA's large C&P exam contractors. These exams are done in private 
doctor's offices.
    Non-VA clinicians are contracted to administer C&P examinations 
through a contractor. The contractor trains non-VA clinicians to 
conduct high quality examinations. Contractor training includes VA's 
rating criteria, issues identified in current VA fast letters, 
including PTSD and TBI, and other updates such as the recent PTSD 
regulation change.
    The contractor subcontracts with mental health and medical 
professionals who are certified and licensed in their area of 
expertise. The contractor only uses physicians and psychologists for 
mental health assessments, rather than mid-level clinicians. Examiners 
are required to use examination worksheets for PTSD/Mental Health and 
TBI, which have specific guidelines. Initial examination worksheets are 
closely reviewed, and refresher training is provided to address any 
issues. The contractor provides annual refresher training and sends a 
monthly training letter with updates on C&P exams.
    An examiner's quality is measured immediately after he is trained 
and begins doing C&P exams. The contractor does a 100 percent review of 
the first 10 exams of each worksheet before the examiner is allowed to 
work independently. The contractor also has an internal process to 
track the examiner's quality. If the work is unsatisfactory, then the 
individual is retrained before scheduling additional exams. If 
retraining fails to correct quality deficiencies, the examiner will not 
be allowed to continue conducting examinations. C&P Service's Contract 
Exam Staff also conducts quarterly reviews of exams done by the 
contractor.

    Question 6: Mr. Sullivan of Veterans for Common Sense stated a 
concern that veterans who have been discharged due to a personality 
disorder ``frequently believe they are not entitled to full VA 
benefits.'' Does VA provide any outreach to these veterans to ensure 
they understand the benefits they are entitled to?

    Response: Although VA does not have a specific outreach program for 
Veterans discharged due to personality disorders, our current 
separation programs provide assistance to these Veterans. VA openly 
encourages all Servicemembers to complete the Transition Assistance 
Program (TAP) or Disabled Transition Assistance Program (DTAP). DoD 
supports VA by affording each Servicemember the opportunity to attend 
TAP/DTAP prior to and even after leaving the military.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
